<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                         WEDNESDAY, MAY 8, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Landrieu, Tester, Alexander, 
Cochran, Shelby, Collins, Murkowski, and Hoeven.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                           Corps of Engineers

STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY 
            OF THE ARMY (CIVIL WORKS)


             opening statement of senator dianne feinstein


    Senator Feinstein. Good afternoon and welcome to the Energy 
and Water Subcommittee's oversight hearing of the fiscal year 
2014 budget request for the Bureau of Reclamation and the Army 
Corps of Engineers.
    Our witnesses today include Anne Castle, Assistant 
Secretary for Water and Science of the Interior Department; 
Michael Connor, Commissioner for the Bureau of Reclamation; Jo-
Ellen Darcy, Assistant Secretary of the Army for Civil Works; 
and Lieutenant General Thomas Bostick, Chief of Engineers for 
the United States Army Corps of Engineers.
    Thank you all for appearing before us today. And because of 
our late start, because of votes on the floor, I'm going to 
submit my full statement for the record, but I do want to make 
just a few points.
    First, you should understand that I am a big fan of both of 
your Agencies and the great work you do across the Nation and 
particularly in California. The Bureau of Reclamation provides 
water and power to 17 Western States. Reclamation delivers 
water to 31 million people, for municipal, rural, and 
industrial uses. They deliver water to 20 percent of the West's 
farmers, providing irrigation to 10 million acres of some of 
the most productive agricultural land in the world. They also 
address water resource challenges posed by drought, climate, 
depleted aquifers, environmental needs, energy demands, and 
population increases across the West.
    Yesterday, I listened to the number 2 in the Interior 
Department, the distinguished David Hayes, point out that this 
year is going to be the worst drought year for California in 
history, and, obviously, that affects water and the economy of 
our State.
    The economy of California is almost entirely dependent on 
the Central Valley and State water projects. Without these two 
massive projects, the State would be very different today.
    Corps of Engineers ports and waterways serve 41 States via 
25,000 miles of waterways and 926 ports, providing over 2.3 
billion tons of cargo.
    I was also just told by the distinguished staffer behind me 
that Corps land for recreation is actually greater than the 
national park system of our country, and I never realized that 
before, and it's really very impressive.
    Damages prevented by Corps flood control projects exceed 
$25 billion annually. Every $1 invested in flood control since 
1928 has prevented over $7 in damages, when adjusted for 
inflation.
    We depend on both of your agencies to build this water 
infrastructure as well as facilitating much needed 
environmental restoration.
    Second, and quite candidly, I believe your budget requests 
are insufficient to meet our Nation's water resources needs. 
Out of a $4.8 billion request for the Corps, only $1.35 billion 
is designated for construction. This is $121 million less than 
what your budget proposed last year. Unfortunately, this budget 
continues a trend in the wrong direction.
    Federal investments in our water resource infrastructure 
are really the key to providing better flood protection and 
preventing damages from natural disasters.
    Don't misunderstand me. I'm not blaming you. I understand 
this is the way it has been. What I'm trying to say is we need 
to think about changing it.
    We know it's much cheaper to design and construct these 
projects in a reasoned, thoughtful manner before a disaster 
occurs than to react after the fact.
    My interest in this is quite personal. Sacramento, 
California, is the largest urban population with the least 
amount of flood protection in the country. A major flood would 
devastate this area.
    The fragile Sacramento-San Joaquin Delta provides drinking 
water to 23 million people and contains some of the most 
productive farmland in the world. But a severe earthquake, and 
we're going to have one, could destroy levies, severing the 
water supply, and inundating up to 1 million acres of farmland 
with saltwater.
    Finally, the unfortunate lesson taken from recent disasters 
is that in order to fund a project in a timely manner, the area 
must first be devastated by a natural disaster. It happened 
with Hurricane Katrina and now with Superstorm Sandy. That's 
really the wrong lesson to be learning.
    Since fiscal year 2003, this committee has provided more 
than $22.5 billion in emergency appropriations for disaster 
recovery and construction efforts for the Corps in the wake of 
these natural disasters--$22.5 billion. During the same 10-year 
period, we have provided just $21 billion for construction of 
projects nationwide to prevent these types of damages from 
occurring.
    If we choose instead to robustly fund infrastructure 
development, the reduction in damages would have meant 
considerably less need for these extensive emergency 
appropriations.
    I would be remiss if I didn't speak about the vital 
functions of the Bureau of Reclamation in Western States, and I 
particularly want to thank its commissioner, Mike Connor. You 
have a very difficult role and there are a lot of conflicts, 
and I understand them. Water is not easy.
    Funding for water conservation, recycling, and new storage 
are critical to address the many challenges posed by drought, 
climate change, energy demands, and population increases. Yet, 
they too are underfunded in the budget request.


                           prepared statement


    If we don't invest more in our water resources today, we're 
going to be forced to spend more in recovery efforts following 
massive natural disasters tomorrow. At best, the budget 
requests for both Agencies barely meet the minimum needs for 
water resources development. Out of a $1 trillion budget for 
discretionary spending, I think we should do better. I'm not 
blaming you. I understand this is the way it is and understand 
that you try to balance it, but I also understand that so much 
of our infrastructure is under threat. In the West, the 
probabilities of a major earthquake are way up, and we've got 
thousands of miles of levees in the river system and the delta, 
all of which could come down.
    So I look forward, in my question time, to talk a little 
bit more about this.
    [The statement follows:]
            Prepared Statement of Chairman Dianne Feinstein
    Good afternoon ladies and gentlemen and welcome to the Energy and 
Water Subcommittee's oversight hearing on the fiscal year 2014 budget 
requests for the Bureau of Reclamation and the U.S. Army Corps of 
Engineers.
    I am going to start by saying that I am a big fan of both of your 
agencies, but I believe that your budget requests are inadequate to 
meet our Nation's water resources needs. Out of a $4.8 billion request 
for the Corps, $1.35 billion is designated for construction. This is 
$121 million less than what your budget proposed for fiscal year 2013. 
I believe that is the wrong direction.
    Every year in this hearing we go through the same ballet. You tell 
us that the Administration's budget request meets all of the Nation's 
most pressing needs and we disagree with that assessment.
    When the fiscal year 2005 budget request was prepared, your 
predecessor made similar statements to this committee about the Corps 
budget meeting the Nation's most pressing needs. In a $4.5 billion 
budget for the Corps, $1.637 billion was for construction of new flood 
control, navigation and ecosystem restoration projects; $41.5 million 
was included for construction of hurricane and storm damage reduction 
projects in the New Orleans area. In August of that year, Hurricane 
Katrina caused significant damages, including loss of life and property 
to most of the gulf coast States with Louisiana suffering the greatest 
impacts. Where the budget of 7 months earlier had met the Nation's most 
pressing needs, we suddenly found that the Nation had suffered a 
terrible tragedy with damages in excess of $100 billion.
    Rightfully so, recovery for this area became a pressing national 
priority for the Administration and Congress. I voted for all seven 
supplemental appropriations to ensure a comprehensive hurricane and 
storm damage reduction system was completed as quickly as possible. 
This committee provided $14.5 billion to the Corps for recovery and new 
construction to ensure that the New Orleans area would not suffer 
significant losses from a similar storm. We saw the results of this 
investment in New Orleans last year when Hurricane Isaac struck. The 
storm caused significant impacts on the unprotected areas around New 
Orleans. However, the hurricane and storm damage reduction system 
developed, funded, and constructed in the aftermath of Hurricane 
Katrina protected the area within the system from all but minor 
flooding. One can only imagine the damages that would have occurred to 
New Orleans if the funds to construct this system had not been 
appropriated in a timely and efficient manner.
    A more recent example is from February of last year. Secretary 
Darcy, your testimony made similar statements about meeting the 
Nation's most pressing needs. Your fiscal year 2013 budget proposed a 
total of $4.7 billion for the Corps; $1.471 billion was for 
construction of new flood control, navigation, and ecosystem 
restoration projects. Only $6 million of that construction funding was 
dedicated to construction of shore protection projects along the North 
Atlantic Coast. However, scarcely 9 months later, we were facing 
unimaginable devastation along the North Atlantic Coast due to 
Hurricane Sandy. This storm caused loss of life and property and 
damages in excess of $60 billion. Where shore protection was not one of 
the most pressing needs just 9 months earlier, it suddenly became such 
a priority that the Administration proposed a $5.35 billion recovery 
and construction program to ensure these areas did not suffer 
significant losses in the future.
    I could also cite similar examples for the 1995 Central California 
Floods, the 1997 Red River of the North Flood, the historic Mississippi 
and Missouri River floods of 2011, or numerous other natural disasters.
    My point is not that the Administration is bad at predicting where 
or when natural disasters are going to occur, but rather that we are 
not learning lessons from these natural disasters. Or worse, we are 
learning the wrong lessons. We all know that wise flood plain 
development by State and local interests combined with flood risk 
management projects jointly developed by Federal, State and local 
governments can significantly lessen the impacts of natural disasters. 
We also know that it is much cheaper to design and construct these 
projects in a reasoned thoughtful manner before the disaster occurs. 
Unfortunately, the lesson that seems to have been learned is that in 
order to get a project efficiently funded and completed in a timely 
manner, the area must first be struck by a devastating natural 
disaster. That is the wrong lesson to be learning.
    Since fiscal year 2003, this committee has provided emergency 
appropriations of more than $22.5 billion for disaster recovery and 
construction efforts for the Corps of Engineers. During the same 10-
year period, we have provided just $21 billion for construction of 
projects nationwide through the Corps regular appropriations. If we had 
chosen to more robustly fund this infrastructure development, 
significant damages would have been prevented significantly reducing 
the need for emergency appropriations.
    My interest in this is quite personal. My State is home to 
Sacramento which is the largest urban population with the least amount 
of flood protection in the Nation. A major flood would devastate this 
area. Additionally, our fragile Sacramento-San Joaquin Delta is the 
pathway that provides 23 million Californians drinking water and 
contains some of the best, most productive farmland in the world. 
Similarly, a severe earthquake could destroy these levees severing this 
vital water supply and up to 1 million acres of farmland would 
disappear as salt water permeated the soil.
    I recognize that debt issues are forcing us to face austere 
budgets. However, we always seem to be able to find a way to deal with 
the emergencies of these natural disasters. That usually involves 
significant appropriations. It would seem that a more prudent course of 
action would be to spend more on projects that would prevent the 
impacts from these natural disasters occurring. However, the Federal 
Government cannot do this alone. Local and State governments must do a 
better job of controlling development in vulnerable areas.
    I would be remiss if I didn't speak for a moment about the vital 
functions that the Bureau of Reclamation performs for the 17 Western 
States. The economy of my State is almost entirely dependent on the 
Central Valley and State Water Projects. Without these two massive 
water projects, the State of California would be vastly different 
today. Funding for conservation, recycling, and new storage are 
critical to address the challenges posed by drought, climate change, 
depleted aquifers, environmental needs, energy demands and population 
increases in the west. Yet they are continually underfunded in the 
budget request. If we do not invest more now in our water resources, in 
the years ahead we will be addressing the recovery from what seem to be 
ever massive natural disasters.
    At best, the budget requests for both agencies are barely meeting 
the minimum needs for water resources development. Out of $1 trillion 
budget of discretionary spending, you can and should be able to do 
better.
    I look forward to exploring these and other issues with our 
witnesses.

    Senator Feinstein. But I just want to say, it's been a 
great pleasure for me to work with the gentleman on my left. 
He's been a very good partner. I think we have worked very well 
together, and I'm very grateful for that. So I'd like to ask 
Senator Alexander if he would say a few words.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman, and I absolutely 
reciprocate. I'm very fortunate to have a chance to work with 
the Senator from California. She has the advantage, among other 
things, of having been a mayor, and I was once a Governor. And 
people who hold those positions like to make decisions and get 
things done, so we approach things from the same direction. We 
don't always agree. But let's say we may have differences of 
opinion, but we don't have disagreements. We figure things out.
    Welcome to the witnesses. Thank you all for coming, and 
thank you for your service to our country. And I would like to 
say to the Corps of Engineers to begin with, a compliment to 
you on your work on the Wolf Creek Dam and the Center Hill Dam, 
which are in our territory. Making those dams safe is very 
important to Nashville and the Nashville area. If they were to 
fail, it would be a much more serious flood of Nashville than 
there was a couple of years ago. And the fact that you got them 
done on time or a little bit ahead of time means that the water 
levels can go back up and people can enjoy the recreational 
opportunities, and there can be more generation from those, so 
thank you for that.
    I'm not going to repeat what the chairman said. I want to 
focus my opening remarks, then I'll have some questions later, 
on the subject that we're debating on the Senate floor this 
week, because this committee has a lot to do with that. It's 
called the Water Resources Development Act (WRDA). And I want 
to focus my attention on locks, dams, ports, and dredging.
    The Senator from California has a special interest in that, 
and we've talked about it. I do, most of our States do. We have 
either ports or we have inland waterways that are tremendously 
important to our ability to grow new jobs in this country.
    And with the expansion of the Panama Canal, we have a major 
opportunity to fix our Nation's waterways and to modernize our 
Nation's ports. And a nation that produces about 25 percent of 
all the wealth in the world should want to do that.
    So Senator Graham and I, about a year ago, asked our 
staffs, including Senator Feinstein's and others, we all work 
together and we worked with the Vice President, and we said, 
``Let's just rear back and ask what would a great country, the 
United States, want from its ports, locks, dams, and waterways 
in order to fully maximize them for our economic growth.''
    And there are all sorts of financial obstacles and 
considerations. We asked the staff not to worry about that so 
much, just paint a picture of where we'd like to go. And they 
did a very good job. We had lots of discussions. As I said, we 
worked with the White House. We talked among ourselves. We 
talked in this committee with the chairman. We talked with the 
Environment and Public Works Committee, other interested 
Senators. And we came up with something called the American 
Waterworks Act, and we introduced it. And the idea was to do 
whatever we needed to do to fix our Nation's waterways and 
modernize our Nation's ports.
    Now as often happens with good ideas in Washington, if you 
lay a good one out there, pretty soon it'll begin to get 
adopted. That's beginning to happen this week. A couple of the 
major provisions are in this legislation that's being debated 
on the Senate floor. And if it passes the Senate and passes the 
House and is signed by the President, we'll begin to make some 
progress.
    The first problem we found and that we sought to address is 
with the Harbor Maintenance Fund. The problem with it is it 
collects money well, but it isn't able to spend all of it 
because of the way we do our appropriations and budget around 
here. And it can't be used for the things the local communities 
need it to be used for, like deepening of harbors. So we sought 
to fix that.
    The legislation also helps to fix our inland locks and 
dams. The Inland Waterway Trust Fund has a different problem. 
It doesn't collect enough money, and it has a backlog of locks 
that are near failure. A failure of the inland waterway system 
would put hundreds of thousands of trucks back on our highway 
system.
    For example, the Chickamauga Lock in Chattanooga, if it 
were to fail, which it will in a few years if we don't 
reconstruct it, would put 100,000, at least, big heavy trucks 
on I-75 and it would be extremely damaging to the commerce of 
the entire Eastern Tennessee area, including the nuclear power 
plants, including the Oak Ridge works, all those things.
    So the legislation being considered on the floor this week 
takes a couple of important steps. It removes Olmsted Lock from 
the Inland Waterway Trust Fund because it had been clogging it 
up. And that will be funded separately and make room for a 
second thing that the American Waterworks Act did, and which 
you've had a work in doing, a new capital development plan, 
which sets priorities for what the money should be spent for.
    So in other words, we're unclogging, if we pass this 
legislation, the Inland Waterways Trust Fund, and we're setting 
priorities according to a sensible way of going about it, and 
then allowing the Corps to proceed to do things as it thinks 
should be done.
    One thing was not done. The Finance Committee didn't 
approve a trust fund fee increase that the commercial users of 
the locks had agreed to pay. Now, that doesn't make any sense 
to me. I mean, I'm a conservative Republican, former Governor 
from a State that has a pay-as-you-go highway plan. That means 
we have zero road debt, and that means we don't borrow money to 
build roads or to build infrastructure. We pay for it as we go.
    And I think we need to learn in the Congress to separate--
to distinguish between the general individual income tax and 
user fees. I mean, if the commercial users of the locks want to 
pay more so the locks can be built and reconstructed more 
rapidly, that's in our national interest, and they ought to be 
allowed to do that and we ought to do it.
    For example, the Food and Drug Administration has numerous, 
numerous accounts that are funded by user fees, and I haven't 
heard anybody suggest that we ought to stop all that. And we 
shouldn't stop this either.
    So as pleased as I am with the progress we're making this 
week, I'm disappointed with the Finance Committee's action. I 
hope they reconsider it.
    And I look forward, after the Water Resources Development 
Act is completed, to working with all of you on its funding, on 
its implementation. And I look forward to your testimony on the 
next year's budget.
    Thank you very much, Madam Chairman.
    Senator Feinstein. Thank you very much, Mr. Vice Chairman.
    Senator, do you have a statement to make or should we 
proceed?
    Senator Landrieu. I can submit it for the record and 
proceed to the witnesses.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Secretary Darcy and General Bostick, thank you for your testimony 
today. As you know, Corps of Engineers projects are vitally important 
in Louisiana. For decades, the people of my State have been fighting a 
noble battle to save the most productive and environmentally 
significant coast and delta in the world. We are losing 25 to 35 square 
miles of wetlands per year--about a football field an hour--which 
places millions of lives and critical national resources at alarming 
risk.
    While I have concerns about many Corps issues, the one that is most 
obvious is the inadequate funding for levee construction and dredging 
operations. This agency is woefully underfunded and unable to meet the 
great challenges facing Louisiana and the Nation. The $1.35 billion 
provided for construction does not adequately meet our Nation's flood 
protection, navigation, or restoration needs.
    I am encouraged to see that the Administration requested funding 
for Louisiana Coastal Area projects and included it as one of only four 
new starts, but we must do more.
    Since 2008, the Corps' construction budget has been reduced by over 
50 percent despite a backlog of more than $60 billion in projects 
nationwide, and additional projects are being considered by the Senate 
right now that would add another $12.2 billion on top of that.
    The President's fiscal year 2014 budget provides for the use of 
$890 million form the Harbor Maintenance Trust Fund, a 5-percent 
increase over the fiscal year 2013 request, but still well below the 
$1.7 billion collected annually.
    With full channel dimension available only \1/3\ of the time at the 
busiest 59 harbors in the United States, I remain very concerned about 
the adverse impacts this systemic under-investment has on the commerce 
and industry that depend on these waterways.

    Senator Feinstein. Excellent. Thank you very much.
    And Senators Shelby and Collins submitted their statements 
for the record.
    [The statements follow:]
              Prepared Statement of Senator Richard Shelby
    Secretary Darcy and General Bostick, you are well aware of my 
support for Army Corps funding of our Nation's port infrastructure.
    Although Congress faces significant fiscal constraints, targeted 
investments in our port system are important to spurring economic 
growth and job creation.
    These investments are beneficial not only to our docks and coastal 
cities, they are critical to ensuring efficient transportation of goods 
and resources across our country.
    Our Nation's ports serve as the gateway to the world marketplace 
for American manufacturers, farmers, energy producers, and countless 
other industries.
    The Senate has a bipartisan history of supporting investments in 
Federal channels and harbors, and I look forward to working with you on 
these and other priorities for the Army Corps.
                                 ______
                                 
              Prepared Statement of Senator Susan Collins
    Thank you, Chairman Feinstein, for holding this hearing to review 
the fiscal year 2014 budget submissions for the Army Corps of Engineers 
and the Bureau of Reclamation. I look forward to again serving on this 
subcommittee with you and Ranking Member Alexander. Despite the current 
fiscal challenges, I am hopeful that, working together, we will be able 
to produce a bipartisan funding bill.
    I also want to welcome General Bostick, Assistant Secretary Darcy, 
Assistant Secretary Castle, and Commissioner Connor.
    I know my West Coast colleagues will address the Bureau of 
Reclamation's budget request, so I will focus my comments and attention 
on the Army Corps of Engineers. The Corps has the tremendous 
responsibility of strengthening the Nation's security by building and 
maintaining critical infrastructure and navigation channels, and by 
developing hurricane and storm damage reduction infrastructure to limit 
the risk posed by natural disasters.
    Maintaining aging infrastructure and improving the security of our 
infrastructure from terrorism and natural threats are ongoing and 
costly challenges.
    Army Corps projects also play an important role in local economies, 
and there is an ongoing need to address the maintenance backlog and 
ensure our ports and harbors are properly maintained.
    I would like to acknowledge the $13 million for the dredging of 
Portland Harbor, which I understand is included in the fiscal year 2013 
spend plan, and the $3.5 million each for Wells Harbor and Scarborough 
River from the Hurricane Sandy Supplemental funding. Ports and harbors 
are the economic lifeblood for many small or rural communities, and 
funding for the maintenance dredging is critically important to 
supporting these efforts, a fact not fully accounted for under the Army 
Corps' budget metrics, which tend to favor larger ports.
    There remains an unmet need in my State and others around the 
Nation when it comes to Operations and Maintenance. Without the ability 
to direct funding to small harbors and waterways, I believe we need to 
pay careful attention to ensure the water infrastructure needs of all 
States are more fully met.
    I would like to thank the Chair and Ranking Member for working with 
us in past years to include the $30 million for Operations and 
Maintenance projects at ``small, remote, or subsistence navigation'' 
harbors and waterways. This funding is helping, but more is needed.
    I look forward to discussing these issues with you in greater 
detail during questions. Thank you again to all the witnesses for being 
with us today, and to you, Chairman Feinstein, for holding this 
important hearing.

    Senator Feinstein. Who would like to go first? Madam 
Secretary, would you? Thank you.

                  SUMMARY STATEMENT OF JO-ELLEN DARCY

    Ms. Darcy. Thank you, Senator Feinstein, Senator Alexander, 
Senator Landrieu.
    Thank you for the opportunity today to present the 
President's budget for the Civil Works Program of the U.S. Army 
Corps of Engineers for fiscal year 2014. I'm Jo-Ellen Darcy, 
Assistant Secretary of the Army for Civil Works, and I'll 
summarize my statement and ask that my complete statement be 
entered into the record.
    The President's 2014 budget provides $4.826 billion in 
gross discretionary appropriations for the Army Civil Works 
Program, offset by a $100 million rescission of unobligated 
carryover from appropriations prior to fiscal year 2013. This 
is $95 million higher than the President's 2013 budget for the 
Army Civil Works program.
    The budget reflects the Administration's priorities through 
targeted investments in the Nation's water resources 
infrastructure, including dams and levees and navigation 
investments, as well as the restoration and protection of the 
Nation's aquatic ecosystems and generation of low-cost 
renewable hydropower. Funds are provided for the planning, 
design, construction, operation, and maintenance of these 
projects.
    The budget also supports the restoration of certain sites 
contaminated as a result of the Nation's early atomic weapons 
development program; provides emergency preparedness and 
training to respond to natural disasters; and recreation, 
environmental stewardship, and water supply storage at existing 
projects owned or operated by the Corps.
    These investments will contribute to a stronger economy, 
improve reliability of waterborne transportation, reduce flood 
risk to businesses and homes, and support American jobs.
    The budget funds to completion three flood risk management 
projects, one navigation project, one hydropower project, and 
21 studies and designs. The Civil Works budget includes funding 
for 4 high-performing construction new starts, 10 new study 
starts in the investigations account, and 1 new activity in the 
operation and maintenance account.
    The budget includes the highest amount ever budgeted for 
use of receipts from the Harbor Maintenance Trust Fund to 
maintain coastal channels and harbors.
    Inland waterway capital investments in the construction 
account are funded at the maximum amount that's affordable 
within the projected trust fund revenues under existing law. 
The Administration will continue to work with Congress and 
stakeholders to enact a mechanism to increase revenue to the 
Inland Waterway Trust Fund.
    The 2014 budget provides $392 million for dam and levee 
safety activities, including $41 million to continue our Levee 
Safety Initiative.
    The budget provides $75 million for additional measures to 
support navigation on the Mississippi River if the current 
drought, which has been affecting the water levels on the 
river, continues in fiscal year 2014. The budget provides 
continued funding for restoration of five of the Nation's 
significant aquatic ecosystems: The California Bay Delta, the 
Chesapeake Bay, the Everglades, the Great Lakes, and the gulf 
coast.
    The Army continues to work to modernize the Civil Works 
planning program. Proposed changes are aimed at dramatically 
shortening the time and the cost for completion of 
preauthorization studies, while retaining the quality of the 
analysis. The budget again includes $3 million for the Veterans 
Curation Project, which provides vocational rehabilitation and 
innovative training for wounded and disabled veterans, while 
achieving historical preservation responsibilities for 
archeological collections administered by the Corps.

                           PREPARED STATEMENT

    In summary, the 2014 budget of the Army Civil Works program 
is a performance-based budget that supports continued progress 
on important water resources investments that will contribute 
to a stronger economy and continue progress on important water 
resources investments that will yield long-term returns for the 
Nation and for its citizens.
    Thank you, members of the subcommittee. I look forward to 
answering any of your questions.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Madam Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to present the President's budget for the Civil 
Works program of the Army Corps of Engineers for fiscal year 2014.
                                overview
    The fiscal year 2014 budget for the Civil Works program reflects 
the Administration's priorities through targeted investments in the 
Nation's water resources infrastructure, including dams and levees and 
navigation investments as well as the restoration and protection of the 
Nation's aquatic ecosystems and generation of low-cost renewable 
hydropower. Funds are provided for the planning, design, construction, 
operation and maintenance of such projects. The budget also supports 
the restoration of certain sites contaminated as a result of the 
Nation's early atomic weapons development program; emergency 
preparedness and training to respond to natural disasters; and 
recreation, environmental stewardship, and water supply storage at 
existing projects owned or operated by the Corps. These investments 
will contribute to a stronger economy, improve reliability of 
waterborne transportation, reduce flood risks to businesses and homes, 
and support American jobs.
    The primary objectives of the budget are as follows:
  --Focus funding on water resources investments that will yield high 
        economic and environmental returns or address a significant 
        risk to public safety.
  --Support commercial navigation through maintenance and related 
        activities at the most heavily used coastal ports and inland 
        waterways in the Nation.
  --Provide significant funding for dam and levee safety, including 
        interim risk reduction measures designed to immediately lower 
        the risk level at the highest risk dams, and continue funding 
        for the Corps' national levee safety initiative.
  --Restore large ecosystems such as the California Bay-Delta, 
        Chesapeake Bay, the Everglades, Great Lakes, and gulf coast.
  --Increase the organizational efficiency and improve the management, 
        oversight, and performance of ongoing programs.
              fiscal year 2014 discretionary funding level
    The budget for fiscal year 2014 for the Civil Works program 
provides a fiscally prudent, appropriate level of investment in the 
Nation's water resources infrastructure and in the restoration of its 
aquatic ecosystems.
    In keeping with the Administration's commitment to continue to 
invest in those efforts that are a priority for the Nation, while 
putting the country on a sustainable fiscal path, the budget includes 
$4.826 billion in gross discretionary appropriations for the Army Civil 
Works program offset by a $100 million rescission of unobligated 
carryover from appropriations prior to fiscal year 2013. This gross 
funding level represents the amount of new Federal discretionary 
resources that would be available to the Civil Works program. It is $95 
million higher than the amount proposed in the fiscal year 2013 budget. 
The net and gross fiscal year 2014 funding levels for the Civil Works 
program reflect a considered, practical, effective, and sound use of 
the available resources.
    Within the $4.826 billion recommended appropriations, $1.35 billion 
is for projects in the Construction account, and $2.588 billion is for 
activities funded in the Operation and Maintenance (O&M) account. The 
budget also includes $90 million for Investigations; $279 million for 
Mississippi River and Tributaries; $28 million for Flood Control and 
Coastal Emergencies; $200 million for the Regulatory Program; $104 
million for the Formerly Utilized Sites Remedial Action Program; $182 
million for the Expenses account; and $5 million for the Office of the 
Assistant Secretary of the Army for Civil Works. Attachment 1 shows 
this funding by account and program area.
    [Attachment 1 follows:]

                                         Attachment 1 FISCAL YEAR 2014 BUDGET--BUSINESS LINE/ACCOUNT CROSS-WALK
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Funding Categories
                                    --------------------------------------------------------------------------------------------------------------------
                                                                               MR&T
           Business Lines                                      ------------------------------------                                       OASA
                                        I        C       O&M                                TOTAL    FUSRAP    FCCE     REG       E       (CW)    TOTAL
                                                                   I        C       O&M      MRT
--------------------------------------------------------------------------------------------------------------------------------------------------------
Flood and Coastal Storm Damage            39      595      556       10       74       97      181  .......  .......  .......  .......  .......    1,370
 Reduction.........................
    Coastal........................        4       27       14  .......  .......  .......  .......  .......  .......  .......  .......  .......       45
    Inland.........................       35      568      542       10       74       97      181  .......  .......  .......  .......  .......    1,325
Hydropower.........................  .......        6      204  .......  .......  .......  .......  .......  .......  .......  .......  .......      210
Navigation.........................       23      345    1,461  .......       11       44       55  .......  .......  .......  .......  .......    1,884
    Coastal........................       16      108      853  .......  .......        2        2  .......  .......  .......  .......  .......      980
    Inland.........................        7      237      608  .......       11       42       53  .......  .......  .......  .......  .......      904
Environment........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......
    Aquatic Ecosystem Restoration..       28      405       16       <1        2  .......        2  .......  .......  .......  .......  .......      449
    Stewardship....................  .......  .......       98  .......  .......        4        4  .......  .......  .......  .......  .......      102
    FUSRAP.........................  .......  .......  .......  .......  .......  .......  .......      104  .......  .......  .......  .......      104
Regulatory.........................  .......  .......  .......  .......  .......  .......  .......  .......      200  .......  .......  .......      200
Recreation.........................  .......  .......      241  .......  .......       11       11  .......  .......  .......  .......  .......      252
Emergency Management (incl. NEPP)..  .......  .......        7  .......  .......  .......  .......  .......  .......       28  .......  .......       35
Water Supply.......................       <1  .......        5  .......       27  .......       27  .......  .......  .......  .......  .......       33
Expenses...........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......      182  .......      182
OASA(CW)...........................  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......  .......        5        5
                                    --------------------------------------------------------------------------------------------------------------------
      TOTAL........................       90    1,350    2,588       10      113      156      279      104      200       28      182        5    4,826
--------------------------------------------------------------------------------------------------------------------------------------------------------
I = Investigations; C = Construction; O&M = Operation and Maintenance; MR&T = Flood Control, Mississippi River and Tributaries; FUSRAP = Formerly
  Utilized Sites Remedial Action Program; FCCE = Flood Control and Coastal Emergencies; REG = Regulatory Program; NEPP = National Emergency Preparedness
  Program; E = Expenses; OASA(CW) = Office of the Assistant Secretary of the Army for Civil Works.

    The fiscal year 2014 budget continues the Army's commitment to a 
performance-based approach to budgeting to provide the best overall 
return for the Nation in achieving economic, environmental, and public 
safety objectives. Competing investment opportunities for studies, 
design, construction, and operation and maintenance were evaluated 
using objective performance metrics, which guided the allocation of 
funds.
    The fiscal year 2014 budget supports an appropriate level of 
investment in commercial navigation, flood risk management, aquatic 
ecosystem restoration, and our other programs. Of the total in the 
budget, 39 percent is allocated to commercial navigation; 28 percent to 
flood risk management activities; and 33 percent to environmental, 
hydropower, and other activities. Three flood risk management projects, 
one navigation project, one hydropower project, and 21 studies and 
designs are funded to completion in the budget.
                  new investments in fiscal year 2014
    The Civil Works budget includes funding for four high-performing 
construction new starts, three of which were proposed in the fiscal 
year 2012 and fiscal year 2013 budgets but did not receive funding in 
the final appropriations action.
    The three re-proposed new start construction projects are: $15 
million for the Hamilton City project in California, which will provide 
environmental restoration and flood damage reduction benefits in the 
Bay-Delta area; $1 million for the Louisiana Coastal Area Ecosystem 
Restoration program, a nationally significant effort to restore habitat 
while reducing the risk of damage to coastal Louisiana from storm 
driven waves and tides, which complements the ongoing Federal effort 
under the Coastal Wetlands Planning, Protection, and Restoration Act; 
and $3 million for the Lower Colorado River Basin, Onion Creek, Texas, 
project, which relies on nonstructural solutions to significantly 
reduce the risk of flood damage.
    The budget also includes $1 million in new construction start 
funding to rehabilitate jetties at the Columbia River at the Mouth, 
Oregon and Washington, project to reduce safety hazards.
    The budget also includes funding for 10 new study starts in the 
Investigations account. Four of these studies were proposed in the 
fiscal year 2012 and 2013 budgets but did not receive funding in the 
final appropriations action. These four are the Chesapeake Bay 
Comprehensive Plan for $250,000; the Louisiana Coastal Area 
Comprehensive Plan for $100,000; the Yuba River Fish Passage in 
California for $100,000; and the national Water Resources Priorities 
Study for $1 million. One additional study was previously proposed in 
only the fiscal year 2013 budget, but did not receive funding in the 
final appropriations action. That study is the Houston Ship Channel, 
Texas study is re-proposed for $100,000.
    The Water Resources Priorities Study will address the critical need 
to develop a baseline assessment of the Nation's vulnerability to flood 
damages on both a national and regional scale. First, a baseline 
assessment will identify and analyze the key drivers of flood risks, 
including the ways in which some of those risks are changing or 
expected to change over time. The study would then examine the 
effectiveness of existing Federal, State, and local programs; and 
develop recommendations to improve these programs so as to reduce the 
economic costs and risks to life associated with large-scale flood and 
storm events in ways that will also promote the long-term 
sustainability of communities and ecosystems.
    The five studies included for the first time in this budget are 
Coyote Dam, California for $100,000; Dry Creek Dam (Warm Springs), 
California for $100,000; Coastal Texas Protection and Restoration for 
$100,000; Seattle Harbor, Washington for $100,000; and Salton Sea, 
California for $200,000.
    A new activity to focus on reducing the vulnerability of Civil 
Works projects to changing conditions--including extreme flood, storm, 
and drought events--is also included for the second year. The $1 
million for Reducing Civil Works Vulnerability in the Operation and 
Maintenance account will inform decisions to increase the resilience of 
Civil Works infrastructure.
                               navigation
    The budget includes $1.884 billion in support of domestic and 
global waterborne transportation, with emphasis on the coastal ports 
and inland waterways that support the greatest national economic 
activity.
    The budget includes $49 million to continue construction of the New 
York and New Jersey Harbor deepening project. The budget also includes 
$54 million to construct dredged material placement sites at several 
deep draft ports to provide additional capacity for the maintenance of 
these projects in the future. It provides $11 million to continue 
studies and designs at coastal ports, including proposals to deepen 
existing channels to accommodate Post-Panamax commercial shipping.
    The budget also provides for use of $890 million from the Harbor 
Maintenance Trust Fund to maintain coastal channels and harbors. This 
is a 5-percent increase over the fiscal year 2013 budget and the 
highest amount ever proposed in a President's budget for work financed 
from the Harbor Maintenance Trust Fund.
    The budget focuses on supporting those inland waterways with a high 
level of commercial use, specifically, the Lower Mississippi River, 
Ohio River, Upper Mississippi River, Gulf Intracoastal Waterway, 
Illinois Waterway, Tennessee River, and the Black Warrior Tombigbee 
Waterway. For example, the budget includes a total of $75 million for 
additional measures to support navigation on the Mississippi River if 
the current drought, which has been affecting the water levels on the 
river, continues into fiscal year 2014.
    The fiscal year 2014 budget includes a total of $248 million for 
inland waterways capital investments are funded at $248 million, of 
which $94 million will be derived from the Inland Waterways Trust Fund. 
This amount is consistent with the expected level of revenue to this 
trust fund under existing law.
    The budget assumes enactment of a legislative proposal submitted to 
the Joint Select Committee on Deficit Reduction in 2011. The proposal 
would generate an additional $1.1 billion in revenue over 10 years from 
commercial users of the inland waterways. Over a recent 3-year period, 
for example, the receipts from the inland waterways fuel tax covered 
less than 10 percent of the total cost that the Corps incurred on 
behalf of the companies that move goods on these waterways, including 
costs for both capital investment and operation and maintenance. The 
proposal includes a new annual vessel user fee, which would supplement 
the existing fuel tax. The proposal is needed to ensure that the 
revenue paid by commercial navigation users is sufficient to meet their 
share of the costs of capital investments on the inland waterways. It 
would enable a more robust level of matching funds from the general 
fund for such investments in the future.
    In addition, the budget includes $13.4 million to address dam 
safety issues at navigation dams at two projects (Locks and Dams 2, 3, 
4, Monongahela River, Pennsylvania, and Lockport Lock and Dam, 
Illinois).
                         flood risk management
    Through both structural and nonstructural measures, the flood risk 
management program serves as a vehicle to reduce the risk to safety and 
property from riverine and coastal flooding. The fiscal year 2014 
budget provides $1.37 billion for the flood risk management program, 
which includes $392 million for dam and levee safety.
    This flood risk management program includes $41 million to continue 
the levee safety initiative, which involves an assessment of the 
conditions of Federal levees. These funds will enable the Corps to 
better evaluate and communicate risk, for example, by providing 
information that will assist non-Federal entities in identifying safety 
issues with their levees. The Corps will be conducting levee 
inspections and levee risk screenings, adding to the data in the 
national levee inventory, and providing the available levee data to 
communities for their use in gaining accreditation under the Federal 
Emergency Management Agency's National Flood Insurance Program.
                     aquatic ecosystem restoration
    The fiscal year 2014 budget reflects a continuing effort by the 
Administration to have a coordinated approach for restoring five of the 
Nation's significant aquatic ecosystems. The Corps has been working 
collaboratively with other Federal resource agencies on this effort. 
Attachment 2 provides a list of these ecosystems and the Corps funding 
amounts budgeted on this basis.
    [Attachment 2 follows:]

          Attachment 2 FISCAL YEAR 2014 LARGE ECOSYSTEM FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
 Ecosystem
Account \1\                 Projects and Studies                 Amount
------------------------------------------------------------------------
           Bay Delta:
          I    Yuba Fish Passage                                   .1
          I    CALFED Coordination                                 .1
          I    Sac-San Joaquin Delta Island and Levee Study        .45
          I    Sac-San Joaquin Comp Study                          .47
          I    Sac River Bank Protection                           .5
          C    Hamilton City                                     15
          C    American River Common Features                     2.5
          C    Sac River Bank Protection                          3
        O&M    Additional studies and projects in Navigation     35.96
                and Flood Risk Management Programs
                                                             -----------
                 Total, Bay Delta                                58.08
                                                             ===========
           Chesapeake Bay:
          I    Chesapeake Bay Comp (new recon)                     .3
          I    Anacostia--Montgomery                               .5
          I    Anacostia--Prince Georges                           .5
          C    Chesapeake Oysters                                 5
          C    Poplar Island                                     18.4
                                                             -----------
                 Total, Chesapeake Bay                           24.65
                                                             ===========
           Everglades:
          C    Everglades                                        88
        O&M    Everglades                                         9.1
                                                             -----------
                 Total, Everglades                               97.1
                                                             ===========
           Great Lakes:
          I    Interbasin Control Study (GLMRIS)                  3
          C    Chicago Sanitary and Ship Canal (CSSC)            27.6
          C    Green Bay Harbor                                   1.9
        O&M    Dredging                                          78.75
                                                             -----------
                 Total, Great Lakes                             111.25
                                                             ===========
           Gulf Coast:
          I    LCA--studies, PED                                  5.29
          I    Texas Coast Watershed (new recon)                   .1
          I    Louisiana Comp (new recon)                          .1
          C    LCA--construction                                  1
                                                             -----------
                 Total, Gulf Coast                                6.49
------------------------------------------------------------------------
           \1\ Key: I = Investigation; C = Construction; O&M = Operation
             and Maintenance.

    The budget for the Army Civil Works program provides $97 million 
for the ongoing South Florida Ecosystem Restoration Program, which 
includes the Everglades, consisting of $88 million in the Construction 
account and $9 million in the Operation and Maintenance account. It 
also supports several other major ecosystem-wide initiatives, by 
providing a total of $77 million in the aquatic ecosystem restoration 
program in support of Federal efforts in the California Bay-Delta, 
Chesapeake Bay, the Great Lakes, and the gulf coast.
    The budget includes $102 million for the Columbia River Fish 
Mitigation program, an ongoing effort to reduce the adverse impacts of 
a series of Corps dams on migrating endangered and threatened salmon. 
Funds will be used to construct juvenile fish bypass facilities, 
improve adult fish ladders and conduct other activities that support 
salmon habitat. The budget also provides $70 million for ongoing work 
under the Missouri River Fish and Wildlife Recovery program to 
construct shallow water habitat and undertake other activities to 
recover and protect federally listed species, including the pallid 
sturgeon.
                         planning improvements
    The Army continues to work to modernize the Civil Works Planning 
Program to better address the current and future water resources needs 
of the Nation. The Army has undertaken an aggressive review of all 
ongoing feasibility studies to focus on studies with the greatest 
probability of providing high economic, environmental, and safety 
returns to the Nation and ensure studies are appropriately scoped. 
Proposed changes are aimed at dramatically shortening the timeframe for 
completion of pre-authorization studies while retaining the quality of 
the analyses, reducing the cost of conducting planning studies, and 
increasing Corps corporate and individual accountability for decisions.
    The fiscal year 2014 budget includes $4 million for the Planning 
Support Program. These funds will be used to improve training of Corps 
planning personnel, including through the Planning Associates Program; 
support development and implementation of revisions to the Water 
Resources Principles and Guidelines in accordance with requirements in 
the Water Resources Development Act of 2007 (section 2031, Public Law 
110-114); and improve the performance of our national planning centers 
of expertise.
                           regulatory program
    The budget includes $200 million for the Regulatory Program to 
enable the Corps to protect high-value aquatic resources, enable more 
timely business planning decisions via a transparent and timely permit 
review process, and support sustainable economic development.
                       veterans curation project
    In continued support of the President's Veterans Job Corps, the 
fiscal year 2014 budget includes $3 million to continue the Veterans 
Curation Project, which provides vocational rehabilitation and 
innovative training for wounded and disabled veterans, while achieving 
historical preservation responsibilities for archaeological collections 
administered by the Corps. The project supports work by veterans at 
curation laboratories located in August, Georgia; St. Louis, Missouri; 
and the Washington, DC area.
                               conclusion
    In summary, the President's fiscal year 2014 budget for the Army 
Civil Works program is a performance-based budget that supports 
continued progress on important water resources investments that will 
yield long-term economic, environmental, and safety returns for the 
Nation and its citizens.
    These investments will contribute to a stronger economy, support 
waterborne transportation, reduce flood risks to businesses and homes, 
restore important ecosystems, provide low-cost renewable hydropower, 
and deliver other benefits to the American people.
    Madam Chairman and members of the subcommittee, I look forward to 
working with this subcommittee in support of the President's budget. 
Thank you.

    Senator Feinstein. Thank you very much. You're very 
concise, and it's very much appreciated.
    Who would like to go next?
    General, please. I think this is your first appearance 
before this committee, and we're delighted to have you here, so 
please feel welcome.
STATEMENT OF GENERAL THOMAS P. BOSTICK, COMMANDING 
            GENERAL AND CHIEF OF ENGINEERS
    General Bostick. Thank you, Madam Chairman, and members of 
the subcommittee. It's my honor to testify here before you, 
along with the Assistant Secretary of the Army for Civil Works, 
Jo-Ellen Darcy, on the President's fiscal year 2014 budget.
    I'm also happy to be here with the Honorable Anne Castle 
and Michael Connor, great partners with the Corps of Engineers, 
and we look forward to working with them in the future.
    As you said, Madam Chairman, this is my first time before 
the subcommittee, and I look forward to working with each of 
you. I've been in command for about a year, and I want to touch 
briefly on four of the campaign goals for the U.S. Army Corps 
of Engineers.
    First, we must continue to support the warfighter with our 
work in the areas of operations for our combatant commanders 
and on U.S. installations around the world. Many of our 
deployed civilians have civil works experience, which supports 
the mission in theater and provides them with broadening 
experiences that will assist them when they return.
    Second, we must transform civil works. That means 
modernizing our project planning process, enhancing the budget 
development processes, using a smart infrastructure strategy to 
evaluate our portfolio of water resource projects, and 
improving our methods of delivery.
    Third, we must reduce disaster risk and continue to respond 
to natural disasters under the National Response Framework as 
well as our ongoing efforts with flood risk mitigation.
    Fourth, we must prepare for tomorrow, positioning our 
workforce and our processes for future challenges and focusing 
on research and development efforts that will help solve the 
Nation's greatest challenges.
    In 2012, the Corps of Engineers responded to several 
weather-related events, including Hurricane Sandy, under the 
National Response Framework in support of the Federal Emergency 
Management Agency (FEMA). Drought was a significant challenge 
as we experienced extraordinarily low-water levels on the 
middle Mississippi River.
    The great men and women of the Corps worked tirelessly, 
together with our State, local, and industry partners, to 
ensure that we could deliver on our many commitments.

                           PREPARED STATEMENT

    And this continues today as we face significant flooding in 
many parts of the country. It is through the efforts of our 
people and our partners at every level that we will work to 
continue to carry out the programs and projects included in the 
fiscal year 2014 budget.
    Madam Chairman, I ask you and the other members to refer to 
my complete written testimony submitted to the committee for 
the specifics on the 2014 budget, and I look forward to your 
questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Thomas P. Bostick
    Madam Chairman and members of the subcommittee: I am honored to be 
testifying before your committee today, along with the Assistant 
Secretary of the Army for Civil Works, the Honorable Jo-Ellen Darcy, on 
the President's fiscal year 2014 budget for the Civil Works Program of 
the United States Army Corps of Engineers.
    This is my first time before this subcommittee and I look forward 
to working with you. I have been in command of the U.S. Army Corps of 
Engineers for nearly a year, and I want to touch briefly on the four 
campaign goals for the U.S. Army Corps of Engineers (Corps) that are 
now in place. First, we must support the warfighter with our work in 
the areas of operations of Combatant Commands and on U.S. installations 
around the world. Second, we must transform Civil Works by modernizing 
the project planning process, by enhancing the budget development 
process, by using a smart infrastructure strategy to evaluate our 
portfolio of water resources projects, and by improving our methods of 
delivery. Third, we must reduce disaster risks and continue to respond 
to natural disasters under the National Response Framework as well as 
our ongoing efforts with flood risk management. Fourth, we must prepare 
for tomorrow, positioning our workforce and processes for future 
challenges, and focusing on research and development efforts that will 
help solve the greatest challenges facing the Army and the Nation.
    In 2012, the Corps responded to several weather-related events, 
including Hurricane Sandy, under the National Response Framework in 
support of Federal Emergency Management Agency (FEMA). Drought was a 
significant problem as we experienced extraordinarily low water on the 
middle Mississippi River. The great men and women of the Corps worked 
tirelessly, together with our State, local and industry partners, to 
ensure that we could deliver on our many commitments. It is through 
their efforts that we will continue to be able to carry out the 
projects and programs included in the fiscal year 2014 budget.
    My statement covers the following 10 topics:
  --Summary of Fiscal Year 2014 Budget;
  --Investigations Program;
  --Construction Program;
  --Operation and Maintenance Program;
  --Reimbursable Program;
  --Planning Program Modernization;
  --Efficiency and Effectiveness of Corps Operations;
  --Value of the Civil Works Program to the Nation's Economy;
  --Research and Development; and
  --National Defense.
                   summary of fiscal year 2014 budget
    The Corps is fully committed to supporting the Nation's priorities 
by contributing to the economy, improving the resiliency and safety of 
our water resources infrastructure, restoring and protecting the 
environment, and supporting American jobs. The fiscal year 2014 Civil 
Works budget is a performance-based budget, which reflects a focus on 
the projects and activities that provide the highest net economic and 
environmental returns on the Nation's investment or address significant 
risks to safety. This includes continuing the levee safety initiative 
and supporting increased interagency and stakeholder collaboration. 
These investments in projects and activities that support waterborne 
transportation, reduce the risk of flooding to businesses and homes, 
restore significant aquatic ecosystems, provide low-cost renewable 
hydropower, and support American jobs.
    The budget focuses on high performing projects and programs within 
the three main water resources missions of the Corps: Commercial 
navigation, flood and storm damage reduction and aquatic ecosystem 
restoration. The fiscal year 2014 budget includes $4.826 billion in 
gross discretionary funding--offset in part by a proposal to cancel 
$100 million in unobligated carryover of funding appropriated prior to 
fiscal year 2013--to fund Civil Works activities, including work on 
more than 600 flood and coastal storm damage reduction projects, 178 
coastal ports, and 193 lock projects.
    The budget will also enable the Corps to process approximately 
90,000 permit requests while protecting our Nation's waters and 
wetlands; operate 75 hydropower plants with 353 generating units that 
annually produce about 24,000 megawatts; meet about 14 percent of the 
Nation's municipal water needs; and sustain our preparedness to respond 
to natural disasters.
                         investigations program
    The fiscal year 2014 budget provides $90 million in the 
Investigations account and an additional $10 million in the Mississippi 
River and Tributaries account to fund projects and activities that will 
enable the Corps to evaluate and design projects that are the most 
likely to be high performing within the Corps three main mission areas: 
Commercial navigation, flood and storm damage reduction, and aquatic 
ecosystem restoration.
                          construction program
    The goal of the construction program is to deliver as much value as 
possible for the Nation from the available funds. The budget provides 
$1.35 billion for the Construction account and $113 million in the 
Mississippi River and Tributaries account to further this objective and 
gives priority to the projects with the greatest net economic and 
environmental returns per $1 invested as well as to projects that 
address a significant risk to safety.
    The Corps uses objective performance measures to establish 
priorities among projects. These include benefit-to-cost ratios for 
projects that are being funded primarily due to their economic outputs 
and cost-effectiveness for the restoration of significant aquatic 
ecosystems. The selection process also gives priority to dam safety 
assurance, seepage control, and static instability correction projects 
and to projects that address a significant risk to safety.
                   operation and maintenance program
    All structures age over time with a potential decline in 
reliability. With proper maintenance and periodic rehabilitation, we 
can extend the effective lifetime of most of the facilities owned or 
operated by, or on behalf of, the Corps. As stewards of this 
infrastructure, we are working to ensure that its key features continue 
to provide an appropriate level of service to the American people. In 
some cases, this is proving to be a challenge.
    The budget provides $2.588 billion for the Operation and 
Maintenance (O&M) account and an additional $156 million under the 
Mississippi River and Tributaries account with a focus on the 
maintenance of key commercial navigation, flood risk management, 
hydropower, and other facilities. The budget gives priority to those 
coastal ports and inland waterways with the most commercial traffic, 
and increases the total amount to be spent from the Harbor Maintenance 
Trust Fund to a level that is higher than in any previous budgets. The 
budget also funds small harbors that support significant commercial 
fishing, subsistence, or public transportation benefits. The budget 
provides operation and maintenance funding for safety improvements at 
Federal dams and levees based on the risk and consequence of a failure.
    Generally, the O&M program supports completed works owned or 
operated by the Corps, including administrative buildings and 
laboratories. Work to be accomplished includes: Operation of the locks 
and dams along the inland waterways; dredging of inland and coastal 
Federal channels; operating multiple purpose dams and reservoirs for 
flood control, hydropower, recreation, and related purposes; 
maintenance and repair of the facilities; monitoring of completed 
coastal projects; and general management of Corps facilities and the 
land associated with these purposes.
    The fiscal year 2014 budget provides $204 million in Operation and 
Maintenance funds for hydropower, to maintain critical power components 
such as generators, turbines, transformers and circuit breakers at 
Corps hydropower facilities to keep them operating efficiently and 
effectively.
                          reimbursable program
    Through the Interagency and Intergovernmental Services Reimbursable 
Program, the Civil Works program helps other Federal agencies, State, 
local, and tribal governments, and other countries with timely, cost-
effective implementation of their programs. These agencies can turn to 
the Corps, which already has these capabilities, rather than develop 
their own internal workforce to oversee design and construction 
projects. Such intergovernmental cooperation is effective for agencies 
and the taxpayer by using the skills and talents that we bring to our 
Civil Works and Military Programs missions. The work is principally 
technical oversight and management of engineering, environmental, and 
construction contracts performed by private sector firms, and is 
financed by the agencies we service.
    We only accept agency requests that we can execute without 
impacting our Civil Works or Military Programs missions that are 
consistent with our core technical expertise and that are in the 
national interest.
                     planning program modernization
    Planning modernization includes a transformation of how the Corps 
Planning Program manages its portfolio of studies and delivers planning 
studies. In the past 2 fiscal years, to better manage its study 
portfolio, the Corps has significantly reduced the active study 
portfolio, from 650 to around 200 studies, roughly a 60-percent 
decrease, which enables us to focus available funding on the studies 
that are most likely to produce projects with high economic or 
environmental returns to the Nation or that address significant safety 
risk. To better deliver studies, the Corps has embraced a new planning 
process referred to as ``SMART Planning'' (Specific, Measurable, 
Attainable, Risk-informed, and Timely). SMART Planning is risk-
informed, decision focused planning that utilizes a 6-step planning 
process, which emphasizes the scoping of our analyses based on what is 
necessary for decisions. This new approach reduces resource 
requirements--both time and money--by appropriately focusing on the key 
drivers in resolving problems while complying with all applicable laws.
    The goal under SMART planning is to complete most feasibility 
studies within 3 years for $3 million or less. The end product is a 
decision document that has been fully coordinated by three levels of 
the organization (Corps Headquarters, the Corps Division, and the Corps 
District) from study inception to completion. As a shorthand, we are 
calling this new approach ``3  3  3.'' The Corps expects full 
implementation of this new approach in fiscal year 2014 and has been 
working with its Federal and non-Federal partners to use this new 
approach to evaluating water resources problems.
            efficiency and effectiveness of corps operations
    The Corps strives to continually improve the efficiency and 
effectiveness of its investigations, construction, and operation and 
maintenance programs. In fiscal year 2014, the Corps will further 
expand the implementation of a modern asset management program, 
dedicating an increased amount of its Operation and Maintenance funding 
for the highest priority maintenance work, while implementing an energy 
sustainability program that pursues major efficiencies in the 
acquisition and operations of its information technology assets, as 
well as finalizes the reorganization of the Corps acquisition 
workforce.
        value of the civil works program to the nation's economy
    The fiscal year 2014 budget provides $28 million in the Flood 
Control and Coastal Emergencies account to prepare for emergency 
operations in response to natural disasters as well as $2 million in 
the Investigations account for the Corps' participation in the 
development and expansion of interagency teams, known as Silver 
Jackets, to collaboratively reduce the risks associated with flooding 
and other natural hazards. On a related note, the Corps Emergency 
Management Program not only includes Flood Control and Coastal 
Emergencies account, but also $7 million in the National Emergency 
Preparedness Program. With this funding, the Corps prepares to help 
respond to man-made disasters or acts of terrorism, while assuring 
continuity of organizational operations.
    Corps personnel from across the Nation continue to respond to the 
call for volunteers during national emergencies. The critical work they 
perform reduces the risk of damage to people and communities. In 2012, 
the Corps responded to several weather-related events, to include 
Hurricane Isaac, Hurricane Sandy and the prolonged drought in the 
middle Mississippi River Basin. Last year's historic drought presented 
the Corps, our other Federal partners, and industry with quite a 
challenge in our efforts to maintain critical waterborne commerce and 
other authorized project purposes on the Mississippi and other 
waterways.
                        research and development
    Civil Works program research and development provides the Nation 
with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency and competitiveness of 
the Nation's engineering and construction industry and providing more 
cost-effective ways to operate and maintain public infrastructure, 
Civil Works program research and development contributes to the 
national economy.
                            national defense
    The Corps has vital work going on here at home and around the 
world, working in 132 countries, using both our Civil Works and 
Military Missions programs to support the Warfighter and to help Iraq 
and Afghanistan build foundations for democracy, freedom and 
prosperity. We are proud to serve this great Nation and our fellow 
citizens, and we are proud of the work the Corps does to support 
America's foreign policy, particularly with our ongoing missions in 
Afghanistan and Iraq. Men and women from across the Corps--all 
volunteers and many of whom have served on multiple deployments--
continue to provide critical support to our military missions there and 
humanitarian support to the citizens of those nations.
                               conclusion
    The fiscal year 2014 budget represents a continuing, fiscally 
prudent investment in the Nation's water resources infrastructure and 
restoration of its aquatic ecosystems. The Corps is committed to a 
performance-based Civil Works program, based on innovative, resilient, 
and risk-informed solutions.
    Thank you, Madam Chairman and members of subcommittee. This 
concludes my statement. I look forward to answering questions you or 
other members of the subcommittee may have.

    Senator Feinstein. Thank you very much, General.
    Secretary Castle, would you like to go next please?

                       DEPARTMENT OF THE INTERIOR


                         Bureau of Reclamation

STATEMENT OF HON. ANNE CASTLE, ASSISTANT SECRETARY FOR 
            WATER AND SCIENCE
    Ms. Castle. Thank you. Good afternoon, Madam Chair, Senator 
Alexander, members of the subcommittee.
    I appreciate the opportunity to talk with you this 
afternoon about the water-related programs of the Department of 
the Interior as proposed in the 2014 budget.
    Commissioner Connor will address the specifics of the 
Bureau of Reclamation's 2014 budget request, and I will just 
highlight a few of our programs related to water, challenges in 
the West, and the development of renewable hydropower.
    It's well-known that we're facing unprecedented challenges 
all across the Nation in connection with water but particularly 
in the West. This year is a very unfortunate example of that.
    We have population growth, aging infrastructure, climate 
change impacts, the increased demand for water for energy 
development, and increased recognition of the water needs for 
ecosystem function. All of those are combining to put pressure 
on an already scarce resource. And I think this subcommittee 
recognizes those challenges better than anyone.
    The Administration puts a high priority on meeting those 
challenges. The specific focus of Interior's WaterSMART 
(Sustain and Manage America's Resources for Tomorrow) program 
is to stretch and secure water supplies, and to provide tools 
to State and local water managers to move toward water 
sustainability and to allow increased reliability of water 
supplies.
    Four years ago, we established a goal of facilitating an 
increase in available water supply of 790,000 acre-feet of 
water. That's a lot of water. It's about enough to serve a 
large city of approximately 1.5 million households, and we're 
on track to meet that goal.
    Over the first 3 years, from 2010 to the end of 2012, 
Reclamation, through the WaterSMART program, has created 
savings of over 600,000 acre-feet of water.
    In 2014, we propose to fund WaterSMART at $35.4 million, 
and that will fund a number of different programs including: 
WaterSMART grants, which are cost-share grants that facilitate 
dozens of water efficiency projects; Title XVI Water 
Reclamation and Reuse projects that provide reliability and 
drought resiliency to municipal supplies; and the Basin Studies 
program, which is possibly the best tool that the Federal 
agencies can provide to State and local water managers, by 
convening a collaborative and proactive discussion around 
sustainability and identifying options and strategies to 
respond to any expected shortages.
    Another very important focus of the Department is our New 
Energy Frontier initiative that encourages the development of 
renewable energy to reduce our dependence on foreign oil, to 
create jobs, and continue our leadership in the development of 
renewable energy technology. And hydropower is the way our 
water programs contribute to a clean and efficient renewable 
energy future.
    Reclamation's hydroelectric power plants produce, on 
average, 40 million megawatt hours of electricity every year. 
That's enough to meet the needs of 3.5 million households.
    Last year, Reclamation completed the second phase of its 
hydropower resource assessment. The first phase looked at 
hydropower potential on existing dams. The second phase looked 
at hydropower potential on canals and conduits owned by 
Reclamation. And that analysis concluded that we could generate 
a substantial additional amount of renewable energy by 
developing the capacity on Reclamation's canals. We'll get that 
generation through leases to the irrigation districts who 
operate the canals or through other private developers.

                           PREPARED STATEMENT

    This budget also continues the effort to optimize 
Reclamation's existing hydropower operations to produce more 
energy with the same amount of water.
    The budgets for the Department of the Interior and the 
Bureau of Reclamation support these energy and water 
priorities. We at Interior very much appreciate the support 
that this subcommittee has shown over the years for 
Reclamation's budget, and I look forward to answering your 
questions.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Anne Castle
    Madam Chair, Mr. Alexander, and members of this subcommittee: I am 
pleased to appear before you today to discuss the President's fiscal 
year 2014 budget for the Department of the Interior. I would also like 
to thank the members of this subcommittee for your efforts to enact a 
2014 appropriation, and for your ongoing support for our initiatives.
    The President's 2014 budget requests $11.9 billion for the 
Department of the Interior. This budget sets priorities, and demands 
hard choices and sacrifices, to support those key priorities. Our 
budget supports responsible domestic energy development, advances an 
America's Great Outdoors strategy, and promotes a sustainable water 
future. The budget continues to advance our efforts in renewable energy 
and water conservation, cooperative landscape conservation, youth in 
the outdoors, and reforms in our conventional energy programs.
    I will discuss the President's fiscal year 2014 budget for the 
Bureau of Reclamation, and the Office of the Central Utah Project 
Completion Act (CUPCA) Program, and the water-related programs of the 
U.S. Geological Survey. I thank the subcommittee for your continued 
support of these programs.
                              introduction
    Interior's mission--to protect America's natural resources and 
cultural heritage and honor the Nation's trust responsibilities to 
American Indians and Alaska Natives--is profound. Interior's people and 
programs impact all Americans.
    The Department of the Interior is the steward of 20 percent of the 
Nation's lands including national parks, national wildlife refuges, and 
the public lands. Interior manages public lands and the Outer 
Continental Shelf, providing access for renewable and conventional 
energy development and overseeing the protection and restoration of 
surface-mined lands. Through the Bureau of Reclamation, Interior is the 
largest supplier and manager of water in the 17 Western States and 
provides clean, renewable hydropower resources used throughout the 
West. The Department supports cutting edge research in the earth 
sciences and collection and dissemination of scientific research and 
data to inform resource management decisions within Interior and 
improve scientific understanding worldwide. The Department also helps 
fulfill the Nation's unique trust responsibilities to American Indians 
and Alaska Natives, and provides financial and technical assistance for 
the insular areas.
    The Department of the Interior makes significant contributions to 
the Nation's economy. We estimate that it supports over 2.4 million 
jobs and approximately $385 billion in economic activity each year. 
Visits to our national parks, cultural and historic sites, refuges, 
monuments and other public lands contribute over $48.7 billion annually 
in economic activity in 2011 from recreation and tourism. The American 
outdoor industry estimates that 1 in 20 U.S. jobs is in the recreation 
economy. The Department estimates the exploration and production of 
oil, gas, coal, hydropower, and minerals on Federal lands contributed 
nearly $275 billion to the U.S. economy in 2011.
                 2012 energy and water accomplishments
    Four years ago, Secretary Salazar set Interior on a course to 
create a comprehensive strategy to advance a new energy frontier; 
tackle the impacts of a changing landscape; improve the sustainable use 
of water; engage youth in the outdoors; and improve the safety of 
Indian communities. These priority goals integrate the strengths of the 
Department's diverse bureaus and offices to address key challenges of 
importance to the American public. Interior has been making progress in 
these areas, including:
      In 2012, the Department of the Interior generated a total of 
        $13.7 billion in receipts benefitting the U.S. Treasury--from a 
        combination of royalties, rents and bonuses from mineral, 
        timber, and other natural resource development. In 2012, 
        Interior held 31 onshore oil and gas sales, approved permits 
        enabling more than 350 miles of transmission lines, and 
        approved 112 new offshore deepwater well permits. Interior also 
        progressed on significant renewable projects including the 
        release of both competitive and noncompetitive offshore leases 
        for wind energy and planning documents for one of the largest 
        proposed solar energy projects on public lands in the 
        California desert. In 2012, the Department met the 2015 goal 
        established by Congress in the Energy Policy Act of 2005 by 
        approving 10,000 megawatts of non-hydro renewable energy, 
        beating the target 3 years early.
      The Department also approved a 350 megawatt solar energy project 
        on tribal trust land of the Moapa Band of Paiute Indians in 
        Clark County, Nevada. The project marks a milestone as the 
        first-ever, utility-scale solar project approved for 
        development on tribal lands, a project is expected to generate 
        enough power for an estimated 100,000 homes. Among the other 
        actions the Department took in 2012 to advance the safe 
        development of conventional energy sources on public lands and 
        waters, we approved a land-into-trust application from the 
        Three Affiliated Tribes of the Fort Berthold Reservation, the 
        first in a series of necessary approvals that will enable the 
        tribes to build the first U.S. refinery in decades, supporting 
        American made energy, including domestic resources from the 
        Bakken Formation, while also creating badly needed jobs.
      Interior's WaterSMART Program, established in 2010, has assisted 
        many communities in improving conservation, increasing water 
        availability, restoring watersheds, resolving long-standing 
        water conflicts, addressing the challenges of climate change, 
        and implementing water rights settlements. Since 2009, the 
        WaterSMART grant program has provided nearly $94 million in 
        funding to non-Federal partners, including tribes, water 
        districts, and universities. In 2012, we provided $12.2 million 
        in funding for approximately 33 WaterSMART grant projects. In 
        2014, Reclamation anticipates initiating 27 new WaterSMART 
        Grant projects, including many that will contribute to our 
        Priority Goal for Water Conservation.
      The Department worked with many State, local and NGO partners to 
        implement short-term measures and develop a long-term action 
        plan to help address water supply and environmental challenges 
        in the California Bay-Delta area, invested nearly $800 million 
        in major water projects between 2009 and 2013, and moved 
        forward on longstanding water availability and management 
        issues in the Colorado River Basin.
                         fiscal responsibility
    Interior's 2014 budget must be viewed in the context of the complex 
mission that the Department of the Interior has and how the mission 
affects the lives of all Americans. Interior's $11.9 billion budget 
reflects difficult choices, sacrificing in many areas, deferring 
projects, and programming savings for efficiencies in order to maintain 
funding for key priorities. The 2014 budget includes $10.9 billion for 
programs funded by the Interior, Environment, and Related Agencies 
appropriation. The 2014 budget for Reclamation, including the CUPCA, is 
$1 billion.
                        america's great outdoors
    The Administration continues to listen to the American public as 
they ask for protection and restoration of our outdoor landscapes and 
to expansion of opportunities for recreation through partnerships with 
States and others, and promotion of America's parks, refuges, and 
public lands. An important element in this effort is the restoration of 
our rivers to both protect the environmental and community benefits 
they provide and to secure future water supplies. By encouraging 
innovative partnerships in communities across the Nation, the 
Administration is expanding access to rivers and trails, creating 
wildlife corridors, and promoting conservation while working to protect 
historic uses of the land including ranching, farming, and forestry. As 
part of the America's Great Outdoors program, Interior is supporting 
signature projects in all States across the country to make parks 
accessible for children, create great urban parks and community green 
spaces, restore rivers, and create recreational water trails to power 
economic revitalization. Projects were selected in concert with 
governors, tribal leaders, private landowners, and other stakeholders, 
and were evaluated based on the level of local support, the ability of 
States and communities to leverage resources, and the potential to 
conserve important lands and promote recreation.
    The 2014 America's Great Outdoors initiative focuses on investments 
that will lead to healthy lands, waters, and resources while 
stimulating the economy--goals that are complementary. Through 
strategic partnerships, Interior will support and protect historic uses 
of lands, restore lands and resources, protect and interpret historic 
and cultural resources, and expand outdoor recreation opportunities. 
All of these activities have significant economic benefits in rural and 
urban communities.
                leadership on sustainable water supplies
    Interior is working to address the 21st century pressures on the 
Nation's water supplies. Population growth, aging water infrastructure, 
changing climate, rising energy demands, impaired water quality and 
environmental needs are among the challenges to already scarce 
supplies. Water shortage and water use conflicts have become more 
commonplace in many areas of the United States, even in normal water 
years. As competition for water resources grows, the need for 
information and tools to aid water resource managers also grows. 
Traditional water management approaches no longer meet today's needs.
    Interior's 2014 budget continues to better equip land and water 
resource managers with the tools they need to effectively conserve 
resources in a rapidly changing environment. Significant changes in 
water availability, longer and more intense fire seasons, invasive 
species and disease outbreaks are creating challenges for managers and 
impacting the sustainability of resources on public lands. These 
changes result in bark beetle infestations, deteriorated range 
conditions, and water shortages that negatively impact grazing, 
forestry, farming, as well as the status of wildlife and the condition 
of their habitats. Many of these problems are caused by or exacerbated 
by climate change.
    Reclamation continues to participate in and support to the Desert 
and Southern Rockies Landscape Conservation Cooperatives. These LCCs 
are partnerships between Interior and other Federal agencies, States, 
tribes, non-governmental organizations, and other stakeholders, to 
bring together science and sustainable resource conservation activities 
to develop science-based solutions to on-the-ground challenges from a 
changing environment within an ecological region or ``landscape.'' The 
LCCs leverage the resources and expertise of the partners and work 
across jurisdictional barriers to focus on natural resource issues 
specific to a particular ecosystem or landscape. The Desert and 
Southern Rockies LCCs focus primarily on water related issues.
    In 2010, the Secretary issued a Secretarial Order establishing the 
WaterSMART Program which embodies a new water sustainability strategy. 
WaterSMART coordinates Interior's water sustainability efforts, creates 
a clearinghouse for water conservation best practices and implements a 
Department-wide water footprint reduction program to reduce consumption 
of potable water by 26 percent by 2020. WaterSMART is a joint effort by 
Reclamation and the USGS.
    Reclamation proposes to fund the rebased WaterSMART Program at 
$35.4 million for water sustainability efforts, a decrease of $11.7 
million from 2012. The WaterSMART programs include: The WaterSMART 
Grant program funded at $12 million; Basin Studies funded at $4.7 
million; and the Title XVI Water Reclamation and Reuse program funded 
at $14 million; the existing Water Conservation Field Services program, 
funded at $3.4 million; and participation by Reclamation in the 
Cooperative Watershed Management program, funded at $250,000. In 2014, 
Reclamation anticipates initiating a new external water resources 
grants program of $1 million for research and development of new 
technologies. The USGS 2014 budget includes $22.5 million, an increase 
of $14.5 million from 2012, for the USGS WaterSMART Availability and 
Use Assessment program.
    In 2011, the Department adopted the WaterSMART Strategic 
Implementation Plan, which discusses the coordination of activities 
across bureaus and the contributions they will make in providing 
Federal leadership toward a sustainable water resources future. In 2011 
we also released a report on a pilot project within the Colorado River 
Basin. This report represented a snapshot of Interior's WaterSMART 
activities within the Basin and demonstrates the diversity and 
significance of several ongoing Federal, State, tribal, local and non-
governmental cooperative efforts that are underway.
    The Department's budget includes $4.7 million for Reclamation's 
Basin Studies program, a component of the WaterSMART initiative. The 
Basin Studies program funds Reclamation's partnerships with State and 
local entities to initiate comprehensive water supply and demand 
studies in the West.
    In 2012, the Interior completed the Colorado River Basin Water 
Supply and Demand Study, the most comprehensive example of the value 
and breadth of the studies performed under this umbrella. This study 
was done in collaboration with a broad range of stakeholders, including 
the seven basin States, Native American tribes, communities, and 
conservation and recreational organizations. The study sought to define 
current and future imbalances in water supply and demand through 2060 
in the Colorado River Basin and the adjacent areas of the basin States 
that receive Colorado River water, and to develop and analyze 
adaptation and mitigation strategies to resolve those imbalances.
    Another historic milestone was achieved on the Colorado River in 
November 2012 when Secretary Salazar triggered the first ``high-flow 
experimental release'' at Glen Canyon Dam, under a new experimental 
long-term protocol to better distribute sediment to conserve downstream 
resources, while meeting water and power needs and allowing continued 
scientific experimentation, data collection, and monitoring on the 
Colorado River. The new protocol calls for experimental releases from 
the Dam through 2020 to send sediment downstream to rebuild sandbars, 
beaches, and backwaters to provide key wildlife habitat, enhance the 
aquatic food base, protect archeological sites, and create additional 
camping opportunities in the canyon. We have also begun the process for 
updating the long-term plan of operations for Glen Canyon Dam to 
incorporate the scientific advancements that have occurred since the 
last plan was finalized, over 15 years ago.
    We have a number of ongoing efforts to improve our management of 
resources on the Colorado River. With the successful negotiation of 
Minute 319 to the 1944 Colorado River Treaty, we are now actively 
engaged with the International Boundary and Water Commission, 7 basin 
States, and Mexico to implement its provisions and secure bi-national 
benefits associated with improved water management and environmental 
restoration of the Colorado River. With the completion of the Basin 
Study last December, which brought together many Colorado River 
stakeholders to assess long-term supply and demand imbalance in the 
basin, the Department is now working collaboratively with those same 
stakeholders to develop the critical next steps in addressing those 
imbalances.
    We are actively pursuing workable solutions to regional issues such 
as in the California Bay-Delta. The Bay-Delta is a source of drinking 
water for 25 million Californians and sustains about $400 billion in 
annual economic activity, including a $28 billion agricultural industry 
and up until recently supported a thriving commercial and recreational 
fishing industry. Our efforts in the Bay-Delta are focused on working 
collaboratively with the State of California and co-leading a Federal 
interagency effort to address immediate water supply concerns 
associated with this year's drought and maintaining progress on long-
term environmental restoration and water supply needs through the Bay-
Delta Conservation Plan. Between 2009 and 2013, we have invested nearly 
$800 million in water projects in California. This funding supports the 
co-equal goals of providing a more reliable water supply for California 
and protecting, restoring, and enhancing the Bay-Delta ecosystem.
                       innovation through science
    Sustainable stewardship of natural resources requires strong 
investments in research and development in the natural sciences. 
Research and development funding is increased by $143.6 million in the 
Department's 2014 budget, with R&D funding increases among all of the 
Interior bureaus, and particularly USGS with a $38.9 million increase 
to fund R&D priorities in disaster response, hydraulic fracturing, 
coastal and ocean stewardship, and ecosystem restoration. The 2014 
budget includes R&D funding of $16.6 million for Reclamation to address 
climate change adaptation, control invasive quagga mussels, improve 
desalination technologies, and promote renewable energy development.
                          new energy frontier
    The 2014 budget continues Interior's New Energy Frontier initiative 
to create jobs and achieve greater energy independence. The 
Administration's blueprint for energy security focuses on safely and 
responsibly developing our domestic energy resources, including both 
conventional and renewable resources. The Department plays an important 
role by providing opportunities for safe and responsible development on 
public lands and on the U.S. Outer Continental Shelf.
                               hydropower
    Hydropower is a very clean and efficient way to produce energy and 
is a renewable resource. Each kilowatt-hour of hydroelectricity is 
produced at an efficiency of more than twice that of any other energy 
source. Further, hydropower is very flexible and reliable when compared 
to other forms of generation. Reclamation has 476 dams and 10,000 miles 
of canals and owns 58 hydropower plants, 53 of which are operated and 
maintained by Reclamation. On an annual basis, these plants produce an 
average of 40 million megawatt (MW) hours of electricity, enough to 
meet the entire electricity needs of over 3.5 million households on 
average.
    The Department signed a Memorandum of Understanding with the 
Department of Energy and U.S. Army Corps of Engineers on March 24, 
2010, to increase communication between Federal agencies and strengthen 
the long-term relationship among them to prioritize the generation and 
development of sustainable hydropower. In 2011, Reclamation released 
the results of an internal study, the Hydropower Resource Assessment at 
Existing Reclamation Facilities, that estimated the Department could 
generate up to 1 million megawatt hours of electricity annually and 
create jobs by addressing hydropower capacity at 70 of its existing 
facilities. In 2012, Reclamation completed the second phase of its 
investigation of hydropower development, Site Inventory and Hydropower 
Energy Assessment of Reclamation Owned Conduits, as referenced in the 
2010 MOU. While the first phase focused primarily on Reclamation dams, 
the second focused on constructed Reclamation waterways such as canals 
and conduits, and estimated the Department could generate over 365,000 
megawatt hours of electricity annually by addressing hydropower 
capacity on 373 of its existing canals. In total, the two studies 
revealed that an additional 1.5 million megawatt-hours of renewable 
energy could be generated through hydropower at existing Reclamation 
sites.
    The budget allocates $1.1 million to increase clean renewable 
energy generation by exploring how renewable technologies including 
solar, small hydropower, and hydrokinetics can be integrated into 
Reclamation projects; by continuing the effort to optimize Reclamation 
hydropower projects to produce more energy with the same amount of 
water; by investigating hydro pump-storage projects that can help 
integrate large amounts of variable renewable resources such as wind 
and solar into the electric grid; and by working with tribes to assist 
them in developing renewable energy sources.
                        indian water settlements
    The Department has a unique responsibility to American Indians and 
Alaska Natives, which is upheld by Interior's support for a robust 
government-to-government relationship as demonstrated by a new 
comprehensive and transparent consultation policy that ensures there is 
a strong, meaningful role for tribal governments. Interior's 2014 
budget includes $99.7 million in the Bureau of Reclamation and $35.7 
million Bureau of Indian Affairs to implement land and water 
settlements.
    The Claims Resolution Act of 2010 included four settlements that 
will provide permanent water supplies and economic security for the 
Taos Pueblo of New Mexico and Pueblos of New Mexico named in the Aamodt 
case, the Crow Tribe of Montana, and the White Mountain Apache Tribe of 
Arizona. The agreements will enable construction and improvement of 
reservation water systems, irrigation projects, a regional multi-pueblo 
water system, and codify water-sharing arrangements between Indian and 
neighboring communities. The primary responsibility for constructing 
water systems associated with the settlements was given to Reclamation; 
and BIA is responsible for the majority of the trust funds.
    Reclamation is budgeting $18.2 million in 2014 for the continued 
implementation of these four settlements and $60.5 million for the 
Navajo-Gallup Water Supply project. Reclamation is proposing the 
establishment of an Indian Water Rights Settlements account to assure 
continuity in the construction of the authorized projects and to 
highlight and enhance transparency.
                          central utah project
    CUPCA, titles II-VI of Public Law 102-575, provides for completion 
of the Central Utah Project (CUP) by the Central Utah Water Conservancy 
District (District). The act also authorizes funding for fish, 
wildlife, and recreation mitigation and conservation; establishes an 
account in the Treasury for deposit of these funds and other 
contributions; establishes the Utah Reclamation Mitigation and 
Conservation Commission to coordinate mitigation and conservation 
activities; and provides for the Ute Indian Rights Settlement.
    The 2014 budget proposes to reconsolidate the CUPCA Office and 
program into the Bureau of Reclamation. This consolidation is part of 
broader Administration efforts to implement good government solutions 
to consolidate and streamline activities. The CUP is the only water 
project within the Department of the Interior not managed by 
Reclamation. The proposed merger would correct that anomaly, ensuring 
that these projects receive equal and consistent consideration and 
treatment. Concerns about Reclamation's previous management and 
operation of the CUP have been addressed within Reclamation and 
corrected. The 2014 CUPCA budget is $3.5 million, of this amount, $1 
million will be transferred to the Utah Reclamation Mitigation and 
Conservation Account for use by the Utah Reclamation Mitigation and 
Conservation Commission (Mitigation Commission). We propose to maintain 
both the Central Utah Project Completion and the Utah Reclamation 
Mitigation and Conservation Accounts for CUPCA appropriations after the 
proposed consolidation of the CUPCA Office into Reclamation in order to 
enhance transparency and ensure the continued direction of funding to 
the CUPCA Program.
                               conclusion
    Thank you for the opportunity to testify on behalf of the 
President's fiscal year 2014 budget for the Department of the Interior 
and the Bureau of Reclamation. I want to reiterate my appreciation for 
the longstanding support of this subcommittee. This budget has fiscal 
discipline and restraint, but it also includes forward looking 
investments. We have a tremendous opportunity to improve the future for 
all generations with wise investments in healthy lands, clean waters 
and expanded energy options.
    I look forward to working with you to implement this budget. This 
concludes my testimony. I am happy to answer any questions that you may 
have.

    Senator Feinstein. Thank you very much, Madam Secretary.
    Commissioner Connor.
STATEMENT OF HON. MICHAEL L. CONNOR, COMMISSIONER
    Mr. Connor. Thank you, Madam Chair, Ranking Member 
Alexander, and members of the subcommittee, for the opportunity 
to discuss the President's fiscal year 2014 budget for the 
Bureau of Reclamation.
    The overall request for Reclamation is $1 billion, and I 
have submitted the detailed testimony for the record.
    The budget reflects a comprehensive set of actions and 
initiatives that support the President's agenda to grow the 
economy and create jobs. Reclamation is proud that its mission 
continues to play an important role in providing a strong 
foundation for economic activity across the American West.
    Over the last 4 years, Reclamation has worked with our 
partners at the State and local level to effectively use the 
resources provided by Congress to address an array of water 
resource challenges. This progress, however, does not diminish 
the serious ongoing challenge associated with drought, 
competing demands for a limited resource, and the long-term 
projections associated with climate change.
    To continue our efforts to confront these challenges head 
on, the fiscal year 2014 budget request prioritizes the use of 
resources in five areas that I'll briefly discuss.
    First, Reclamation's budget focuses on the resources 
necessary to operate and maintain its infrastructure. In 
particular, the safety and reliability of Reclamation dams 
continues to be the highest priority. In 2014, 53 percent of 
the Water and Related Resources account is dedicated to 
operation, maintenance, and replacement (OM&R) activities, 
approximately $418 million. Forty-seven percent is allocated to 
resource management and development.
    The Dam Safety Program, which includes safety evaluations, 
corrective actions, and managing the Department's overall Dam 
Safety Program is proposed for $88 million in funding.
    Other OM&R activities include the Site Security Program 
with $28 million in funding, and RAX, which is Replacements, 
Additions and Extraordinary Maintenance program, proposed to be 
funded at $57 million.
    Second, the budget supports the need to conserve and make 
more efficient use of our limited water resources. WaterSMART 
is key to this effort. WaterSMART concentrates on expanding and 
stretching limited water supplies to reduce conflict, 
facilitate solutions to complex water issues, and meet the 
growing needs in municipalities, domestic energy involvement, 
the environment, and agriculture.
    Assistant Secretary Castle has already noted the goals and 
accomplishments achieved through the WaterSMART program. And, 
as noted, in 2014, we're seeking $35 million for that effort.
    Third, to support the Department's New Energy Frontier 
initiative, the budget allocates specifically $1.1 million to 
support Reclamation's renewable energy initiatives. The funds 
will be used to continue efforts in exploring how renewable 
energy technologies, both hydro and nonhydro, can be added to 
and integrated with Reclamation projects.
    Over the last 4 years, Reclamation has worked to 
collaboratively increase generating capacity at our facilities 
by over 110 megawatt hours through turbine upgrades and new 
units. We will continue to support efforts to add capacity to 
meet the Nation's electricity needs.
    Supporting tribal nations is the fourth priority area. 
Reclamation has a longstanding commitment to the Secretary's 
goal of strengthening tribal nations. The 2014 budget supports 
the goal through fisheries restoration, rural water projects, 
and, most visibly, the implementation of Indian water rights 
settlements.
    With respect to settlements, the budget includes 
significant funding towards implementing five settlements 
signed into law by President Obama, as well as other previously 
enacted settlements. Overall, the 2014 budget requests 
approximately $100 million in support of Indian water rights 
settlements.
    Ecosystem restoration is the fifth priority area. To keep 
producing power and delivering water in a sustainable manner, 
Reclamation must continue to focus on the protection and 
restoration of the aquatic and riparian environments affected 
by our projects.
    In addition to fulfilling fundamental legal 
responsibilities, these restoration efforts typically have 
strong support by diverse stakeholders in communities seeking 
to achieve a sensible balance between consumptive use and 
recreational enjoyment of our precious water resources.
    In the 2014 budget, Reclamation's river restoration 
programs are included in the America's Great Outdoors program 
of the Department. The request provides substantial funding for 
a number of restoration programs in California, including the 
Central Valley Project (CVP) Improvement Act, San Joaquin River 
restoration, Trinity River restoration, and the Bay-Delta 
Conservation Plan (BDCP).

                           PREPARED STATEMENT

    Our Endangered Species Act (ESA) recovery and compliance 
programs are making progress in practically all major river 
basins across the West. These programs are set forth in great 
detail in the budget.
    Madam Chair, thank you for your continued support and 
leadership on water resource issues, particularly in these 
drought-stricken times. We appreciate the continued support the 
subcommittee overall has provided to Reclamation, and I'm happy 
to answer questions at the appropriate time.
    [The statement follows:]
                Prepared Statement of Michael L. Connor
    Thank you Madam Chair, Mr. Alexander, and members of this 
subcommittee for the opportunity to discuss with you the President's 
fiscal year 2014 budget for the Bureau of Reclamation and the Central 
Utah Project Completion Act Program known as CUPCA.
    I appreciate the time and consideration this subcommittee gives to 
reviewing and understanding Reclamation's budget and its support for 
the program. Reclamation works hard to prioritize and define our 
program in a manner that serves the best interest of the public.
    Our 2014 budget continues support for activities that, both now and 
in the future, will deliver water and generate power, consistent with 
applicable State and Federal law, in an environmentally responsible and 
cost-effective manner. Overall, our goal is to promote sustainability, 
resiliency, and certainty for those who use and rely on water resources 
in the West. Success in this approach will help ensure that Reclamation 
is doing its part to support the basic needs of communities, as well as 
provide for economic growth in the agricultural, industrial, energy and 
recreational sectors of the economy. The budget is consistent with the 
President's pledge to reduce spending and focus on deficit reduction. 
The 2014 budget allows Reclamation to fulfill its core mission, but 
cost savings have been implemented where possible.
    The budget also supports the Administration's and Department of the 
Interior's (Department) priorities to tackle America's water 
challenges; promote America's Great Outdoors and Cooperative Landscape 
Conservation; and support and strengthen tribal nations. The Department 
will continue the WaterSMART Program (with participation from both 
Reclamation and the U.S. Geological Survey) and Reclamation's budget 
reflects that priority.
    Reclamation's 2014 budget is $1 billion. Reclamation's budget 
request is partially offset by discretionary receipts in the Central 
Valley Project Restoration Fund, estimated to be $53.3 million. The 
request for permanent appropriations in 2014 totals $180.6 million. The 
budget proposes the establishment of an Indian water rights settlement 
account and a discretionary appropriation for the San Joaquin River 
Restoration Fund.
    As the largest supplier and manager of water in the 17 Western 
States and the Nation's second largest producer of hydroelectric power, 
Reclamation's projects and programs are critical to driving and 
maintaining economic growth in the Western States. Reclamation manages 
water for agricultural, municipal and industrial use, and provides 
flood control and recreation for millions of people. Reclamation 
activities, including recreation, have an economic contribution of $46 
billion, and support nearly 312,000 jobs. Reclamation's 58 
hydroelectric power plants generate over 40 million megawatt hours of 
electricity to meet the annual needs of over 3.5 million households and 
generate over $1 billion in gross revenues for the Federal Government 
on an annual basis. It would take more than 23.5 million barrels of 
crude oil or about 6.8 million tons of coal to produce an equal amount 
of energy with fossil fuel. As a result, Reclamation facilities 
eliminate the production of over 27 million tons of carbon dioxide that 
would have been produced by fossil fuel power plants.
    The 2014 budget allocates funds to projects and programs based on 
objective, performance-based criteria to most effectively implement 
Reclamation's programs and its management responsibilities for its 
water and power infrastructure in the West.
                      water and related resources
    The 2014 budget for Water and Related Resources, Reclamation's 
principal operating account, is $791.1 million, a decrease of $109.3 
million from the 2013 Full Year Continuing Resolution (Public Law 112-
175). This decrease is due, in part, to shifts in funding of $78.7 
million for the establishment of the Indian Water Rights Settlement 
Account and $26 million for a discretionary appropriation within the 
San Joaquin Restoration Fund. Other significant changes include the 
completion of authorized construction on the Mni Wiconi Project this 
year, and an increase in the Central Valley Project for court ordered 
drainage requirements.
    The 2014 budget includes a total of $373.3 million at the project/
program level for water, energy, land, and fish and wildlife resource 
management and development activities. Funding in these activities 
provides for planning, construction, water sustainability activities, 
management of Reclamation lands including recreation areas, and actions 
to address the impacts of Reclamation projects on fish and wildlife.
    The budget also provides a total of $417.8 million at the project/
program level for the operation, maintenance, and rehabilitation 
associated with Reclamation's water and power facilities. Reclamation 
emphasizes safe, efficient, economic and reliable operation of 
facilities, ensuring systems and safety measures are in place to 
protect the facilities and the public. Providing adequate funding for 
these activities continues to be one of Reclamation's highest 
priorities.
    highlights of the fiscal year 2014 budget for water and related 
                               resources
    I would like to share with the committee several highlights of the 
Reclamation budget. Even in this tight fiscal climate, Reclamation's 
budget continues to promote and support efficient water management; 
increased renewable energy production; the construction of new 
infrastructure and sound maintenance of existing facilities; 
restoration of aquatic environments; and the continued use of applied 
science and new technologies to help ensure sustainable water 
deliveries and energy production. As a result, Reclamation continues to 
play an important role in providing a strong foundation for economic 
activity across the American West.
    WaterSMART Program.--The 2014 budget continues to focus resources 
on stretching limited water supplies in the West to reduce conflict, 
facilitate solutions to complex water issues, and meet the growing 
needs of expanding municipalities, domestic energy development, ongoing 
environmental challenges such as drought, climate change, and 
agriculture. In particular, the WaterSMART (Sustain and Manage 
America's Resources for Tomorrow) program is directly aligned with the 
Department's Priority Goal for Water Conservation. Through title XVI 
and cost-shared WaterSMART Grants and through the Bureau's other 
conservation related programs, Reclamation has already helped 
facilitate the conservation of 616,000 acre feet of water from 2010 
through 2012. Reclamation's current goal is to conserve a cumulative 
total, since 2009, of 790,000 acre feet of water by the end of 2014.
    Reclamation proposes to fund WaterSMART at $35.4 million. There are 
now six complementary programs that will participate in WaterSMART: The 
WaterSMART Grant program funded at $12 million; Basin Studies funded at 
$4.7 million; the Title XVI Water Reclamation and Reuse program funded 
at $14 million; the Water Conservation Field Services program funded at 
$3.4 million; $1 million for a new external water resources grants 
program called the Shared Investment Water Innovation Program; and the 
Cooperative Watershed Management program, funded at $250,000.
    In 2014, Reclamation will continue developing and implementing 
approaches to understand, and effectively adapt to landscape-level 
conservation challenges, including the impacts of climate change on 
western water management. The Basin Studies program is part of an 
integrated strategy to respond to changing impacts on the resources 
managed by Interior, and is a key component of the WaterSMART 
initiative. In 2014, the Basin Studies program will continue West-wide 
risk assessments, coordinated through the Department's Landscape 
Conservation Cooperatives (LCCs) and focus on the threats to water 
supplies from changing weather patterns. Reclamation will continue to 
participate in and lead the Desert and Southern Rockies LCCs. Included 
within Reclamation's Science and Technology program is water resources 
research targeting improved capability for managing water resources 
under multiple drivers, including a changing climate. This research 
agenda will be collaborated and leveraged with capabilities of the 
Interior Climate Science Centers.
    Supporting Renewable Energy Initiatives.--To support the 
Administration's New Energy Frontier initiative and the Renewable 
Energy priority goal, the 2014 Reclamation budget allocates $1.1 
million for a pilot initiative to increase renewable generation by 
exploring how renewable energy technologies, including solar, small 
hydropower, and hydrokinetics, can be integrated into Reclamation 
projects. Reclamation will continue the effort to facilitate the 
development of sustainable hydropower; optimize Reclamation hydropower 
projects to produce more energy with the same amount of water; explore 
hydro pump-storage projects that can help integrate large amounts of 
variable renewable resources such as wind and solar into the electric 
grid; and work with tribes to assist them in developing renewable 
energy sources. These important projects can help produce cleaner, more 
efficient renewable energy.
    Strengthening Tribal Nations.--Reclamation has a long-standing 
commitment to realizing the Secretary's goal to strengthen tribal 
nations. The 2014 budget continues to support that goal through a 
number of activities and projects ranging from ecosystem restoration to 
rural water infrastructure and the implementation of water rights 
settlements. The budget includes $7.4 million for the Native American 
Affairs Program to continue support of Reclamation activities with 
Indian tribes. These activities include providing technical support for 
Indian water rights settlements and assisting tribal governments to 
develop, manage, and protect their water and related resources. Also, 
the office provides policy guidance for Reclamation's work with tribes 
throughout the organization in such areas as the Indian trust 
responsibility, government-to-government consultations, and Indian 
self-governance and self-determination.
    Rural Water Projects.--The budget includes construction funding for 
five ongoing projects specifically authorized by Congress where 
Reclamation conducts design and construction to deliver potable water 
supplies to specific rural communities in the West. Reclamation has 
worked diligently to make meaningful progress in constructing 
authorized rural water projects consistent with current fiscal and 
resource constraints with the goal of delivering potable water to 
tribal and non-tribal residents within the rural water project areas.
    Reclamation has proposed $40 million in funding for Reclamation's 
on-going authorized rural water projects. Specifically, the budget 
includes $17.8 million for obligatory operation and maintenance of 
tribal features for two projects--the Mni Wiconi Project, (South 
Dakota) and the Garrison Diversion Unit of the Pick-Sloan Missouri 
Basin Program, (North Dakota)--and $22.2 million in construction 
funding combined for five of the projects: Garrison Diversion Unit; 
Lewis and Clark Rural Water System, (South Dakota, Iowa, Minnesota); 
Fort Peck Reservation/Dry Prairie Rural Water System, (Montana); Rocky 
Boys/North Central Montana Rural Water System, (Montana); and Eastern 
New Mexico Water Supply Project, (New Mexico). Construction funding for 
the Mni Wiconi Project will be completed in 2013.
    Dam Safety Program.--A total of $88.1 million is budgeted for 
Reclamation's Safety of Dams program. This includes $66.5 million 
directed to specific dam safety modifications, of which $24.6 million 
is for work at Folsom Dam. Funding also includes $20.3 million for 
safety evaluations of existing dams and $1.3 million to oversee the 
Interior Department's Safety of Dams program.
    Site Security.--A total of $27.8 million is budgeted for site 
security to ensure the safety and security of the public, Reclamation's 
employees, and key facilities. This funding includes $6.4 million for 
physical security upgrades at high risk critical assets and $21.4 
million to continue all aspects of bureau-wide security efforts. This 
includes law enforcement, risk and threat analysis, personnel security, 
information security, and guards and patrols.
    America's Great Outdoors (AGO) Program.--In order to meet 
Reclamation's mission goals of generating power and managing water in a 
sustainable manner for the 21st century, one focus of its programs must 
be the protection and restoration of the aquatic and riparian 
environments affected by its operations. In 2014, additional river 
restoration programs within Reclamation are included in the AGO 
program.
    Reclamation's river restoration helps reduce environmental 
conflicts and litigation, as evidenced by the San Joaquin River 
Restoration program, where 18 years of litigation was settled providing 
restored water flows and reintroduction of salmon to the River, as well 
as certainty on water and power delivery to customers. Restoration 
programs support tribal needs in restoring fisheries affected by water 
and power operations as demonstrated by the Trinity River Restoration 
program which is re-establishing the physical process and rescaling the 
Trinity River as a foundation for fishery recovery. Restoration 
programs also develop valuable conservation skills for people working 
on projects, as seen on the Lower Colorado River Multi-Species 
Conservation program among others.
    The 2014 budget provides $152.5 million to operate, manage, and 
improve California's Central Valley Project. Within this total, $14 
million and an additional $2 million in the Central Valley Project 
Restoration Fund is for the Trinity River Restoration program, and 
$38.2 million continues actions required for drainage services in the 
West San Joaquin Division, San Luis Unit.
    The budget provides $27.8 million for Lower Colorado River 
Operations to fulfill the role of the Secretary as Water Master for the 
Lower Colorado River. This amount includes $18.2 million for the multi-
species conservation program which provides long-term Endangered 
Species Act compliance for the river operations.
    The budget includes $21.2 million for Endangered Species Act 
Recovery Implementation programs including $10.1 million in the Great 
Plains Region for the Platte River Endangered Species Recovery 
Implementation program, which provides measures to help recover four 
endangered or threatened species, thereby enabling existing water 
projects in the Platte River Basin to continue operations, as well as 
allowing new water projects to be developed in compliance with the 
Endangered Species Act. This program also provides $8.5 million for the 
Upper Colorado and San Juan River Endangered Fish Recovery programs. 
This funding will continue construction of a system that automates 
canal operations to conserve water by matching river diversions with 
actual consumptive use demands and redirecting the conserved water to 
improve instream flows. The budget also provides $18 million for the 
Columbia/Snake River Salmon Recovery program. This funding will be used 
to implement the required Biological Opinion actions which include 
extensive hydro actions that vary downstream flow regimes and tributary 
habitat and hatchery improvements as offsets for the impacts of the 
Federal Columbia River Power System operations.
    The 2014 budget includes $18 million for the Klamath project, which 
supports studies and initiatives to improve water supplies to meet the 
competing demands of agricultural, tribal, wildlife refuge, and 
environmental needs along with facilities operations and maintenance 
activities.
    The 2014 budget includes $25.9 million for the Middle Rio Grande 
project, of which $10.2 million will continue funding endangered 
species activities and Reclamation's participation in the Middle Rio 
Grande Endangered Species Act Collaborative program. Funds support the 
acquisition of supplemental non-Federal water for Endangered Species 
Act efforts including low flow conveyance channel pumping into the Rio 
Grande during the irrigation season. Further, funding will be used for 
recurring river maintenance necessary to ensure uninterrupted and 
efficient water delivery to Elephant Butte Reservoir, reduce the risk 
of flooding, as well as meeting water delivery obligations to Mexico.
    The Yakima River Basin Water Enhancement project budget is $8 
million, which will stretch water supplies, continue funding grants to 
implement conservation measures, and monitor the effects of those 
measures on the river diversions.
                  central utah project completion act
    The 2014 budget proposes to consolidate the CUPCA program with the 
Bureau of Reclamation, while maintaining a separate appropriation 
account for CUPCA. This consolidation is part of broader Administration 
efforts to implement good government solutions to consolidate and 
streamline activities when possible. The proposed merger would ensure 
that all major Federal water projects within Interior are managed by 
Reclamation, ensuring that these projects receive equal consideration 
and treatment. The 2014 CUPCA budget is $3.5 million. Of this amount, 
$1 million will be transferred to the Utah Reclamation Mitigation and 
Conservation Account for use by the Mitigation Commission.
                central valley project restoration fund
    The 2014 budget includes $53.3 million for the CVPRF. This budget 
is indexed to 1992 price levels and determined on the basis of a 3-year 
rolling average, not to exceed $50 million. These expenditures are 
offset by collections estimated at $53 million from mitigation and 
restoration charges authorized by the Central Valley Project 
Improvement Act. The fund supports a number of programs authorized by 
the CVPIA, including anadromous fish restoration and the acquisition 
and delivery of water to State and Federal wildlife refuges.
                    california bay-delta restoration
    The 2014 budget includes $37 million for CALFED, pursuant to the 
CALFED Bay-Delta Authorization Act. The budget will support 
implementation of the Bay Delta Conservation Plan, under the following 
program activities: $1.7 million for a Renewed Federal-State 
Partnership, $9.9 million for Smarter Water Supply and Use, and $25.5 
million for Habitat Restoration.
                   san joaquin river restoration fund
    The 2014 budget funds activities consistent with the settlement of 
Natural Resources Defense Council v. Rodgers as authorized by the San 
Joaquin River Restoration Settlement Act. The Act included a provision 
establishing the San Joaquin River Restoration Fund to implement the 
provisions of the Settlement. The Settlement's two primary goals are to 
restore and maintain fish populations, and restore and avoid adverse 
water impacts. Under the Settlement, the legislation provides for 
approximately $2 million in annual appropriations from the Central 
Valley Project Restoration Fund for this purpose, as well as permanent 
funds of $88 million. The legislation also authorized discretionary 
appropriations and Reclamation proposes $26 million for the San Joaquin 
Restoration Fund account in 2014.
                    indian water rights settlements
    The 2014 budget strongly supports Reclamation's role in fulfilling 
obligations set forth in several congressionally authorized Indian 
water rights settlements. Funding in 2014 includes $78.7 million for 
implementation activity. Of this amount, $18.2 million is for 
implementation of the four settlements included in the Claims 
Resolution Act of 2010. These settlements will deliver clean water to 
the Taos Pueblo of New Mexico, the Pueblos of New Mexico named in the 
Aamodt case, the Crow Tribe of Montana, and the White Mountain Apache 
Tribe of Arizona. Reclamation is proposing the establishment of an 
Indian Water Rights Settlements account to assure continuity in the 
construction of the authorized projects and to highlight and enhance 
transparency in handling these funds.
    In addition to the four settlements, the account also budgets $60.5 
million for the on-going Navajo-Gallup Water Supply Project (authorized 
in title X of Public Law 111-11). The total for Reclamation's 
implementation of Indian Water Rights Settlements in 2014 is $159.7 
million, $99.7 million in discretionary funding, and $60 million in 
mandatory funding available in 2014, which is provided in title VII of 
the Claims Resolution Act of 2010.
                       policy and administration
    The 2014 budget for the Policy and Administration appropriation 
account, the account that finances Reclamation's central management 
functions, is $60 million.
                        permanent appropriations
    The total permanent appropriation in 2014 of $180.6 million 
includes $110.1 million for the Colorado River Dam Fund and $60 million 
for Reclamation's Indian Water Rights Settlements account.
                         campaign to cut waste
    Over the last 3 years, the Administration has implemented a series 
of management reforms to curb growth in contract spending, terminate 
poorly performing information technology projects, deploy state-of-the-
art fraud detection tools, focus agency leaders on achieving ambitious 
improvements in high priority areas, and open Government up to the 
public to increase accountability and accelerate innovation.
    In November 2011, President Obama issued an executive order 
reinforcing these performance and management reforms and the 
achievement of efficiencies and cost-cutting across the government. 
This executive order identifies specific savings as part of the 
Administration's Campaign to Cut Waste to achieve a 20-percent 
reduction in administrative spending from 2010 to 2013 and sustain 
these savings in 2014. Each agency is directed to establish a plan to 
reduce the combined costs associated with travel, employee information 
technology devices, printing, executive fleet services, and extraneous 
promotional items and other areas.
    The Department of the Interior is on target to reduce 
administrative spending by $217 million from 2010 levels by the end of 
2013, and to sustain these savings in 2014. To meet this goal, the 
Department is leading efforts to reduce waste and create efficiencies 
by reviewing projected and actual administrative spending to allocate 
efficiency targets for Bureaus and Departmental Offices to achieve the 
20-percent target. To contribute to that goal, the Bureau of 
Reclamation is targeted to save $13 million in administrative costs by 
the end of 2014.
         fiscal year 2014 priority goal for water conservation
    Priority goals are a key element of the President's agenda for 
building a high-performing government. The priority goals demonstrate 
that they are a high value to the public or that they reflect 
achievement of key Departmental milestones. These goals focus attention 
on initiatives for change that have significant performance outcomes 
which can be clearly evaluated, and are quantifiable and measurable in 
a timely manner. Reclamation's participation in the Water Conservation 
priority goal helps to achieve these objectives.
    Reclamation's water conservation efforts are critical to sustain 
the economy, environment, and culture of the American West. Competition 
for finite water supplies is increasing because of population growth, 
ongoing agricultural demands, and increasingly evident environmental 
needs. With increased emphasis on domestic energy development, 
additional pressure is placed on limited water supplies, as significant 
amounts of water may be required for all types of energy development. 
At the same time, climate change, extended droughts, and depleted 
aquifers are impacting water supplies and availability.
    In response to these demands, by the end of 2014, Reclamation's 
goal is to enable the capability to increase available water supply for 
agricultural, municipal, industrial, and environmental uses in the 
Western United States by a cumulative total of 790,000 acre feet, since 
2009, through its conservation-related programs, such as water reuse 
and recycling (title XVI), and WaterSMART grants.
    Moreover, Reclamation's Water Conservation program addresses a 
range of other water supply needs in the West. It plays a significant 
role in restoring and protecting freshwater ecosystems consistent with 
applicable State and Federal law, enhancing management of our water 
infrastructure while mitigating for any harmful environmental effects, 
and understanding and responding to the changing nature of the West's 
limited water resources.
    Finally, the 2014 budget demonstrates Reclamation's commitment to 
meeting the water and power needs of the West in a fiscally responsible 
manner. This budget continues Reclamation's emphasis on managing those 
valuable public resources. Reclamation is committed to working with its 
customers, States, tribes, and other stakeholders to find ways to 
balance and provide for the mix of water resource needs in 2014 and 
beyond.
                               conclusion
    This completes my statement. I would be happy to answer any 
questions you may have at this time.

    Senator Feinstein. Thank you very much, Commissioner.
    Let me thank the four of you. You were short, sweet, and to 
the point, and it's very much appreciated, so thank you and 
thank you for your service.
    Commissioner Connor, I'd like to confine my questions this 
round to you, if I may. First, I want to thank you for 
including the extension of the CALFED Bay-Delta program. I 
think that's very helpful, and it's very much appreciated.
    I believe my staff distributed to you some numbers, and I'd 
like to ask that they put up this chart.
    [The chart follows:]

   SOUTH OF DELTA CVP AG SERVICE CONTRACTORS--2013 WATER NEED & SUPPLY
 
Annual Minimum Water Need...............................      787,070 af
    (40 percent Allocation or Allocation Equivalent
     Supply)
 
Current Water Supplies:
    CVP Allocation (20 percent).........................      393,535 af
    Stanislaus River--Oakdale Irrigation District.......     * 35,000 af
                                                         ---------------
      Total.............................................      428,535 af
                                                         ===============
Current Unmet Minimum Need..............................      358,535 af
 
Potential Additional Water Sources:
    Groundwater Banking Supplies........................     * 20,000 af
    Transfers...........................................    * 166,000 af
    Rescheduled Water...................................      225,000 af
                                                         ---------------
      Total.............................................      411,000 af
------------------------------------------------------------------------
* estimated


    Senator Feinstein. We are going into the driest year in 
history in California. We've been there, done that in 2010. You 
know what the ramifications are on the economy, on 
unemployment. The allocation, I believe, is 20 percent now to 
farmers south-of-the-Delta.
    The issue is they can't plant with 20-percent allocation. 
It is my belief, after talking to literally hundreds of them, 
that you need at least 40 percent. This happened, as you'll 
recall, in 2010. I think we got it up to 45 percent so they 
could, in fact, plant.
    We took a look at the figures, and I want to compliment the 
bureau for being on the ball. I read your April 15 press 
release from the mid-Sacramento region, which spoke to a number 
of administrative changes you were contemplating, and that's 
very much appreciated.
    Let me quickly run through these figures, the annual 
minimum water need--now this is 40-percent allocation for 
farms--is 787,070 acre-feet. The current water supplies in the 
CVP allocation is 393,535 acre-feet. The Stanislaus River 
Oakdale Irrigation District is 35,000 acre-feet. That's an 
estimate. So the total is 428,535 acre-feet, and the unmet need 
just so they can plant and hire contractors and know that they 
can have a season is 358,535 acre-feet.
    It is my understanding that in groundwater banking 
supplies, there is an estimate of an additional 20,000 acre-
feet in water transfers. As you know, we've been very eager, 
and I backed legislation, which is now law for east-west, 
north-south transfers. The intertie is going into effect 
between the State water project and the Federal water project. 
Transfers of about 166,000 acre-feet and rescheduled water, 
which was water that's rescheduled from last year that hasn't 
been used, which some people I know believe it's due them, but 
nonetheless, it's new water and that's 225,000 acre-feet. Now 
that totals 411,000 acre-feet.
    So if these administrative changes were done and able to be 
done, it's my understanding that we could get up to 40 percent 
and perhaps 45 percent of the water allocation.
    Now this is for some 40,000 farms. This is a big deal. So 
could you respond to that?
    Mr. Connor. Yes, absolutely, Senator.
    I think, with respect to the current water supplies, 
between the allocation and the other actions that we're taking, 
those are the numbers that we know of at this point in time. I 
would point out a couple of aspects of that.
    First of all, this is kind of an all-hands-on-deck approach 
to trying to secure additional water supplies.
    Senator Feinstein. I understand.
    Mr. Connor. In doing so, particularly with respect to the 
groundwater banking supplies, transfers, and rescheduled water, 
we're working hand-in-hand with our contractors. They're 
providing the resources to secure transfers. They're working 
with us to do contracts to bring in water into the project. We 
can store it. We can deliver it through our facilities. We're 
using the State Water Project as a partner to also move some 
water that they've secured north-of-the-Delta through State 
facilities so that it can come south-of-the-Delta.
    So it's a great collaborative partnership based on 
necessity. We're continuing to try to improve upon that, 
because the situation is dire. As you noted, a 20-percent 
allocation is not enough to sustain the level of economic 
activity that's needed.
    We're taking these other actions that are necessary to get 
to a bare minimum. I think the 800,000 figure for a minimum 
water need is really bare economic sustainability. Even at that 
level, you're going to have significant fallowing. You're going 
to have significant loss of economic activity.
    So our goal is to continue these actions, to take some 
additional actions that we need. There are more opportunities 
for transfers above the 166,000 acre-feet this year.
    I was out in California yesterday, meeting with some of the 
general managers. If there's any good thing about the limited 
hydrology this year, it is that there's capacity now to move 
water through our facility, so we're going to try and build 
upon those actions.
    Senator Feinstein. Thank you very much. And I know you know 
the arena well, and I am so grateful for your work, because it 
could be just catastrophic without it, so thank you, thank you.
    I have more, but we'll do it the next round.
    The distinguished vice chairman.
    Senator Alexander. Thanks, Madam Chairman.
    Secretary Darcy, do you like to fish?
    Ms. Darcy. I haven't done much fishing, but the times I 
have, I've enjoyed it.
    Senator Alexander. Well, you know lots of Americans do like 
to fish. We have 900,000 Tennesseans who bought fishing 
licenses last year. I'm reading John Meacham's book about 
Thomas Jefferson. He had a passion for fishing.
    Do you know where they really like to fish?
    Ms. Darcy. I bet it might be Tennessee?
    Senator Alexander. No. Well, Tennessee's a good place.
    It's below the dams. According to Mr. Meacham, he said 
Thomas Jefferson loved to fish below the dam on the Rivanna 
River because that's where the fishing's best.
    So in Tennessee, Tennesseans like to fish below the 
Tennessee Valley Authority (TVA) dams on the Tennessee River 
and below the Alcoa dams on the Little Tennessee River. And 
they like to fish on the 10 Corps dams on the Cumberland River, 
but you've stopped them from fishing below the dams.
    You've done that despite the fact that Ed Carter, director 
of the Tennessee Wildlife Resources Agency, who is chief of 
boating for 19 years, appointed by the Secretary of Homeland 
Security on the National Boating Safety Board--he's our top 
boating safety person in Tennessee--says, ``If there's a lot of 
water pouring through the spill gates, we can understand the 
restrictions. Otherwise, our boating accident reports indicate 
anglers have a good safety record below dams. We don't see a 
rational reason to prevent them from fishing there.''
    Here's what your lawyer said--your former lawyer, Jerry 
Martin--he defended you after the national floods, won all the 
cases. He's President Obama's appointee as United States 
Attorney in the middle district of Tennessee. He said, ``These 
waters belong to the citizens.'' He retired last week.
    He said, ``In light of the tremendous protection from 
liability enjoyed by the Corps, I don't think it's reasonable 
of the Corps to ban everyone at all times from these public 
places.''
    If the waters are dangerous only 20 percent of the time on 
the Cumberland River, why are you restricting them 100 percent 
of the time when you've never done that before. TVA doesn't do 
it on the Tennessee River. Alcoa doesn't do it on its dams. 
That's like putting the railroad crossing down in front of the 
railroad track 100 percent of the time? The track's not 
dangerous if the train's not coming, and the water's not 
dangerous if the water's not spilling through the dams.
    Why don't you work with the affected States and come up 
with an alternate way to do that, as they've offered many, many 
times and you've refused to do?
    Ms. Darcy. Senator, we have met with your constituents, in 
both Kentucky and Tennessee, to discuss options about how to 
continue to be able to provide a safe place below the dam.
    Our policy has been that public safety is our number 1 
concern.
    Senator Alexander. But you haven't insisted on that for the 
last 17 years. You've never kept people from fishing below the 
dams on the Cumberland River, ever.
    Ms. Darcy. Not on the Cumberland River, that's correct.
    Senator Alexander. No.
    Ms. Darcy. But we've had several fatalities, more than 14 
fatalities in that area.
    Senator Alexander. But according to the people who are in 
charge of boating safety in Tennessee and Kentucky, they think 
the safety record there is no worse than the safety record 
above the dams. And they've offered to work with you to ensure 
even more efforts without restricting it 100 percent of the 
time.
    Ms. Darcy. Senator, we believe that the amount of water 
coming out of that dam is a hazard and is dangerous more than 
80 percent of the time. And that's why we're having the 24/7 
restriction.
    We're also accommodating some of the concerns by having 
signage and buoys put up at this time, seeing what effect that 
will have in order to provide for the public----
    Senator Alexander. Well, you're restricting for the first 
time on the Cumberland River these dams.
    You know, I've talked with you and everybody, all the way 
up the line on the Corps of Engineers. The United States Senate 
has passed a unanimous resolution telling you not to do it. We 
got 49 State Senators have introduced the Freedom to Fish Act 
to change it permanently.
    We've got bipartisan support, your own lawyer, former 
lawyer. The U.S. Attorney says you're being unreasonable. Both 
the State of Kentucky and Tennessee say you're being 
unreasonable.
    We don't need a big brother holding our hands while we're 
fishing down in Tennessee or Kentucky or any other place.
    And it's more than fishing. I mean, you're really thumbing 
your nose at the elected officials of the people of this 
country. We're article I. You're article II. You ought to be 
paying attention to our judgment on this, especially when so 
many Members of Congress of both sides of the aisle have made 
themselves clear on this, and when you have clear examples with 
TVA and Alcoa of safe ways to discourage people.
    I mean, we don't need a government that's big enough to 
interfere with us, when we have enough sense to get off the 
train track when the train's coming and to get out of the water 
the 80 percent of the time when it's not spilling through the 
dam.
    So here's what I'm going to do, and I regret having to do 
this, but I'm going to do this until I get the attention of the 
Corps of Engineers. If you're not going to pay attention to the 
elected representatives of the people of Tennessee and Kentucky 
and other States, I'm not going to pay attention to your 
judgment.
    You've got a large number of accounts in the Corps of 
Engineers. And often, you have to move money from one account 
to the other in order to do something that, in your judgment, 
you want to do. You've got 9 major accounts, 918 project 
accounts. And in order to move that, you need the permission of 
the chairman and me in order to do it.
    You're not going to get my permission. You're going to find 
it very hard to get my approval for any reprogramming requests 
for the Corps of Engineers anywhere in the country until I get 
the Corps' attention on this issue and some reasonable 
attitude.
    And if that doesn't get your attention, I'm going to work 
with my colleagues to reduce the programming requests down to 
$1,000, so any reprogramming you'd have to do over $1,000 would 
have to come back through me, through Senator Feinstein, and 
through the chairman and ranking member in the House.
    I regret having to do that, but I'm not going to allow the 
Corps to thumb its nose at the entire United States Senate on 
an issue that a lot of people in our State care about.
    General Bostick. Senator, I could follow up.
    Senator Feinstein. General.
    General Bostick. My commander made the decision. My 
district commander made the decision. I fully supported that, 
and that support was endorsed by Secretary Darcy.
    We have not had that enforced in that part of the country 
in the past, and we realized that when the Department of 
Defense (DOD) inspector general (IG) investigated and found 
that we were not adhering to our own policies.
    Complicating that is the number of deaths that occurred, 
deaths with folks that were wearing life vests that we cannot 
predict what is going to happen to them. We can't really 
predict when it's going to be dangerous. It's clearly going to 
be most dangerous when the water is flowing. But the main thing 
was it was a safety issue. We've had examples of deaths.
    We are not thumbing our nose at the Congress. Certainly, 
not to you, sir. And we will continue to work with the local 
community.
    There was going to be a cable that was going to be put 
across the water. We've made a decision to only put buoys and 
signs up and to try to work with the locals as best we can.
    They can fish from the banks, but I'm a fisherman, and I 
still understand the dangers inside that part of the----
    Senator Alexander. Well, Madam Chairman, I'll come back in 
the second round.
    They can also fall off the banks, General, and someone did. 
But I've made my point. I'll come back to it in the second 
round of questions.
    Senator Feinstein. Thank you very much.
    General, you're new to this. This is a very reasonable 
member, I think 99.9 percent of the time. My strong advice 
would be to try to work something out with him.
    So let me move on to Senator Landrieu.
    Senator Landrieu. Thank you, Madam Chair. And I really 
appreciate you and the ranking member and your advocacy to 
really try hard to find additional funding for the Corps. I 
think this budget is woefully underfunded.
    I know that you have restrictions about what you can 
testify to in that regard before this committee, so I'm going 
to ask the question in this way. You have $1.6 billion for new 
construction. What do you know are on your books now for new 
construction, either the backlog or the authorized for new 
construction for the country? What you have now, not with the 
new water bill that is authorizing yet additional projects.
    Ms. Darcy. Our current backlog is about $60 billion worth 
of projects.
    Senator Landrieu. So you have a backlog of $60 billion of 
construction waiting to happen, and you have $1.6 billion in 
this budget.
    Ms. Darcy. That's correct.
    Senator Landrieu. Do you have a rough estimate of what the 
new water bill, which is actually on the floor as we speak, 
will be authorizing in new construction? A rough estimate based 
on the mark that came out of the committee?
    Ms. Darcy. I don't know if it's----
    Senator Landrieu. Could you get that for this committee?
    Ms. Darcy. I know the WRDA 2007 was $23 billion. I'm not 
quite sure the number is in this bill.
    Senator Landrieu. WRDA 2007, the last bill was $23 billion.
    Ms. Darcy. Correct.
    Senator Landrieu. So we can assume that this 2014 bill will 
be at least that.
    Ms. Darcy. I would think so, because we have several 
Chief's Reports that would probably be included in the bill. 
The CBO score is----
    Senator Landrieu. What is it?
    Ms. Darcy [continued]. $12 billion.
    Senator Landrieu. $12 billion.
    So, Madam Chair, we are really in a struggle here. And of 
course, the chairman knows that and has been leading the effort 
to try to find a solution, which brings me to the strange 
situation that the administration is currently, knowing these 
figures, $1.6 in the bill, needing $60 plus potentially more, 
the administration is not supporting using the Harbor 
Maintenance Fund, which generates, I think--what is the number? 
$1.7 billion is collected annually, but this budget only 
provides $890 million from the Harbor Maintenance Fund, which 
is a 5-percent increase, which is better than 2013.
    What is the thinking here, with this budget being so short 
of what is necessary? In addition, the administration is still 
opposing the use of the taxes collected by the industry for the 
dredging to not be appropriated to this budget.
    Ms. Darcy. Senator, within the existing budget constraints, 
we feel that $890 million out of the Harbor Maintenance Trust 
Fund is the amount that is necessary under these circumstances.
    Senator Landrieu. Well, it's not necessary under the 
circumstances of the reality of life, which is that one-third 
of the time, the busiest 59 harbors in the United States--two-
thirds of the time, the busiest 59 harbors in the United States 
aren't even at their authorized dredge.
    And what's happening is, with increased trade and 
transportation coming in, larger ships, heavier ships, more 
cargo, because of the free trade and fair trade agenda that we 
bipartisanly support, our harbors and rivers just cannot take 
that increased capacity without increased investment.
    And this Administration has offered no solutions that I 
know of to solve this.
    And my third question in my last minute is: Are you 
familiar with the Modified Charleston Method, which is a method 
used to mitigate against the loss of wetlands?
    Colonel Fleming in our State has been working, thank God, 
in a wonderful way with our local delegations to try to modify 
this approach, so that the mitigation associated with essential 
levee and related flood control structures along existing 
established flood protection alignments should require minimal 
mitigation when the local sponsor can demonstrate their efforts 
can avoid or minimize negative environmental impacts.
    Are you aware of this effort? And will you be generally 
supportive of our efforts to build levees at a reasonable cost, 
which is actually saving property and wetlands as well?
    Ms. Darcy. Yes, Senator. And as a result of your 
questioning for us last year, Colonel Fleming of our New 
Orleans district has met not only with stakeholders but has 
reviewed what's called the Modified Charleston Method in 
reviewing our permitting and has gotten to a place where one of 
the modifications that we made has actually saved a number of 
acres required for mitigation because we've calculated the 
value of those acres differently.
    So that modification was a result of the consultation, and 
I think that's been a good outcome.
    Senator Landrieu. Good. And I will just add--I know my time 
is off--but, Madam Chair, we're doing everything we can to 
build levees in the most cost-effective way to protect, whether 
it's the Sacramento Valley or the gulf coast, whether it's 
Alabama, Mississippi, or Louisiana.
    If we can't build these levees in a cost-effective way, 
even the money that we are, you know, heroically trying to send 
your way cannot reach the need unless we work through some of 
these difficult issues. So thank you for that.
    Senator Feinstein. And I thank the Senator.
    Let me read the list. It is Senator Cochran, Murkowski, 
Shelby, Collins, and Hoeven.
    Senator Cochran.
    Senator Cochran. Madam Chairman, thank you. I'm pleased to 
join you and other members of the committee in welcoming our 
distinguished panel to review the budget request for the next 
fiscal year relating to matters under your jurisdiction.
    I don't know of any other bill that is taken up by Congress 
under the jurisdiction of the Appropriations Committee more 
important to the environmental infrastructure in our State than 
those coming from the subcommittee's recommended appropriations 
of this subcommittee.
    I wonder, in considering that and the importance of these 
activities, whether there are any specific projects that are 
currently under development as proposals for funding that 
affect the State of Mississippi.
    Do any of you have a list broken down with States or State 
jurisdictions that show where the Federal dollars are going to 
go in our State?
    Ms. Darcy. Senator, is your question about what is 
currently funded in the President's budget for Mississippi?
    Senator Cochran. For any purpose in this Energy and Water 
appropriations budget request.
    Ms. Darcy. In our budget book, we have a list by State of 
what projects are included in the President's budget. I can 
provide that to you, but those would be just Army Corps of 
Engineers projects.
    Senator Cochran. Well, my staff had indicated to me that 
there was a--they said there were none. And I thought, well, 
that's hard to believe. And I was just curious, is that right?
    Ms. Darcy. We have ongoing projects in the State of 
Mississippi for which we have budgeted operation and 
maintenance activities. I don't believe we have any new 
construction money in Mississippi.
    Senator Cochran. I think that's what I was referring to.
    Ms. Darcy. But there is no----
    Senator Cochran. Request for funding of any project.
    Ms. Darcy. A project specific----
    Senator Cochran. In the State of Mississippi.
    I was just curious. We couldn't find one. My staff tells me 
they couldn't find one.
    Ms. Darcy. I will have to check, Senator.
    As I said, in the budget book, it lists all of the funding 
that's being requested by State.
    Senator Cochran. One other concern that I have is that in 
reviewing the budget request, there is considerable attention 
being paid to the problems that hurricanes have caused to the 
Louisiana, Mississippi, Alabama, and maybe Texas, as well, the 
gulf coast area, that have been savaged during Hurricane 
Katrina that we can all remember, but in other hurricane 
seasons as well since then.
    I wonder if you've had an opportunity to review the status 
of those projects that have been approved and been funded to 
determine whether or not they are on schedule, behind schedule. 
Do you have any problems in complying with the funding requests 
that are being approved by Congress to direct activities to 
help defend against hurricanes in the future?
    Ms. Darcy. Senator, we have, as you know, various flood 
risk reduction projects and coastal storm damage reduction 
projects around the country.
    One example is what we have looked at as a result of 
Superstorm Sandy in the Northeast. We have some coastal storm 
damage reduction projects--in particular, on the coast of New 
Jersey and some in New York--that performed the way they were 
designed.
    In other words, a lot of damage was prevented because of 
those projects. And you could see it. General Bostick and I 
went up the day after the storm and saw the difference between 
those areas that had a Corps of Engineers coastal storm damage 
reduction project and those that did not.
    It's a very long beach coastline, and you could see the 
difference.
    So as a result of that, we're also doing an evaluation of 
what worked and what other kinds of projects we would want to 
have in the future, because I think Superstorm Sandy showed us, 
as well as Katrina, that these storms are going to be bigger 
and fiercer in the future.
    Senator Cochran. There was one indication of funding being 
requested in the Mississippi River and tributaries project that 
looks as though it might actually divert water from the 
Louisiana coastal area to the Mississippi Gulf Coast area.
    I'm not making any judgment on that. I'm not an engineer, 
and I can't look at a map or a technical report and make that 
judgment, and so I'm not making that judgment personally.
    But it has a lot of people in my State concerned that 
that's what one of the proposals in this budget request that's 
been submitted would, in fact, do. Could I get the assurance of 
the general or the secretary or someone that you'll look at the 
budget request and verify or deny that that is a project that 
is being seriously considered by the administration?
    Ms. Darcy. I'll commit to you to take a look at that, 
Senator.
    Senator Cochran. Thank you very much.
    Senator Feinstein. Thank you very much, Senator.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    And welcome to each of you this afternoon.
    General Bostick, I want to start with you, with a pretty 
local question here. And this relates to Fort Greely and an 
energy savings performance contract that was awarded out there 
in 2012.
    That installation, as you may recall, is currently powered 
off of an old fuel oil boiler.
    I was in Fort Greely and in Delta just a few days ago, and 
I learned for the first time that the Huntsville Engineer's 
center was talking about this energy savings performance 
contract with Siemens to look at a biomass plant. And there was 
a great deal of discussion amongst the community there as to 
whether or not biomass using local timber, blow-downs or 
harvesting, was preferable to a barley proposal.
    Let's just say there were plenty of arguments and 
discussion on both sides of it. But what I learned from that 
was that Huntsville has not gone out to visit the community on 
this. Apparently, they've been relying on Siemens and the local 
garrison public affairs staff for any community interaction.
    The community interaction has not been the best. I would 
like your commitment that the Corps will hold a public meeting 
in Delta Junction to explain where we are with this project, 
how the public can participate in it, and how it moves forward.
    It was just a little bit disconcerting to walk into a very 
small community next to this very important installation and 
realize that there was that much dissension amongst the 
community members as to what may or may not be happening with 
this energy project.
    So I would ask for your commitment to get involved with 
that and see what we can do to provide a level of comfort to 
the folks in the region.
    General Bostick. Senator, you do have my commitment on 
that. I would say that the biomass part of the project has not 
been awarded. And we're keenly aware that we need to be 
absolutely transparent with the local community.
    Huntsville, they're experts at this, as is the Alaska 
District, but we'll work together with the entire team to make 
sure the Federal, the local, and the State are all involved.
    Senator Murkowski. And I understand that the reason it 
hasn't been awarded is because there is some open-endedness 
about what that feedstock might be, but therein lies the rub 
with the community. So the more transparent I think you can be 
with the local people there, the better. And I would appreciate 
that, so thank you for that.
    And I also appreciate your trip up to Fairbanks. The people 
of the community really appreciated your presence there at the 
military appreciation event, so thank you.
    Secretary Darcy, I want to ask you about what we're seeing 
up in the Arctic right now; clearly an area that is under a lot 
of attention and a lot of focus, rightfully so.
    We've got circumpolar maritime shipping. We've got resource 
development activity. We have just engagement in the Arctic. 
But our infrastructure and emergency response is pretty 
inadequate.
    The Army Corps has partnered with the State of Alaska to 
plan for ports within the Arctic region, which is a good thing. 
The group has suggested that private industry will most likely 
drive the development of Arctic infrastructure.
    So the question to you is whether or not the Corps is 
prepared and, probably more importantly, actually able to work 
with private industries to develop these Arctic ports or 
whether or not we need new legislative authorities to take us 
in this direction.
    Ms. Darcy. Senator, I think we're positioned to be able to 
do that with local partners and the private sector.
    Senator Murkowski. Okay. Well, that's something that we 
definitely want to work with you on.
    And another area that we have been working on, I think 
we've all shared our frustration about where we are with the 
earmark moratorium and our inability to fund projects that 
don't have a high enough cost-benefit ratio. And in Alaska, 
that is our story time after time after time again.
    You've got a small village of, say, a couple thousand 
people, at best. You're never going to stack up against the 
Port of Long Beach or wherever.
    And so what we've done, working with you on the small, 
remote, and subsistence projects, has been very important. 
We've begun the funding on that, but I guess I'd ask how you 
feel this is benefiting the civil works program, not only 
within the State, but around the country with our small, 
remote, and subsistence projects.
    Ms. Darcy. As you know, the small and remote subsistence 
harbors, as you say don't compete well for the limited funding. 
But as far as small projects that don't have the highest 
benefit-to-cost ratios, I think going forward we're going to be 
able to look at more than just the benefit-to-cost ratio when 
making budget determinations and supporting projects.
    The Principles and Guidelines that we follow in order to 
make the determination of what's in the best national interest 
for funding a project are being revised. And in the past, we 
have always had to look at the national economic development 
benefit as being a driving force.
    That will now be one of several other considerations, 
including the impact to the local community and other things. 
So we're going to be able to have a broader range of 
considerations in making those decisions in the future.
    Senator Murkowski. Which I think is hugely important, 
because if you're a small village, coastal community, your 
economy is dependent on the water, and you need that small 
port.
    So I appreciate you working with us.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator Murkowski.
    Senator Shelby.
    Senator Shelby. Thank you, Madam Chairman.
    Madam Chairman, thank you for making my opening statement 
part of the record.
    Last year, the U.S. Army Corps of Engineers Institute for 
Water Resources released a report on how Congress should 
address the need for additional port and inland waterway 
modernization to accommodate post-Panamax vessels. I'm sure 
you're familiar with this.
    The report found, among other things, that while ports on 
the east and west coasts will be able to accommodate expanded 
container vessels that will be transiting, there is a lack of 
post-Panamax capacity at ports in the South.
    Do you agree, Secretary Darcy, with the report's assessment 
that the need for expansion is most critical in the Southeast 
and along the gulf coast?
    Ms. Darcy. Yes, Senator. That's the report we prepared in 
response to your and Senator Graham's amendment.
    Senator Shelby. What steps are you taking to meet the new 
demands that have been recommended? And is there existing room 
within the Corps budget to meet ongoing needs and future port 
expansions and dredging and so forth in the coming years? Or do 
you need more money? What are you going to need?
    Ms. Darcy. In looking at the needs, there always seem to be 
more needs than there is funding. However, what we're doing 
currently is looking at the port expansions. We have an ongoing 
study looking at deepening the Port of Charleston.
    We currently have a Chief's Report here before the Congress 
that recommends deepening the Port of Savannah. One's an 
ongoing study. The other is ready to go. We just need the 
authorization.
    Senator Shelby. One down near Mobile?
    Ms. Darcy. We don't have that one yet.
    Senator Shelby. You don't? Why not?
    Ms. Darcy. We haven't had authorization to do that 
deepening study for Mobile.
    Senator Shelby. You've had authorization to do that. Hasn't 
Mobile been authorized to go from 45 to 55 feet by law already?
    Ms. Darcy. I believe that's correct, Senator.
    Senator Shelby. Okay. So what do we need to move the barge 
down the water?
    Ms. Darcy. Well, we clearly, as you state, have a need in 
order to remain competitive with the post-Panamax vessels, in 
order to accommodate them on the east coast as well as the west 
coast and the Northeast. There's the Port of New York and New 
Jersey which will be at 50 feet at the end of 2015. And 
currently, Baltimore and Norfolk can accommodate ships that 
deep as well, at the 50-foot level.
    Senator Shelby. Would you think a port that had a 55-foot 
channel located on the gulf coast, would probably attract a lot 
of vessels?
    Ms. Darcy. I expect it would, Senator.
    Senator Shelby. Okay, thank you.
    Senator Feinstein. Thank you, Senator Shelby.
    Senator Collins.
    Senator Collins. Thank you, Madam Chairman.
    Secretary Darcy, I think you can see from the conversations 
that we're having and the questions that you're getting that 
there is a great need around our country when it comes to 
dredging and maintenance of our ports and harbors.
    I will point out to my colleagues that in eastern Maine, in 
Eastport, we have a harbor that already could accommodate the 
Panamax vessels, because it is naturally so deep, but it would 
require some infrastructure improvements. We'd welcome help 
with that, of course, as well.
    But I think that the reason that you hear a lot of concern 
is that ports and harbors are the economic lifeblood for many 
of our smaller communities. And funding for maintenance 
dredging is absolutely critically important to supporting the 
economies of these communities. And that fact is not completely 
accounted for under the Army Corps budget metrics, which tends 
to favor the larger ports.
    I do appreciate the fact that there is money in the 
President's budget for some important projects in Maine. But I 
would like to highlight the $30 million for operations and 
maintenance projects at small, remote, or subsistence 
navigation harbors and waterways that the committee has 
included in recent years.
    What funding is proposed under the fiscal year 2014 budget 
request to meet the dredging and maintenance needs of our 
Nation's smaller ports and harbors? And how do you respond to 
the argument that the formula used, the metrics used by the 
Corps, puts these smaller ports and harbors at a disadvantage?
    Ms. Darcy. Senator, I believe for the low-use subsistence 
harbors, it is $34 million in the 2014 request. I'm going to 
ask staff. It was $34 million 2 years ago and $43 million in 
the budget request for this year, for the low-use harbors.
    And in response to the overall way that we make 
determinations in prioritizing the funding, one Senator 
mentioned earlier that 59 of our commercial high-use harbors 
get the majority not only of the commerce--90 percent of the 
commerce pass through those 59 harbors--but they get the 
majority of the funding, because they're the highest commercial 
use harbors.
    Senator Collins. But, you know, those smaller ports and 
harbors are as critical to the communities in which they're 
located as the big harbors are to the large communities that 
benefit from them, in terms of economic activity.
    In March, Senator King and I wrote to you about a specific 
project in Maine involving the Royal River in Yarmouth, Maine. 
And you responded in a letter dated April 4, and you agreed 
that the shoaling that is happening is adversely affecting the 
commercial and recreational boating activities.
    Well, the impact goes beyond just the marina, which is very 
adversely affected. It affects all the related businesses along 
the river. And it's a perfect example, from the loss of the 
business at the local marina to the commercial fisherman unable 
to head to sea, and there's also a significant safety issue, 
it's a perfect example of a small town that is very much 
affected if the dredging and the maintenance is not done.
    I want to raise the issue of cost-sharing, because this 
community has offered to pay for part of the cost, recognizing 
the pressures on the Army Corps budget. Are you open to cost-
sharing arrangements with communities that desperately need to 
have maintenance dredging, in recognition of the budget 
difficulties that the Corps faces?
    Ms. Darcy. Senator, we are open to a local community or a 
local sponsor contributing funds of their own for such 
maintenance.
    Senator Collins. I hope you will work with me on this 
issue, because this is so important to the community that they 
are willing to pay part of the cost. And it seems to me that 
that ought to move them up on the priority list, since they're 
willing to bear part of the cost of the dredging.
    I know my time has expired. I would ask, Madam Chairman, 
that I be able to submit for the record some additional 
important questions that are relevant to harbors in my State.
    Senator Feinstein. Of course. And the record will remain 
open for that.
    Senator Collins. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman. And I'd like to 
thank you and our ranking member for having this hearing.
    I'm also going to actually start out by thanking the Corps 
of Engineers, Secretary Darcy, General Bostick, and also 
General Walsh, who is right behind you, for the work that all 
of you did on behalf of the Fargo-Moorhead Red River Valley 
Region of North Dakota and Minnesota. Once again, we've had 
flooding there. That makes 4 out of the last 5 years.
    You have been deeply involved, not only in the annual flood 
fight, but in the permanent flood protection. We thank you for 
that very much.
    That project is part of the WRDA bill, which I believe will 
move forward. And so I guess what I would like to just start 
out with, General Bostick, is just asking for your continued 
help on that project.
    This is a case where 55 percent of the costs will be borne 
locally. So actually, the Federal Government goes from 75 to 90 
percent of the costs in the annual flood fight, to the 
permanent project where it's only 45 percent. And we have 
permanent protection, instead of fighting that perennial flood.
    I just would like an update from you in terms of your 
understanding of the project, your willingness to continue to 
help and support. And of course, I'd like to invite you to come 
out and see us, too.
    General Bostick. Senator, I do understand the importance of 
the project. And we are committed to keeping that as one of the 
key projects that we continue to look at to make sure that, as 
we go through the budgeting process, that it gets a fair 
review.
    I know the troops that are up there doing the flood 
fighting have worked hard over the last four floods that have 
occurred. And we've kept a close eye on them and provided the 
kind of support that we can from here, and visited them when we 
could.
    Senator Hoeven. Yes. It's absolutely our number 1 project. 
It's two States, North Dakota and Minnesota. Your help has been 
very much appreciated. Your continued help is really needed.
    General Bostick. We will do that.
    Senator Hoeven. Secretary, I'm going to bring up the 
subject you probably can guess, because you and I have talked 
about it many times. And I'm going to start with a question. If 
the State of North Dakota or South Dakota or Nebraska or Kansas 
or Missouri were to draw water out of the Missouri River, would 
you charge them for that? If they were to draw water out of the 
Missouri River, or would you say they're entitled to that 
water?
    Ms. Darcy. That is a determination made by the States. It's 
a State water rights issue.
    Senator Hoeven. So the States have water rights. They're 
entitled to water from those rivers, you would say?
    Ms. Darcy. Yes, sir.
    Senator Hoeven. But if a State gives up land so that you 
could flood that land in order to protect other States 
downstream, and then they were to draw some of their water out 
of that reservoir, you then would say they should be charged 
for that? That's fair and appropriate, in your opinion?
    Ms. Darcy. Under the two statutes, both the Flood Control 
Act of 1944 and the Water Control Act of 1958, the Corps of 
Engineers is required to charge a reasonable price for water at 
its projects.
    Senator Hoeven. So they've been shirking their 
responsibility for over 60 years? Is that what you're saying? 
So the Corps has been not following the law for 60 years, is 
that what you're saying?
    Ms. Darcy. No, sir. There are two different statutes. One 
provides water supply storage. The other is for surplus 
storage. Under the surplus storage, we have not been charging.
    Senator Hoeven. So it gets to pick and choose which law it 
follows?
    Ms. Darcy. I wouldn't put it that way. I believe that we 
are bound by the law to charge a reasonable price.
    Senator Hoeven. My next question is, so if you continue a 
study and, for any reason, at the end of the study, decide to 
charge all of these States for water, hopefully, you'll come to 
the right conclusion, which is to not charge them. But if you 
should, you understand that there will be litigation, because 
that's been promised by States up and down the river.
    So I'm wondering, do you have a line item in your budget to 
cover the costs of that litigation from the States?
    Ms. Darcy. No, Senator, we do not. What's currently being 
developed within the Army Corps of Engineers is a proposal to 
go out for a public rulemaking on what the reasonable costs 
should be for surplus water storage contracts.
    Senator Hoeven. I want to submit to you that the Corps 
cannot pick and choose which laws it follows. And if you 
charge, that would be indicating that for more 60 years, you 
have not followed the law, that you will encounter litigation 
if you decide to charge.
    And I would certainly encourage you in this study to make 
the right determination, which is that, in fact, these States 
are entitled to water, which you've just acknowledged if they 
draw it out of the river. And to punish them for providing land 
to protect downstream interests from flooding is not a reason 
to charge them for water.
    You can respond if you'd like. I mean, I'm trying to 
encourage a certain outcome here.
    Ms. Darcy. Hopefully, our rulemaking will give an outcome 
that is acceptable to all.
    Senator Hoeven. And I will say, too, we have strong 
disagreement--or we potentially have strong disagreement here. 
Hopefully, not. You have been helpful to us on many issues. And 
I hope this will be another one. And I thank you for all the 
times you have been helpful.
    Senator Feinstein. Thanks, Senator. Thank you very much.
    Senator Tester.
    Senator Tester. Well, thank you, Madam Chair.
    I wasn't even going to talk about this stuff, but Senator 
Hoeven, you got it going. If this is an issue of following the 
law or not following the law, you have not been in this 
position but the last 4 years, correct?
    Ms. Darcy. Not quite 4.
    Senator Tester. Not quite 4 years. And so maybe we ought to 
change the law, if that's it. If it's a rule, you can change 
the rule. But maybe we ought to just change the law, if that's 
the case, because I agree with Senator Hoeven. You can't pick 
and choose on which laws to follow.
    But you haven't been the one in this position for the last 
60 years.
    Ms. Darcy. No.
    Senator Tester. Commissioner Connor, how are you doing?
    Mr. Connor. Very good, sir.
    Senator Tester. Good. It's good to have all of you here, by 
the way.
    We're going to talk rural water projects, as we always do. 
And I appreciate the work that you've done, and the rest of the 
folks on the panel.
    Look, the rural water projects in the budget, that was cut 
40 percent. One of the projects is done. And I assume that you 
dropped the money off for that project. And I don't know if 
that was the entire 40 percent, but certainly a part of it.
    My question is, I mean, we are so badly funded, deficient 
in those areas. Why can't you keep the money in there, is the 
question?
    Mr. Connor. The answer, and I'm not quite sure how good the 
answer will be from your perspective, but it starts with, of 
course, the intense competition for very limited resources.
    The example I would give is that our net budget authority 
in the 2014 budget is about $995 million, the same as it was in 
2013, the same as it was in the Omnibus Appropriations bill in 
2012. So we've been holding steady at that level, which in this 
budget climate is not a bad place to be.
    But the way we do our budget is that, as I kind of laid out 
in my opening statement, we take care of the basic 
infrastructure, our operational requirements. That's priority 
one. Then we have legal obligations.
    So we've got big increases in that area of legal 
obligations, Indian water rights settlements. We have a 
drainage case where we're under a court order. And we've got 
the San Joaquin River Restoration program. Those settlements, 
court orders, legal obligations are about a $65 million 
increase over what they were in the 2013 budget. And so, in a 
budget that holds steady, we had to, unfortunately, make some 
decisions on those things that are very good projects, 
extremely necessary, incredibly important to those communities, 
but, unfortunately, there's just not enough resources. And so 
that's the basis for the reduction of funding.
    Senator Tester. Yes, I mean, I appreciate that. I do 
appreciate that. The two projects in Montana are Indian water 
settlement. So the obligations you talk about are here.
    Here's the problem, and my staff gave me the correct 
numbers. We're in a $360-some million project. We're getting 
about $5.4 million. And we're going to be at this thing after 
my grandkids are older than me, if that's the case.
    And so if you can help us to figure out how we can get by 
this, I would certainly appreciate it, because these projects, 
we'll never see them done. I've been working on these since 
1998, so we're looking at 15 years. And in some cases, we're 
making progress, but we've got to have money to continue.
    Mr. Connor. Yes, sir.
    Senator Tester. So, thank you. And thank you for your work.
    Secretary Darcy, you're working on rehabilitating 
irrigation at intake for pallid sturgeon. We've visited in the 
past on this issue. There are two issues, delivering water to 
irrigators and making sure the pallid sturgeon are adequately 
recovered on the river.
    What's the process you've used to engage the local 
stakeholders, as the project moves forward?
    Ms. Darcy. At intake?
    Senator Tester. Yes.
    Ms. Darcy. We have engaged with local stakeholders. We've 
also consulted with the Bureau of Reclamation, as well as the 
U.S. Fish and Wildlife Service, in order to find a way forward 
on the intake structure there and to build the right kind of 
facility. We've gone back and forth whether it should be a 
ramp, or something else--but now we have an agreement with the 
U.S. Fish and Wildlife Service. We also have a pending 
memorandum of understanding (MOU) with the Bureau of 
Reclamation on that project. We've provided $20 million in the 
President's budget for that intake.
    Senator Tester. Okay. So the bypass channel has been 
settled?
    Ms. Darcy. Yes.
    Senator Tester. You know what you're going to do?
    Ms. Darcy. Yes.
    Senator Tester. Okay, good. All right, let me talk a little 
bit about flood insurance and accreditation and all that good 
stuff with Army Corps versus FEMA. And we want to try to get 
the regs harmonized so that groups aren't ping-ponged.
    There's a taskforce that released its final report in 
July--well, it's due to be released.
    Ms. Darcy. Correct.
    Senator Tester. Some of the language that we've got from 
that I was a little unclear about. It talks about narrowing the 
gaps for communities and accreditation being sought. It talks 
about reducing the costs for the owners and operators.
    I thought the intent was to close the gaps and eliminate 
the costs.
    Ms. Darcy. I think the intent is to close the gaps. I'm not 
sure about totally eliminating the costs. What the MAP-21 
language did was direct us to establish the task force and do 
this cooperative study with FEMA. We are trying to harmonize 
our programs in a way that the data that's collected by the 
Corps of Engineers can be used by FEMA and the local sponsor, 
in order to help them get their accreditation.
    We're trying to make sure that what we're collecting fits 
for both purposes.
    Senator Tester. We'll be watching. And thank you very much.
    I just want to say one thing in closing, Madam Chair. 
Senator Murkowski talked about an earmark ban that we have been 
dealing with. And I've got to tell you, it's a proven fact; it 
doesn't save one doggone nickel. And if folks from the 
Republican side of the aisle would work with folks on our side 
of the aisle, I think we could make this place functional 
again, quite frankly, through the appropriations process.
    So, Senator Alexander, if you want to pass that along to 
your troops, I'd certainly love to work with them on it.
    Thank you very, very much, Madam Chair, Ranking Member.
    Senator Feinstein. Thanks, Senator Tester. I appreciate 
that. What it, in essence, means is that the legislative powers 
of the Senate are very much curtailed.
    Senator Tester. We've granted them to the Obama 
administration.
    Senator Feinstein. It's all the President. So if you have a 
President that doesn't like a certain State, for any reason, 
that budget could be tailored to that goal. The Congress would 
have no opportunity to do anything about it. And now I 
understand it even affects certain authorizations. So I very 
much agree with you.
    Senator Tester. Thank you.
    Senator Feinstein. Thank you.
    All right, Commissioner Connor, let's go to the next 
subject here. In 2004, the CALFED legislation that I authored 
required the Bureau to do feasibility studies on expanding 
cost-benefit of expanding four reservoirs: Shasta, Sites, Los 
Vaqueros, and Temperance Flat.
    The BDCP, along with the collapse of delta fisheries in 
2006, required the studies to be revised, I understand. 
However, it has been almost 10 years since their authorization.
    If the State is going to do a storage bond, it will be 
2014. We will miss it entirely. As I understand from the 
information that I have, the Shasta study, the draft 
feasibility has been completed. The final is 2015 to 2016. 
Sites, the draft has not yet been released. The final is 2016. 
Los Vaqueros not yet released, although that's a separate 
thing, because they'll do it themselves. For Temperance Flat, 
we're supposed to get the draft in the fall and the final in 
2015.
    The question I have is: Can't you put out something that 
can give the State some idea of net new water as well as cost 
per acre-foot of that net new water, so some decision can be 
made as to what the most feasible raise would be to create more 
water?
    Mr. Connor. Yes, Senator, we can. We are working towards 
that goal, knowing the urgency of the situation. It is 
absolutely true, as you stated, that we got high centered on 
these studies when we had the new regulatory requirements and 
biological opinions. And that definitely resulted in a 
substantial delay. At your urging and following up on that, 
we've now figured out we're going to make certain assumptions 
about our operational criteria.
    We've moved forward, so we've got the draft feasibility 
report for Shasta Dam raise. It's now out on the street. We 
anticipate expediting that. So, I would just say, our goal now 
with Shasta is to finish the Environmental Impact Statement 
(EIS) and the feasibility report by the fall of 2014.
    Senator Feinstein. Well, they'd have to put the bond on the 
ballot. The State bond, although it's a Federal dam, if there's 
a State share, it would have to be taken care of by bond in 
2014, which means we have to have that this year.
    Mr. Connor. Right. With respect to Shasta, we've got that 
data now in the draft feasibility report. It will be part of 
the draft EIS that's released this fall. So you'll see the cost 
figures, dollars per acre-foot. I think some assessment will be 
made based on that very detailed information, even though it 
won't be final.
    Senator Feinstein. Thank you.
    Now Sites, it's my understanding that Sites may be the most 
water productive but may cost the most. Is that correct?
    Mr. Connor. I think I'll have to get back with respect to 
whether it's the significant cost. I don't know that off the 
top of my head.
    Senator Feinstein. You see, we have to know that sometime 
this year for all of these. Well, there are only three. So that 
if there is a chance to put a storage measure on the California 
ballot, it would be 2014, either the primary or the general, 
probably the general.
    Mr. Connor. And so with respect to the--I agree with you. 
Los Vaqueros, we're going to set aside, because that's going to 
be done. They're looking for partners to do that.
    Senator Feinstein. Right, they're going to do that 
themselves.
    Mr. Connor. So with Upper San Joaquin, I think we will have 
a draft feasibility study. Once again, that will provide 
information. It won't be in final form, but it will be a pretty 
rigorous analysis that will provide the dollar figures per 
acre-foot. The assessment of the feasibility of that project 
will be out this fall.
    So that's two. The third, Sites, as you mentioned, there's 
great interest in Sites. That's probably the one that we 
control the least, with respect to the future of the timeframes 
for the feasibility study and the EIS, EIR.
    We're right now projected to get a draft of that 
feasibility study done this fall. But this is one where we've 
partnered up with the State, and we're awaiting some 
engineering work and information from the State and the joint 
powers group. So we're trying to maintain that schedule.
    Senator Feinstein. Would you be willing to push it, please?
    Mr. Connor. Absolutely.
    Senator Feinstein. Okay. Is this about right: Sites costs 
$3.3 to $3.9, Shasta $1.1, Temperance $2.6 to $3.26.
    Mr. Connor. Those sound very familiar, yes. I'll have to 
verify that for the record.
    [The information follows:]

    Shasta, $1.1 billion; Sites Reservoir, $3.4-3.9 billion; Temperance 
Flat, $2.3 billion.

    Senator Feinstein. Well, then we just need the water 
figures, the net new yield that can be saved.
    Mr. Connor. That will be in all the draft reports.
    Senator Feinstein. Because I'm absolutely convinced that 
we're going to be a desert State unless we can hold water from 
the wet years. 2010 was a classic example, terrible dry year. 
And then we had a really wet year, and we had to waste it all.
    Mr. Connor. Yes, absolutely. We're also looking at other 
options, such as what can we do at San Luis Reservoir south-of-
the-Delta. Is there any capacity there for a cost effective 
raise on that facility? So we're looking at----
    Senator Feinstein. My plea is, get something to us this 
year. It's just May. You work very fast. And I know you can do 
it.
    Mr. Connor. Yes.
    Senator Feinstein. Okay.
    Now let me go on to smelt and salmon biological opinions. 
As I understand it, the current biological opinions were thrown 
out by Judge Wanger. That's a Federal district court judge. 
They were found to be inadequate. They were found to have 
faulty science. Yet, they are still enforced.
    So decisions are still being made on biological opinions. 
It's my understanding that a new opinion for smelt is due on 
December 1, 2014, and the final National Oceanic and 
Atmospheric Administration (NOAA) fisheries opinion for salmon 
on February 1, 2017.
    This means that that whole project is going to function on 
faulty biological opinions up to 2017.
    Mr. Connor. Senator, you are correct that there are certain 
aspects of both biological opinions that need to be done 
pursuant to the existing court order. At the same time, Judge 
O'Neill just recently made a decision with respect to the 
request for an extension schedule. He made clear that until we 
have new bi-ops, those bi-ops control operations.
    I can tell you that this is an extremely water short year, 
as you noted at the outset, that we are in the worst January 
through April time period on record, and we're at a 20-percent 
allocation south-of-the-Delta. But the difference going on this 
year is we are not in the courtroom right now. We are not in 
the courtroom, because we have worked very closely with the 
State and the State was formerly opposing us. We jointly 
requested the extension with the State. It was not opposed by 
the water user community, based on the fact that we are setting 
up a collaborative science and adaptive management program with 
the contractors, with the nongovernmental organization (NGO) 
community, and of course with our partners at the State, to 
really more vigorously apply an adaptive management program and 
see how we can better operate the system, protect the fish, and 
quite frankly, see if we can do it at less water costs to the 
projects.
    Senator Feinstein. Yes. But the political situation we're 
going to be in is there are going to be two House bills 
introduced, probably this week sometime, that are going to say 
the ESA is satisfied, regardless, because these are faulty 
opinions.
    Then that will come over here. Then we're going to have a 
battle royal.
    I think this is a real problem. I think the department, 
Madam Secretary, has to deal with it.
    Mr. Connor. Can I make two points?
    Senator Feinstein. You can't let faulty science dominate 
until 2017. I mean, Wanger threw out the first opinion how long 
ago? Two years ago?
    Mr. Connor. Two years ago.
    Senator Feinstein. And we still don't have a replacement.
    Mr. Connor. If I could make two points?
    First, with respect to the low allocation this year, we are 
at a 20-percent allocation south-of-the-Delta. Quite frankly, 
if those biological opinions were not in place and we were only 
operating to the State water quality permit, the D-1641 permit, 
we would still only be at a 30 to a maximum of a 35-percent 
allocation south-of-the-Delta. We would not be at 40 percent, 
much less anywhere above that.
    Senator Feinstein. Well, you're not at 40 percent.
    Mr. Connor. No, and we would not get to it if those 
biological opinions----
    Senator Feinstein. Why? Because you couldn't do what we put 
up here?
    Mr. Connor. No, because you've got no water in the system, 
because of the very low hydrology. At that point in time, you 
still have to operate to the State water quality permit 
conditions so we'd still be limited on pumping because of the 
lack of water. We'd only be in the 30- to 35-percent range.
    So my point is just that that's how dry it is. It's not all 
a function of the Endangered Species Act.
    My second point is: We are trying, through this 
collaborative science and adaptive management program--and now 
that we've got a partnership with the State and the water 
community, as well as the other interested parties--to make the 
ESA work as effectively as possible, and take care of the 
issues that we have.
    Senator Feinstein. I appreciate that. I think you are, and 
I appreciate that, too.
    It's just that we all know what's going to happen. Unless 
we're able to give farmers at least the amount of water that 
they need to break even, you know, it's a huge economic 
problem.
    Mr. Connor. Yes.
    Senator Feinstein. I mean, this is the largest agriculture 
State in the union.
    Okay, let me quickly turn to the San Joaquin River 
restoration, and you've been great. You've worked with 
everybody. This, again, is an 18-year litigation, which the 
government lost, and an effort to restore and maintain fish 
populations in good condition on the river.
    The bureau has requested $26 million in fiscal year 2014, 
which I thank you for. The question is: Which projects will be 
the focus for spending the $26 million in fiscal year 2014?
    Mr. Connor. The focus, we're going to continue, as far as 
infrastructure projects, we're going to continue to focus 
efforts on the Arroyo Canal Fish Screen Project and Sack Dam 
Fish Passage Project. That's the highest infrastructure 
priority that we have right now.
    And one aspect of the program is we have to deal with the 
channel and prepare it for fish passage through the system. 
That's one aspect of the program.
    Beyond that, we're also going to continue to do the seepage 
management work that we need to do, the monitoring effort and 
the small infrastructure projects to ensure that with those 
flows going down the river, that we don't damage adjacent 
farmland. So that's another aspect of the program.
    We're still working on fish reintroduction, doing the set 
up for that. We do not have the permit right now to do actual 
reintroduction, so we're still doing set up work.
    And then the last aspect of the program, another big 
infrastructure priority, is the Friant Canal, the Madera Canal, 
re-establishing capacity in those canals, because water 
management and restoring water supply to the Friant districts 
was one aspect of the program.
    Senator Feinstein. Can that all be done with this amount of 
money?
    Mr. Connor. It can. We actually have $28 million in the 
budget request. We still have some of the mandatory funds that 
you made available when you first enacted the legislation. We 
have State cost-share of about $25 million. All totaled, I 
think we have about $75 million available for the program this 
year.
    Quite frankly, that is below what our projected work plan 
was set at. I think, going into this year, we had looked at 
about $85 million, so this is the first year since enactment 
that we are not at the full funding level. The reality is the 
Arroyo Canal project and Sack Dam project are falling a little 
bit behind schedule because of subsidence issues that we're 
working on.
    Senator Feinstein. Well, let me ask you this, can you stay 
on schedule for this year, 2014, to meet the milestones for 
high-priority projects?
    Mr. Connor. This year, we might be able to, but I think if 
we're at similar funding levels, we'll start to fall behind. 
We'll have to work with our partners to readjust the schedule, 
quite frankly, but this year, we're close. I should probably 
get a little more detail and specifically let you know for the 
record.
    Senator Feinstein. Thank you. Thank you for everything 
you've done and everything the department has done to help with 
this. I cannot tell you how much I appreciate the 
administrative action.
    I mean, I would really say this is an emergency situation. 
We just have to do it and do it quickly. So thank you very 
much.
    Mr. Connor. Thank you.
    Senator Feinstein. Senator.
    Senator Alexander. Thanks, Madam Chairman.
    General Bostick and Secretary Darcy, Chairman Feinstein 
said that 99.5 percent of the time, I'm a reasonable person and 
I like to work things out. And I do and I am. So let me see if 
I can here.
    To go back to the issue we were talking about, the Corps 
policy is to restrict access to hazardous waters to ensure 
public safety. Right?
    Ms. Darcy. Yes.
    Senator Alexander. Which one of you decides how to do that? 
Who implements that?
    General Bostick. At the local level, the decisions on how 
to implement----
    Senator Feinstein. Could you speak up, please, General?
    General Bostick. At the local level, they make the 
decisions on how to implement the regulations.
    Senator Alexander. So Colonel DeLapp all by himself can do 
this?
    General Bostick. Well, in some situations, it's not as 
dangerous, and folks don't fish for a variety of reasons.
    Senator Alexander. No, I'm not interested in that.
    Who's on the flagpole here? I mean, you're a military man. 
There's an order here. Who makes the decision about whether 
you're meeting the definition of restricting access to 
hazardous waters to ensure public safety? Is it Colonel DeLapp?
    General Bostick. At the local level, he would know best on 
whether he is doing that properly or not, because of this 
issue----
    Senator Alexander. That's not--so he doesn't report to you?
    General Bostick. He does.
    Senator Alexander. He does, all right. So it's your 
responsibility?
    General Bostick. It is my responsibility.
    Senator Alexander. Okay, it's yours. I'm going to be 
talking to you, then.
    I think we have here not a water problem, but a lifejacket 
problem. Since 1989, Tennessee, and 6 of the 10 dams are in 
Tennessee that we're talking about on the Cumberland River. It 
has required boaters to wear lifejackets below the dams. There 
have been 14 deaths since 1970. Now, there have been plenty of 
deaths above the dams too. People fall out of boats. People 
have boating accidents. We do our best to prevent that.
    Fourteen deaths below the dams. Nine were from boats, five 
were from bank fisherman who fell in the water.
    Of the nine from boats, five were not wearing lifejackets, 
which they're required to do. The remaining three were wearing 
lifejackets but didn't use them properly. One was wearing an 
inflatable lifejacket that wasn't inflated. One was wearing a 
lifejacket that wasn't properly fastened. And one, the 
lifejacket came off for unknown reasons.
    So in all of the boating cases, if the lifejacket had been 
inflated and properly worn, there wouldn't have been any 
deaths. Now why is it a reasonable plan to say that our policy 
to try to restrict access to hazardous waters would be to say, 
during the 20 percent of the time when the water is actually 
going through the gates, everybody is out of there? During the 
rest of the time, whether you're on the bank or in the boat, 
you have to wear an automatically inflatable lifejacket? And 
three, since both the States of Kentucky and Tennessee have 
offered to use their resources to help you enforce that, 
wouldn't the combination of those factors do a better job of 
restricting access, or at least an adequate job of restricting 
access to hazardous waters?
    General Bostick. Senator, I'd say that lifejackets is 
clearly an issue. We have many that don't wear lifejackets, 
many that don't wear them properly or they may have an 
inflation issue. The information that I've received from the 
command is that for the deaths that occurred, all of them were 
wearing lifejackets.
    Senator Alexander. No, I just went through exactly what 
happened.
    General Bostick. And I'm not questioning that. I'm saying, 
as we made our decisions at our level to support this----
    Senator Alexander. Well, then you made an inaccurate 
decision, because five of the eight were not wearing 
lifejackets, which they're required to do. And the other three 
cases, the lifejackets were either not fastened, not inflated, 
or came off for an unknown reason.
    So if Colonel DeLapp made a decision based on what you just 
told me, he made it on--an inaccurate decision.
    General Bostick. It wasn't only on that particular fact. I 
mean, certainly, there were deaths. There have been some near 
deaths. I think we all know it's a dangerous part of the river 
downstream from the dams.
    It was a combination of factors, plus the fact that we have 
a regulation that is being----
    Senator Alexander. General, it's dangerous to go out in the 
woods hunting. It's dangerous to get in a boat fishing. I mean, 
there's not a rule that says that you're supposed to eliminate 
risk.
    I mean, let me ask you a question. There are 129,000 public 
railroad crossings in the United States. In order to make 
things safe, would you suggest, if you were in charge of 
railroad crossings, keeping the gate crossing down 100 percent 
of the time, even when the train wasn't coming?
    General Bostick. I would not recommend that.
    Senator Alexander. Yes. And there are 84,000 of those 
public railroad crossings that don't have gates. They just have 
warning signs or the train blows its whistle. That's exactly 
what you do now at those dams. You have warning signs.
    And in some cases, I know at the TVA dams, they blow a 
siren when the water is spilling through the gates. I mean, you 
can just go so far in terms of helping someone avoid risk. And 
after that, you have got to assume that someone has enough 
sense not to sit on the railroad track when the train's coming, 
or to sit in a boat under the dam when the water's spilling 
through the dam. And you can have people there to enforce that 
rule.
    I think it's just completely unreasonable. And your own 
lawyer--I mean, you cited your inspector general. It sounds 
like you got skittish because of an inspector general's report. 
And you suddenly decide to stop a practice that hundreds and 
hundreds and thousands and thousands of people have enjoyed for 
the whole time the dams have been built.
    I mean, some of the most avid fisherman there, and people 
who oppose this rule, are your retired Corps engineer employees 
who, with their grandchildren, like to fish below the dam. In 
fact, they like to fish just below the dam because that's the 
best fishing. So why would you not work with the State agencies 
and come up with a plan that made sure that everybody had an 
automatically inflatable lifejacket, whether they were on the 
bank or below the river, and make that your plan for 
restricting access below the dam?
    General Bostick. Well, as I said, Senator, I'm a fisherman 
as well. And I know how good the fishing is in that part of the 
river.
    That being said, we're also responsible for the safety of 
the individuals, given our responsibilities. So what I can say 
is, I'll look at this. I have looked at it deeply. Given our 
conversation here, I will go back and look at it again and 
discuss it with Secretary Darcy.
    We have worked very closely with the State and the locals.
    Senator Alexander. Well, General, with all respect, the 
State does not think so. I mean, the chief boating safety 
people in the State of Tennessee and Kentucky, I mean, they're 
in charge of boating safety. They're the ones who do it. I know 
you also do some of that below your dams. But they think you're 
being completely unreasonable. They don't think Colonel DeLapp 
has listened to them. These aren't trivial people.
    I mean, Mr. Carter, I read his background in boating 
safety. I mean, he's the chief of boating for 19 years in 
Tennessee, appointed by the Secretary of Homeland Security to 
serve on the National Boating Safety Advisory Council. He says 
if there's a lot of water pouring through the spill gates, we 
can understand the restrictions on hazardous days. We all agree 
with that.
    Otherwise, our boating accident reports indicate anglers 
have a good safety record below dams. We don't see a rational 
reason to prevent them from fishing there. He's repeatedly 
offered to work with the Corps to discuss alternative measures 
to improve safety. He said that the State would consider 
amending its existing rules so that only automatically 
inflatable lifejackets or traditional floatation devices are 
the only acceptable kind.
    And the information I have suggests that if that were the 
rule, that there wouldn't have been any deaths below the dam 
since 1970. If everybody had been wearing an automatically 
inflatable lifejacket, there wouldn't have been any deaths 
below the dam.
    So it's a lifejacket problem, perhaps, rather than a water 
problem. And I would like, respectfully, to ask you to 
consider--I know Colonel DeLapp is trying to do his job, but 
there is more than one way to skin a cat, and there is more 
than one reasonable way to do this. And I'd like to ask you to 
consider this.
    I don't like to be put in a position to have to disapprove 
reprogramming requests as they come to me and to Senator 
Feinstein, but I'm going to do it, if it takes that. And we've 
also got legislation to change the law. We shouldn't have to do 
it.
    Now let me ask you one last question, if I may. It would 
take $2.6 million to do all of the things that you were first 
planning to do to restrict access to fishing below the dams on 
the Cumberland River. Where are you going to get that money at 
a time of sequestration?
    General Bostick. $2.6 million was the original amount, if 
we had a cable across that area. It's $1.5 million, and we 
would use the funds that we have.
    Senator Alexander. If it's $1.5, why don't you have to come 
to us for reprogramming authority?
    General Bostick. It's in the O&M budget.
    Senator Alexander. What is that?
    General Bostick. The Operation and Maintenance budget.
    Senator Alexander. So you can do anything you want to in 
the Operation and Maintenance budget without reprogramming 
authority, regardless of amount?
    General Bostick. We can use the Operation and Maintenance 
budget for operations and maintenance in those particular 
projects.
    Senator Alexander. So you're going to take $1.5 million 
from other operations and maintenance priorities, and use it to 
restrict fishing below the dams?
    General Bostick. We've constantly got to look at our 
priorities, and safety is among our highest priorities. So it's 
not that we're wanting to take it from another activity within 
the project. Public safety is first and foremost.
    Senator Alexander. Well, if you've got a lifejacket problem 
instead of a water problem, and the entire United States 
Senate, your former lawyer, the chief boating agencies, and 
most of the people in Tennessee and Kentucky and visitors from 
all over America who would like to fish below the dam think 
that you may have made an error in judgment here--you know, 
sometimes I make errors in judgment, too. And I usually have to 
adjust my point of view and look for another reasonable point 
of view. I'd like to ask you to do the same thing.
    And I have great respect for the Corps of Engineers and the 
work you do. I think I tried to show that in my opening 
comments with the work on Wolf Creek and the work on Center 
Hill. I'm looking for ways to make dramatic changes to permit 
the Corps to do things at ports, locks, and dams.
    And I don't want to interfere with normal reprogramming 
requests. But I will if I have to do that.
    So I'd like to ask you to not just show respect to me, but 
show respect to the elected officials. I mean, that's a proper 
thing to do.
    I show respect to the President. He's elected. He shows 
respect to us, when we have differences of opinion. I show 
respect to the opinion of the Senator from California, because 
she's entitled to that and it may be a different point of view.
    Senator Feinstein. And always right.
    Senator Alexander. And never wrong, of course.
    Senator Feinstein. Right.
    Senator Alexander. But we have to do that. And so I'd like 
to ask you to do the same thing in this case.
    Thank you, Madam Chair.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Thank you very much. I'm sure the 
General will come up with some solutions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Jo-Ellen Darcy
            Questions Submitted by Senator Dianne Feinstein
                          berryessa creek, ca
    Question. Secretary Darcy, funding for the Upper Berryessa Creek 
Project was not included in your fiscal year 2014 budget request. This 
project enjoys a substantial benefit-to-cost ratio and is necessary to 
stop severe flooding which occurs approximately every 4 years. Flood 
protection improvements will not only safeguard area residents, 
businesses, and infrastructure, but are critical to the construction of 
Bay Area Rapid Transit's Berryessa extension--a project that the 
Federal Government has already put significant resources towards (more 
than $250 million to-date).
    Are you aware that development of BART's Silicon Valley Extension 
is contingent upon this flood protection project being completed on 
schedule?
    Answer. Yes. At this time, the Director's Report is scheduled to be 
completed by December 2013.
    Question. Is there coordination or communication between the Corps 
and the Department of Transportation on this effort?
    Answer. The Corps has not discussed this project with the 
Department of Transportation.
    However, the non-Federal Sponsor, the Santa Clara Valley Water 
District (SCVWD), is working closely with the VTA (Valley 
Transportation Authority/BART) to coordinate any changes in schedule 
and project features.
    Question. What can you do to ensure that completion of this 
important project occurs on a schedule that will allow the region to 
continue moving forward on the BART extension?
    Answer. The SCVWD has approached the Corps regarding the 
possibility of providing contributed funds to mitigate the impacts on 
the construction of this project.
                army corps crediting--waiver exceptions
    Question. Secretary Darcy, recognizing that budget constraints will 
affect the Corps' civil works program, I am concerned that the Corps' 
ability to respond to flood threats will fall further behind and leave 
residents and properties vulnerable.
    I know that some local sponsors are expediting levee improvements 
and other projects, advancing funds ahead of Corps budgeting in order 
to move projects along. The decision 2 years ago to replace Section 104 
in-kind credit with Section 221 credit remains unknown to many local 
sponsors and has delayed the date when a local sponsor can enter into 
an agreement with the Corps to ensure that local sponsor expenditures 
will be credited toward the required cost share.
    You have agreed to consider waivers from that Section 221 policy on 
a case-by-case basis, and I am aware of at least three local sponsors 
who have requested such a waiver.
    Can you tell me the status of those waiver requests and the 
criteria you are using to evaluate them?
    Answer. The requested waivers could not be granted because the non-
Federal sponsors carried out the work for which the waivers were 
requested prior to entering into a Memorandum of Understanding. Section 
221 of the Flood Control Act of 1970, as amended by Section 2003 of 
WRDA 2007, allows the Corps to provide a credit only for work performed 
after execution of the Memorandum of Understanding.
    Question. Some flood control districts have told my staff that they 
still do not know by what criteria requests for waivers will be 
evaluated and granted. For planning purposes, they would very much like 
to know the criteria you will be using. Have you issued, or do you plan 
to issue, any guidance or policy document to specify the criteria for 
waivers? Why or why not?
    Answer. The Corps issued guidance in its Engineering Regulation, ER 
1165-2-208 dated 17 February 2013, for in-kind contribution credit, 
which considers and balances the Federal and non-Federal interests in 
project development. Further, the guidance requires a reasonable 
likelihood that the work undertaken by a non-Federal sponsor will be 
determined to be an integral part of the recommended Federal project. 
Each project involves its own unique set of circumstances. Requests for 
exceptions to the policy will be considered where a compelling need can 
be demonstrated, and will be determined on a case by case basis.
    Question. Why is flood control spending down in your budget for 
fiscal year 2014 when compared to fiscal year 2013?
    Answer. The primary reason that the budget in fiscal year 2014 
appeared to include less funding for flood risk reduction projects than 
in the fiscal year 2013 budget was because dam safety modification work 
at Wolf Creek Dam, KY was funded to completion in the fiscal year 2013 
budget.
    Question. Of the ten new study starts that you have proposed, six 
are for ecosystem restoration or environmental compliance. Two are for 
navigation and one is flood control/ecosystem restoration. What is your 
selection process for your proposed new starts?
    Answer. In evaluating studies to propose in the Budget to start in 
fiscal year 2014, we considered their potential to result in high 
economic or environmental returns, or to address a significant risk to 
public safety.
    Question. You have again proposed a Water Resources Priority Study. 
What useful information will this study provide to the Corps?
    Answer. This investigation will provide a baseline assessment of 
the Nation's flood risks at both a regional and national scale. This 
assessment will provide a foundation for informing improved, 
coordinated flood risk action and strategies at the Federal, State, and 
local levels. The study will explain why the risks are greater in some 
floodplains and some coastal locations than in others, as well as why 
and how the risks may be changing over time. The study will assess 
existing information on: (1) the number of people who live or work in 
places where they are potentially at risk of floods; (2) the value of 
the property that is potentially at risk; and (3) actual flood-related 
losses (e.g., the frequency and magnitude of large losses, where such 
losses have been occurring, and the incidence of repetitive losses), in 
order to identify possible nationwide trends that will better inform 
nationwide flood risk management decisions and actions. Additionally, 
the study will assess the extent to which existing Federal, State and 
local flood risk management programs operate successfully (individually 
and together), as well as identify where these organizations may be 
working at cross-purposes. The report will look at not only programs of 
the Corps of Engineers, but also at a broad array of Federal, State, 
and local programs and strategies, to include an exploration of the 
respective and appropriate roles of Federal, State, and local programs, 
and of their ability to work together. The study's purpose is to 
develop a basis for identifying better ways to approach flood risk 
management priorities, including ways to reduce costs by improving the 
effectiveness, efficiency, and accountability of existing programs and 
strategies.
    Question. You have proposed four new construction projects in your 
budget. The total cost of these projects will likely approach $2 
billion. Yet your construction budget is reduced $121 million from your 
fiscal year 2013 proposal. With flat to declining budgets, how will 
these projects get completed in a timely manner?
    Answer. The Budget included funding to complete seven construction 
projects in fiscal year 2013 and another five projects in fiscal year 
2014. As projects are completed and the funding requirements for those 
projects end, more resources are available for funding priority new 
and/or ongoing work. All four of the new construction projects are high 
priority projects and were selected because they competed favorably 
with the projects in our ongoing construction program. These new start 
construction projects will continue to compete favorably in future year 
budgets. Also, one of the new construction starts proposed in fiscal 
year 2014--Louisiana Coastal Area Ecosystem Restoration, Louisiana--
accounts for most of the total costs referenced in the question. It is 
a much needed next step in the effort to stem an ongoing loss of 
wetlands and restore this nationally significant ecosystem.
    Question. In your budget request you generally require a project to 
have a benefit to cost ratio of 2.5. How did you arrive at that figure?
    Answer. Since the fiscal year 2006 Budget, the Corps construction 
program has used performance-based guidelines to decide which projects 
to fund. While the guidelines continue to evolve in response to lessons 
learned, their goal has remained the same--to produce as much value as 
possible for the Nation from available funds. The benefit-cost ratio 
threshold of 2.5 to 1 or more is one of these performance-based 
guidelines. It applies to ongoing construction projects that are being 
funded primarily to provide an economic return for the Nation.
    Question. There appear to be a number of projects included with 
less than a 2.5 b/c ratio. How are they chosen and will you please 
provide the specific criteria that applies to each?
    Answer. The fiscal year 2014 budget funded 79 projects in the 
construction program, based on 12 performance-based guidelines. The 
benefit-cost ratio threshold of 2.5 to 1 is one of these performance-
based guidelines. It applies to ongoing construction projects that are 
being funded primarily to provide an economic return for the Nation. 
The following projects were funded in the Budget primarily based on one 
of the other 11 construction performance guidelines:


------------------------------------------------------------------------
            PROJECT NAME                  PRIMARY BUDGETARY CRITERIA
------------------------------------------------------------------------
BLUESTONE LAKE, WV (DAM SAFETY)      DAM SAFETY ASSURANCE, SEEPAGE
                                      CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
BOLIVAR DAM, MUSKINGUM RIVER LAKES,  DAM SAFETY ASSURANCE, SEEPAGE
 OH                                   CONTROL,
(SEE PAGE CONTROL)                   STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
CENTER HILL DAM CANEY FORK RIVER,    DAM SAFETY ASSURANCE, SEEPAGE
 TN                                   CONTROL,
(DAM SAFETY)                         STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
DOVER DAM, MUSKINGUM RIVER, OH       DAM SAFETY ASSURANCE, SEEPAGE
(DAM SAFETY)                          CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
EAST BRANCH CLARION RIVER LAKE, PA   DAM SAFETY ASSURANCE, SEEPAGE
(DAM SAFETY)                          CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
ROUGH RIVER MAJOR REHAB, KY          DAM SAFETY ASSURANCE, SEEPAGE
(DAM SAFETY)                          CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
HERBERT HOOVER DIKE, FL              DAM SAFETY ASSURANCE, SEEPAGE
(SEEPAGE CONTROL)                     CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
ISABELLA DAM, CA                     DAM SAFETY ASSURANCE, SEEPAGE
(DAM SAFETY)                          CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
CANTON LAKE, OK                      DAM SAFETY ASSURANCE, SEEPAGE
                                      CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
ILLINOIS WATERWAY, LOCKPORT L&D, IL  DAM SAFETY ASSURANCE, SEEPAGE
                                      CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
LOCKS AND DAMS 2, 3 AND 4,           DAM SAFETY ASSURANCE, SEEPAGE
 MONONGAHELA RIVER, PA                CONTROL,
                                     STATIC INSTABILITY CORRECTION
------------------------------------------------------------------------
AMERICAN RIVER WATERSHED             PROJECTS WITH SIGNIFICANT RISK TO
(FOLSOM DAM MODIFICATIONS), CA        HUMAN SAFETY
------------------------------------------------------------------------
AMERICAN RIVER WATERSHED             PROJECTS WITH SIGNIFICANT RISK TO
(FOLSOM DAM RAISE), CA                HUMAN SAFETY
------------------------------------------------------------------------
BRAYS BAYOU, HOUSTON, TX             PROJECTS WITH SIGNIFICANT RISK TO
                                      HUMAN SAFETY
------------------------------------------------------------------------
EAST ST LOUIS, IL                    PROJECTS WITH SIGNIFICANT RISK TO
(DEF CORR ONLY)                       HUMAN SAFETY
------------------------------------------------------------------------
CHAIN OF ROCKS CANAL,MISSISSIPPI     PROJECTS WITH SIGNIFICANT RISK TO
 RIVER, IL                            HUMAN SAFETY
(DEF CORR)
------------------------------------------------------------------------
MUDDY RIVER, MA                      PROJECTS WITH SIGNIFICANT RISK TO
                                      HUMAN SAFETY
------------------------------------------------------------------------
RARITAN RIVER BASIN, GREEN BROOK     PROJECTS WITH SIGNIFICANT RISK TO
 SUB-BASIN, NJ                        HUMAN SAFETY
------------------------------------------------------------------------
RIO PUERTO NUEVO, PR                 PROJECTS WITH SIGNIFICANT RISK TO
                                      HUMAN SAFETY
------------------------------------------------------------------------
ROANOKE RIVER UPPER BASIN,           PROJECTS WITH SIGNIFICANT RISK TO
 HEADWATERS AREA, VA                  HUMAN SAFETY
------------------------------------------------------------------------
SANTA ANA RIVER MAINSTEM, CA         PROJECTS WITH SIGNIFICANT RISK TO
                                      HUMAN SAFETY
------------------------------------------------------------------------
TURKEY CREEK BASIN, KS & MO          PROJECTS WITH SIGNIFICANT RISK TO
                                      HUMAN SAFETY
------------------------------------------------------------------------
YUBA RIVER BASIN, CA                 PROJECTS WITH SIGNIFICANT RISK TO
                                      HUMAN SAFETY
------------------------------------------------------------------------
ASSATEAGUE ISLAND, MD                MITIGATION AND/OR ENVIRONMENTAL
                                      REQUIREMENTS
------------------------------------------------------------------------
COLUMBIA RIVER FISH MITIGATION, WA,  MITIGATION AND/OR ENVIRONMENTAL
 OR & ID                              REQUIREMENTS
------------------------------------------------------------------------
LOWER CAPE MAY MEADOWS, CAPE MAY     MITIGATION AND/OR ENVIRONMENTAL
 POINT, NJ                            REQUIREMENTS
------------------------------------------------------------------------
LOWER COLUMBIA RIVERECOSYSTEM        MITIGATION AND/OR ENVIRONMENTAL
 RESTORATION, OR & WA                 REQUIREMENTS
------------------------------------------------------------------------
LOWER SNAKE RIVER FISH AND WILDLIFE  MITIGATION AND/OR ENVIRONMENTAL
COMPENSATION, WA, OR & ID             REQUIREMENTS
------------------------------------------------------------------------
MISSOURI RIVER FISH & WILDLIFE       MITIGATION AND/OR ENVIRONMENTAL
 RECOVERY,                            REQUIREMENTS
IA, KS, MO, MT, NE, ND & SD
------------------------------------------------------------------------
ELK CREEK LAKE, OR (After Dam        MITIGATION AND/OR ENVIRONMENTAL
 removal work)                        REQUIREMENTS
------------------------------------------------------------------------
RICHARD B RUSSELL DAM AND LAKE, GA   MITIGATION AND/OR ENVIRONMENTAL
 & SC                                 REQUIREMENTS
------------------------------------------------------------------------
WILMINGTON HARBOR, NC (NAV)          MITIGATION AND/OR ENVIRONMENTAL
                                      REQUIREMENTS
------------------------------------------------------------------------
CHESAPEAKE BAY OYSTER RECOVERY, MD   ENVIRONMENTAL RETURN
 & VA
------------------------------------------------------------------------
CHICAGO SANITARY AND SHIP CANAL      ENVIRONMENTAL RETURN
 DISPERSAL BARRIER, IL
------------------------------------------------------------------------
DUWAMISH AND GREEN RIVER BASIN, WA   ENVIRONMENTAL RETURN
------------------------------------------------------------------------
EVERGLADES , FL                      ENVIRONMENTAL RETURN
------------------------------------------------------------------------
HAMILTON CITY, CA                    ENVIRONMENTAL RETURN
------------------------------------------------------------------------
LOUISIANA COASTAL AREA ECOSYSTEM     ENVIRONMENTAL RETURN
 RESTORATION, LA
------------------------------------------------------------------------
LOWER SAVANNAH RIVER BASIN, GA       ENVIRONMENTAL RETURN
------------------------------------------------------------------------
NAPA RIVER, SALT MARSH RESTORATION,  ENVIRONMENTAL RETURN
 CA
------------------------------------------------------------------------
POPLAR ISLAND, MD                    ENVIRONMENTAL RETURN
------------------------------------------------------------------------
UPPER MISSISSIPPI RIVER              ENVIRONMENTAL RETURN
 RESTORATION, IL, IA, MN, MO & WI
------------------------------------------------------------------------
CALCASIEU RIVER & PASS, LA           DREDGED MATERIAL DISPOSAL FACILITY
------------------------------------------------------------------------
CHARLESTON HARBOR, SC                DREDGED MATERIAL DISPOSAL FACILITY
------------------------------------------------------------------------
SAVANNAH HARBOR DISPOSAL AREAS, GA   DREDGED MATERIAL DISPOSAL FACILITY
 & SC
------------------------------------------------------------------------
TAMPA HARBOR, FL                     DREDGED MATERIAL DISPOSAL FACILITY
------------------------------------------------------------------------
WILMINGTON HARBOR, NC (DMDF)         DREDGED MATERIAL DISPOSAL FACILITY
------------------------------------------------------------------------
LOWER COLORADO RIVER BASIN (ONION    NON-STRUCTURAL FLOOD DAMAGE
 CREEK), TX                           REDUCTION
------------------------------------------------------------------------
DELAWARE RIVER MAIN CHANNEL, NJ,     COASTAL NAVIGATION PROJECT
 PA, DE
------------------------------------------------------------------------
COLUMBIA RIVER CHANNEL               COASTAL NAVIGATION PROJECT
 IMPROVEMENTS, OR & WA
------------------------------------------------------------------------
COLUMBIA RIVER AT THE MOUTH, OR &    PRIORITY NEW START, SIGNIFICANT
 WA                                   RISK TO HUMAN SAFETY
------------------------------------------------------------------------

    In addition, the fiscal year 2014 budget funded construction work 
on two projects without reference to the construction performance 
guidelines--the Grand Prairie and Bayou Meto projects, AR.
    Question. I notice that you have finally increased funding for 
dredging the Lower Mississippi river from the lower numbers of the last 
few years to a request of $84.1 million. How much have we spent on the 
Lower Mississippi to maintain the navigation channel for each of the 
past 5 years? Do you have a plan to address the needs if the request 
proves insufficient?
    Answer. The following is a table of O&M expenditures for the 
Mississippi River, Baton Rouge to the Gulf, LA project for the last 5 
years:


------------------------------------------------------------------------
  Fiscal Year      Baseline      Recovery     Supplemental      Total
------------------------------------------------------------------------
         2008    $66,315,426            $0    $21,472,291    $87,787,717
         2009     52,898,676    21,500,000     40,235,519    114,634,195
         2010     51,377,053    23,300,673     59,724,145    134,401,871
         2011     65,553,242    11,694,532     29,493,133    106,740,907
         2012    112,037,159             0         38,752    112,075,911
------------------------------------------------------------------------

    Question. Dredging needs in the Lower Mississippi vary considerably 
from year to year. The Corps monitors the channel conditions on a 
regular basis and uses that information to schedule dredging activities 
and maintain navigation. The fiscal year 2014 budget amount of $84.1 
million for the project is appropriate given the anticipated needs in 
fiscal year 2014. Should additional funding be required to address the 
dredging needs in the Lower Mississippi River, and depending on the 
urgency of that need and other priorities, the funding that the 
Congress has been setting aside in the Operation and Maintenance 
account for an emergency could be utilized, or the Corps could seek to 
reprogram funds from another project.
    Your request for the Missouri River Fish and Wildlife Recovery is 
up significantly this year to $70 million. Will this level of funding 
allow you to do the necessary work required to continue operations of 
the Missouri River?
    Answer. The $70 million will allow the Corps to award a $20 million 
contract for the Yellowstone Intake Diversion Dam. Modifying this 
structure is a key action in the effort to avoid jeopardy to the 
endangered pallid sturgeon and comply with the U.S. Fish and Wildlife 
Service's 2003 Amended Biological Opinion.
    Question. What flood control work remains to be constructed on the 
Missouri River system?
    Answer. The authorized flood control work remaining to be 
constructed on the Missouri River system is the Kansas Citys Local 
Protection Construction Program, Missouri and Kansas. The Kansas Citys 
Local Protection Construction Program, Missouri and Kansas Phase I 
addresses four of the seven levee units along both banks of the 
Missouri and Kansas Rivers in the Kansas City Metropolitan area, 
including the--Argentine, East Bottoms, Fairfax-Jersey Creek, and North 
Kansas City Levee Units. All construction activities are complete on 
the North Kansas City Unit; funding for work on the remaining three 
levee units is included in the fiscal year 2014 budget.
    Repair work from the 2011 flood continues at two Missouri River 
projects, Gavins Point Dam, South Dakota, and Oahe Dam, South Dakota, 
is scheduled to be completed in fiscal year 2014. Using existing funds, 
work at Fort Randall Dam, South Dakota and Big Bend Dam, South Dakota 
is scheduled to be completed in fiscal year 2015, and work at Garrison 
Dam, North Dakota and Fort Peck Dam, Montana, is scheduled to be 
completed in fiscal year 2016. While this work is underway, the system 
will be fully operational and capable of responding to most probable 
runoff events. If a historic runoff event in the upper probabilistic 
range occurs during this period, while the repairs are underway, the 
system will be able to operate as designed, but some areas downstream 
will likely experience significant flood damage.
    On the Missouri River Bank Stabilization Navigation Project (BSNP), 
the Corps has placed more than $23 million in contracts to open the 
channel, repair damaged river structures and ensure the channel is not 
impacting levee systems in the river reach from Rulo, NE to Sioux City, 
IA. Contract placement is currently at 50 percent.
    Funding was provided for the repairs of 47 Federal and non-Federal 
levee systems within the program along the Missouri River. This was 
accomplished with approximately $20.1 million for construction. All 47 
protection projects, comprised of 30 construction contracts, have been 
completed and are working through the financial closeout process. There 
have also been five contracts awarded for approximately $24 million to 
repair damaged river structures and ensure the channel is not impacting 
levee systems in the river reach from Rulo, NE to Glasgow, MO. Two of 
the 4 contracts are completed and 3 are ongoing. Current overall 
placement is currently at 57 percent or 515,000 tons of the 900,000 
tons contracted.
                           dam safety funding
    Question. Dam safety funding is reduced significantly from the 
fiscal year 2013 request. This item had remained constant at about $400 
million for a number of years. For fiscal year 2014, it is reduced to 
$274 million. To what do you attribute this significant reduction?
    Answer. The major dam safety modification work at Wolf Creek Dam, 
KY was funded to completion in the fiscal year 2013 budget and there 
was no continued budget requirement for that project in fiscal year 
2014. The fiscal year 2014 request maintains full expenditure 
capability on the other highest risk dams.
    Question. Does this reduced funding leave our highest risk dams at 
a greater threat of failure?
    Answer. No. The budget continues to prioritize dam safety measures 
based on risk.
                            inland waterways
    Question. Based on your budget request, do you have concerns about 
potential failures of any of the inland waterway projects in fiscal 
year 2014?
    Answer. The Army is working to facilitate commercial navigation by 
providing safe, reliable, highly cost-effective, and environmentally-
sustainable waterborne transportation systems. The Administration has 
provided significant funding for inland waterways maintenance, with 
emphasis on measures to reduce the incidence of extended unscheduled 
lock closures due to a mechanical failure at the main lock chambers on 
the inland waterways with the most commercial use, which support 90 
percent of all inland waterways commercial traffic.
    Question. Some of them are in serious condition. Do you see a 
potential increase in unscheduled lock outages occurring due to this 
budget request?
    Answer. The Corps is not able to predict whether the number of 
unscheduled lock outages due to a mechanical failure, or their 
duration, will increase or decrease in any particular year. The budget 
gives priority to the maintenance of the locks, dams, and other 
navigation features of the inland waterways based on project condition 
assessments by the Corps. These assessments provide information on the 
risk of failure due to component conditions. The Corps considers this 
risk, and the economic consequences should a failure occur, in 
allocating funding for the maintenance of inland waterways projects. 
The Corps continues to monitor the risk of component failures that 
could affect the movement of substantial traffic and is focused on 
reducing the risk of unscheduled outages due to mechanical failures on 
both high and moderate use inland waterways.
                               hydropower
    Question. The Corps is the biggest Federal producer of hydropower 
in the country. Only $4.88 million is proposed for fiscal year 2014 for 
two projects. What are the hydropower revenues that the Corps produces 
for the Treasury?
    Answer. The Power Marketing Administrations and/or non-Federal 
sponsors sell the power generated from Corps Hydropower Plants. The 
Corps does not track the revenues from those sales or the past 
investments by the Federal Government in these hydropower plants and 
the associated dams, which are the source of this power.
    Question. What is the condition of our Nation's aging hydropower 
projects?
    Answer. Based on the condition assessment process used by the Corps 
within the last 3 years, 36 percent of its turbines and 17 percent of 
its generators are rated as below fair condition. The Corps does not 
collect data on the condition of the many hydropower facilities across 
the Nation that are owned and maintained by non-Federal entities.
    Question. Has there been an increase in unscheduled outages?
    Answer. Yes. In 1999, the Corps average unscheduled outage rate was 
1.97 percent. This has increased to 4.32 percent in 2012.
    Question. Does the Administration have a plan for reinvestment in 
these projects to ensure they continue to supply needed electricity?
    Answer. The fiscal year 2014 budget for hydropower includes funding 
for maintenance as well as the completion of the rehabilitation of one 
hydropower project. In most areas of the country with Corps hydropower 
facilities, the Corps is working with Power Marketing Administrations 
and preference customers on sub-agreements to existing Memoranda of 
Understanding for direct non-Federal financing of major maintenance 
work.
    Question. We provided $ 5.35 billion in disaster funds to repair 
damages to Corps projects in January 2013.
    Was this funding sufficient to repair all of the damages due to 
natural disasters?
    Answer. The $5.35 billion is the amount provided in the Disaster 
Relief Appropriations Act, 2013, in response to Hurricane Sandy. This 
amount included sufficient funding to repair all of the damage to Corps 
projects from Hurricane Sandy.
    Question. If not, did you include funding in your budget request 
for these repairs?
    Answer. The amount provided was sufficient for that purpose. See 
response to previous question.
    Question. If not, why not?
    Answer. The $5.35 billion is the amount provided in the Disaster 
Relief Appropriations Act, 2013, in response to Hurricane Sandy. This 
amount included sufficient funding to repair all of the damage to Corps 
projects from Hurricane Sandy.
    Question. Isn't it important to repair these projects to pre-
disaster conditions to ensure they continue to provide the benefits for 
which they were constructed?
    Answer. The Administration requested this supplemental Corps 
funding to help the affected area recover, and to reduce the future 
flood risk from a large hurricane of this kind.
                     harbor maintenance trust fund
    Question. There seems to be considerable misunderstanding about the 
workings of the Harbor Maintenance Trust Fund. Can one of you simply 
explain how it is collected and how it ties into the overall Corps 
budget?
    Answer. The Water Resources and Development Act of 1986 authorized 
the collection of an ad valorem Harbor Maintenance Tax (HMT) (currently 
0.125 percent of the value of cargo) on cargo to recover costs 
associated with operating and maintaining Federal commercial navigation 
coastal and inland harbors within the United States. More than 90 
percent of the revenue now comes from imports; the rest comes mostly 
from coastwise movement of some domestic cargo, and from passengers. 
All exports are exempt from this tax, and the commodities that are 
carried on the fuel-taxed inland waterways are also exempt from it. 
U.S. Customs and Border Protection (CBP) collects the HMT from 
importers, domestic shippers, and passenger vessel operators using 
certain Federal navigation projects. For cargo movements subject to the 
HMT, the tax liability is incurred by the importer or shipper upon 
unloading the cargo. For passengers, the vessel operator is liable for 
the tax upon providing the service to the passengers. The tax is to be 
submitted quarterly to the CBP. The receipts are deposited in the 
Harbor Maintenance Trust Fund (HMTF) and invested by the Treasury; the 
interest earned on these investments is returned to the trust fund. 
Spending from the HMTF is proposed in the budget and appropriated by 
the Congress. HMTF assets are transferred from the HMTF to the General 
Treasury, as provided in appropriation acts, to finance eligible 
expenditures incurred by the Corps, Saint Lawrence Seaway Development 
Corporation, and Customs and Border Protection. The HMTF reimburses 100 
percent of eligible Corps operation and maintenance expenditures for 
coastal and inland harbors, and of Corps Construction expenditures for 
coastal and inland harbor dredged material placement facilities, 
beneficial use projects, and sand mitigation projects. In developing an 
overall budget for the Civil Works program, each project, program or 
activity competes for funding on an equal basis.
    Question. How does the Administration decide, on an annual basis, 
which projects are eligible for dredging with funds from the HMT?
    Answer. The Corps focuses on work that will provide the greatest 
economic, environmental, and public safety returns to the Nation. 
Coastal and inland harbors eligible for reimbursement from the HMTF 
compete for funding with all other civil works projects. Coastal and 
inland harbors are categorized as high, moderate and low commercial 
use. Funding is focused on the projects with a high or moderate level 
of commercial navigation use (those projects carrying at least one 
million tons of cargo), which move 99 percent of the Nation's 
waterborne commercial cargo.
    For coastal and inland harbors with a low level of commercial use, 
the Corps considers a range of factors such as the use of a harbor as a 
critical harbor of refuge or a subsistence harbor; whether the harbor 
supports public transportation, U.S. Coast Guard search and rescue 
operations, the national defense, or other Federal agency use; the 
reliance on waterborne transportation for energy generation or home 
heating oil deliveries; and the level of commercial use (albeit less 
than a moderate level of commercial use).
    Question. When you propose dredging of a project using HMT funding, 
is the goal to dredge to the constructed dimensions or something else?
    Answer. Dredging plans reflect the economic, environmental, and 
public safety returns to the Nation that result from the work to be 
accomplished. Under these criteria, the Corps dredges some, but not all 
projects to their constructed dimensions. It focuses each year on the 
work that is a priority that year. For large ports, that generally will 
involve dredging a portion of their channels each year--based on the 
predicted channel conditions and the nature of the traffic. Also, the 
deposition of sediment is a dynamic process, which is ongoing even 
while the dredge is on site. Consequently, few if any projects are at 
their constructed dimensions throughout the year.
    Question. What is the annual interest earned off the HMTF balance?
    Answer. Interest on HMTF investments in fiscal year 2012 was $47.3 
million.
    Question. What are the projections of growth in HMT collections 
over the next 10 years?
    Answer. Annual HMT receipts are expected to grow from an estimated 
$1.641 billion in fiscal year 2014 to $2.174 billion in fiscal year 
2023.
    Question. According to numbers from the Corps of Engineers, the 
Federal Government spends more than ten times as much each year 
maintaining the ports of the Great Lakes as it collects in those same 
ports from the Harbor Maintenance Tax. Meanwhile, in California, the 
Federal Government spends less than one tenth of what it collects from 
the HMT maintaining the ports. As a result, some ships have to 
partially unload before they can access some of our ports in the San 
Francisco Bay Area. Why does the Corps believe it is fair for the 
Federal Government to spend more than ten times what it collects in the 
Great Lakes ports, but spend less than one tenth of what it collects in 
California's ports?
    Answer. The HMTF is authorized to fund harbor maintenance and 
related work at coastal and inland ports nationwide, without regard to 
how much HMT may be generated by cargo moving through each port or the 
ports of each State. When developing the budget, the Corps focuses on 
work that will provide the greatest economic, environmental, and public 
safety returns to the Nation.
                         budget justifications
    Question. Even though you were able to produce a press book that 
delineated all of the projects you intended to fund almost concurrently 
with the budget, the justifications for those projects arrived 
yesterday afternoon. We are having this hearing today without the 
benefit of a proper review of the budget justification documents for 
individual projects or the fiscal year 2013 work plan.
    Why does this keep happening year after year?
    Answer. Our goal is to deliver the budget justification sheets to 
Congress concurrently with the Administration's annual budget release 
and we will continue our efforts to improve the timely delivery of 
these documents.
    Question. Whose fault is it that these items don't get cleared and 
submitted to Congress?
    Answer. No one specifically is at fault, but the Administration is 
working to address the problem.
    Question. Is the reason for these seemingly inevitable delays due 
to last minute changes from the Corps or others within the 
Administration?
    Answer. The Corps budget justification sheets reflect the funding 
decisions made through the annual budget development process. The 
Administration is working to provide timely budget justification 
documents to the Congress.
    Question. It certainly seems that if you know what you are going to 
fund in a press book, the justification for that funding request would 
not be that difficult to complete. Is there anything that you can do to 
get these justification documents delivered to Congress in a more 
timely manner?
    Answer. The Administration's goal is to deliver the Corps budget 
justification sheets to the Congress concurrently with the 
Administration's annual budget release. The Administration continues to 
work to improve this process.
    Question. How many budget justifications are produced as a part of 
the budget process for the Corps?
    Answer. Corps budget justification materials are provided for 
projects, studies, and programs within the Army's Civil Works Budget. 
For the fiscal year 2014 Army's Civil Works Budget, 88 Construction 
budget justification sheets were produced, 109 Investigations budget 
justification sheets were produced, 691 Operation and Maintenance 
budget justification sheets were produced, and 23 Other (Expenses, 
Formerly Utilized Sites Remedial Action Program, Regulatory, etc.) 
budget justification sheets were produced, for a total of 911 fiscal 
year 2014 Corps budget justification sheets.
    Question. Are all of these problems that keep them from getting 
cleared or is it selected projects?
    Answer. The process is iterative and sequential. It includes 
reaching decisions on overall funding, allocating that funding, and 
then updating and reviewing the budget justification materials to 
reflect those decisions. The delay generally is not due to decisions on 
selected projects. Part of the problem stems from the decentralized 
organizational structure of the Corps. Sometimes, it may also result 
from a decision to await action on the appropriation for the prior 
fiscal year before reaching final decisions on the budget allocation 
for the next year.
    Question. Couldn't you put the cleared ones up on your website 
while awaiting the problem ones to be cleared?
    Answer. The Administration will consider this suggestion.
                      inland waterways trust fund
Olmsted Project
    Question. Have you developed a schedule for the orderly shutdown of 
the Olmsted project if the cost ceiling for the project is not 
increased in fiscal year 2014?
    Answer. Yes, we would begin to actively slow the project down on 
November 1, 2013, and anticipate shutting down the project on or about 
February 1, 2014, if the authorized project cost is not increased by 
that time.
    Question. If construction of Olmsted is shut down, what additional 
costs could be incurred?
    Answer. The project would incur a minimum of $82 million for 
additional demobilization, remobilization, contract suspension, lost 
effort, escalation (material, labor and equipment) and extended field 
overhead as a result shutting down the project.
    Question. How would a shutdown increase the overall project cost? 
Why?
    Answer. The estimated project cost impacts of implementing a 
slowdown/shutdown scenario range from approximately $82 million to $208 
million with a 1 to 3 year schedule delay depending on if and when the 
increase in the project cost is authorized.
    Question. What are the sunk costs of the project?
    Answer. As of April 30, 2013, expenditures for the project to date 
were $1,534,458,434.
    Question. If the Olmsted project were abandoned, what would the 
Corps have to do to ensure continued navigation on the Ohio River?
    Answer. The primary course of action within the near term would be 
to continue increasing the level of maintenance and repairs to Locks 
and Dams 52 and 53. This would require an increased level of O&M funds 
for an indefinite period, but this approach is limited in the duration 
of its effectiveness. Over time, the challenge of maintaining these two 
structures will increase. At some point, the Corps estimates that it 
will no longer be able to continue to reduce the overall risk of 
failure to an acceptable level. Due to the temporary nature of the main 
lock chambers constructed of sheet pile cells in 1969 (L&D 52) and 1980 
(L&D 53), and the conditions of the original dams and auxiliary 
chambers, which were constructed on timber piles, any significant 
reliability improvements would only be achieved by replacing most of 
the main features of the locks and dams at both sites. This approach 
was evaluated prior to the authorization of Olmsted and rejected due to 
the high cost. If alternatives involving replacement/rehabilitation of 
Locks and Dams 52 and 53 are to be seriously reconsidered, it will be 
necessary to perform the appropriate analyses based upon current 
conditions and costs. Recent analyses of repair needs for L/Ds 52 & 53 
have strictly focused on short term measures necessary to keep them 
operational until Olmsted is completed.
    Question. If the Olmsted project were abandoned, what would the 
next priorities be to fund with the limited funding available in the 
IWTF.
    Answer. The next highest priority at this point is work on Lower 
Monongahela Locks and Dams 2, 3, & 4, PA.
    Question. Are we having more unscheduled outages on the inland 
waterway system due to aging infrastructure? Do you have any estimates 
of what these unscheduled outages are costing the economy?
    Answer. We have made a substantial investment in the periodic 
rehabilitation of the locks and dams with the most commercial use over 
the years. It is not the age of these structures, but their condition, 
that matters. Therefore, the budget allocates maintenance funding among 
inland waterways projects based on project condition assessments by the 
Corps. These assessments provide information on the risk of failure due 
to component conditions. The Corps considers this risk, and the 
economic consequences should a failure occur, in allocating funding for 
the maintenance of inland waterways projects.
    The Corps is focusing on reducing the risk of unscheduled outages 
due to mechanical failures on both high and moderate use inland 
waterways, and monitors the risk of component failures that could 
affect the movement of substantial traffic. The Administration has 
allocated significant funding for inland waterways maintenance, with 
emphasis on measures to reduce the risk of unscheduled lock closures 
due to mechanical failures on the inland waterways with the most 
commercial use, which support 90 percent of all inland waterways 
commercial traffic. For example, the fiscal year 2014 budget includes 
$637 million for operation and maintenance of inland waterways 
projects, including funding to increase the reliability of the locks, 
dams, and other navigation features of these waterways.
    The Corps does not track the estimated cost to the economy of 
unscheduled outages. Some companies would incur costs, which could be 
significant. Others may benefit. For example, the companies that 
provide an alternative mode of transportation, and those that are able 
to provide the goods from another source, would tend to benefit.
                               work plans
    Due to the fact that we had a continuing resolution in fiscal year 
2013 the Corps has been given extraordinary leeway to expend funds for 
the prosecution of water resource projects. Unfortunately the Committee 
has little say, outside of providing criteria to consider, as to how 
these work plans are assembled. We are unsure who within the 
Administration has input into their preparation. It is all very 
mysterious to us. The work plan was due to Congress on April 26 and it 
has still not been submitted.
    Question. Do any of you know when the work plan will be submitted?
    Answer. We are working on finalizing the work plan and will submit 
it to the Congress once it has been completed.
    Question. Why is this process taking so long?
    Answer. The work plan, though it builds on the President's fiscal 
year 2014 budget, involves choosing among many competing candidates for 
additional funding, including projects and activities not funded in the 
budget, and choosing where to take reductions in the Operation and 
Maintenance account. This year, there also are complexities associated 
with the application of sequestration and the across the board 
reductions to programs, projects, and activities.
    Question. In a number of COE and BoR accounts, the CR will provide 
more funding than was included in your fiscal year 2013 budget request.
    Do any of you know whether or not you will be recommending funding 
for items not included in your budget request?
    Answer. Items not included in the budget are being considered for 
allocation of the additional funding above the budget level in three 
accounts (Investigations, Construction, and Mississippi River and 
Tributaries). In the case of the Operation and Maintenance account, 
although the funding level is less than that in the budget, some work 
has become a higher priority based on current project conditions, and 
that work is being considered for funding as well.
    Question. If not, it would appear that utilizing the work plan 
funding is a way for the Administration to shut down all projects 
except those that meet your specialized criteria for budgeting. Is that 
the case?
    Answer. The work plan, like the budget, is performance-based. The 
goal is to provide the best overall return to the Nation from the 
available funding.
    Question. How are local sponsors being impacted by these decisions?
    Answer. Where the allocation provides more funding, the ability of 
the non-Federal cost sharing partner to provide its share would be 
considered. A decision to provide enough to reach a logical stopping 
point would indicate that other work, elsewhere in the Nation, was 
viewed as a higher priority at this time.
    Question. Aren't costs incrementally increased by trying to find 
these logical stopping points as opposed to continuing construction?
    Answer. Deferral of work could result in an increase in costs due 
to price level changes; however, choosing logical stopping points, such 
as completing useful increments of work, is intended to minimize cost 
impacts.
    Question. Won't this end up costing the national economy more in 
the long run if you continue to curtail these projects?
    Answer. The work plan seeks to make the most productive use of 
resources from a National perspective.
                           sequestered funds
    Question. How has the sequester impacted funding for the Army 
Corps' work?
    Answer. There will be impacts to three Civil Works appropriations 
accounts--Operation and Maintenance, Regulatory Program, and Expenses. 
The effects will probably be the greatest in the Operation and 
Maintenance account, due to the high Federal cost of providing service 
at hundreds of existing projects across the Nation. Less funding would 
be available for the operation of these projects. Some planned 
maintenance work would need to be deferred, including reductions in the 
amount of maintenance dredging performed in navigation channels, 
affecting the dimensions to which some projects would be maintained. 
Other deferrals of maintenance work would increase the risk of 
equipment breakdowns, which also could affect the economy by reducing 
the availability of some channels for navigation as well as the ability 
of some multi-purpose dams to generate low-cost hydropower. In the 
Regulatory Program, there would be an increase in the average time for 
issuance of permits and a reduction in the Corps' ability to assist 
people who seek jurisdictional determinations. This would adversely 
affect some private sector investments. The reduction would also affect 
the Corps' ability to monitor completed mitigation work and otherwise 
protect the environment. In Expenses, Corps headquarters and the 
division offices would have less funding for oversight efforts. This 
could affect the Army's ability to ensure an appropriate level of 
performance in the Civil Works program. In each of the other accounts, 
we would also postpone some planned work. That would set back our 
efforts to complete ongoing studies and delay some projects 
construction schedules.
    Question. Has the fact that we are under a continuing resolution 
made a difference in how the Corps program is impacted by the 
sequester?
    Answer. Under a continuing resolution, the Corps may have more 
flexibility, within accounts, in allocating the reduction in funds.
    Question. Does the Civil Works mission of the Corps face any threat 
of furlough from the sequester?
    Answer. Furloughs of individuals assigned to Civil Works are not 
currently anticipated.
               operation and maintenance funding criteria
    Question. Your request says that you have proposed funding for the 
highest priorities but it is impossible to know that without looking at 
your criteria.
    Could you provide us the criteria that you internally utilized for 
preparing the fiscal year 2014 budget request?
    Answer. The Corps uses objective performance-based criteria to 
allocate operation and maintenance (O&M) funds to Corps projects. These 
criteria give priority to key infrastructure and consider the condition 
of the project and the potential consequences (e.g., economic, 
environmental, and public safety impacts) for project performance if 
the O&M activity is not undertaken in the budget year, as well as legal 
factors.
    The criteria, with an explanation of how the Corps applies them, 
are provided below:
  --Project Purpose. Each proposed O&M activity at all projects that 
        the Corps operates and maintains, including those funded in the 
        Mississippi River and Tributaries account, is assigned to one 
        of six program areas: commercial navigation, flood and storm 
        damage reduction, environment, recreation, hydropower and water 
        supply. For projects with multiple purposes, the separable 
        activities are assigned to the program area that they serve. 
        Joint activities are allocated among all program areas served 
        by the project based upon a project-specific allocation 
        formula.
  --Economic Impacts. The benefits that will be accrued for the dollars 
        spent to improve the level of service are considered during the 
        evaluation. For O&M funding decisions, an informed judgment is 
        made using performance data to estimate the economic impact of 
        the activity. Those with a higher return on investment receive 
        a higher priority in the budget process. For example, the 
        evaluation for commercial navigation includes the current and 
        5-year average tonnage (coastal) and segment-ton-miles (inland 
        waterways), cost per ton and cost per segment-ton-mile, as well 
        as other factors such as support for commercial fishing or 
        public transportation (passenger ferries). For flood and storm 
        damage reduction, it includes the risk of loss of life or 
        property; for recreation, it includes visitor attendance; and 
        for hydropower, the risk of facility closure.
  --Asset Management. Reliability of projects is evaluated to determine 
        a project's ability to adequately perform its intended function 
        in a consistent and dependable manner when field conditions 
        allow. Condition classification guidelines are used to 
        determine overall project condition, with component condition 
        assessments performed to evaluate the condition of individual 
        critical components. Consequence rating criteria are used to 
        determine the impact (dollars, lives, etc.) of reduced 
        availability. The results of the condition and consequence 
        evaluations lead to a risk level based on an established matrix 
        for each program area. The risk of not funding the proposed 
        work is evaluated in the budget year in terms of the intended 
        function. Cost effectiveness measures are used to determine the 
        lowest cost solution to improve the overall reliability of the 
        project. These results incorporate both economic and public 
        safety values, as well as any residual risk, which are used to 
        help with project reliability determinations, based on those 
        specific performance measures.
    Question. I am specifically interested in the criteria utilized for 
dredging ports and waterways and for dredging on the Inland Waterways 
System?
    Answer. The Corps focuses work on those projects that have the 
greatest risk of failure and provide the greatest economic, 
environmental, and public safety returns to the Nation. Navigation 
projects are categorized as high, moderate and low commercial 
navigation use. Funding is focused on the projects with a high or 
moderate level of commercial navigation use (coastal projects carrying 
at least one million tons of cargo; and inland waterways with at least 
one billion ton-miles of traffic), which move 99 percent of the 
Nation's waterborne commercial cargo.
    For coastal channels and inland waterways with a low level of 
commercial use, the Corps considers a range of factors such as the need 
to operate and maintain locks; use of a harbor as a critical harbor of 
refuge or a subsistence harbor; whether the harbor or waterway supports 
public transportation, U.S. Coast Guard search and rescue operations, 
the national defense, or other Federal agency use; the reliance on 
marine and inland transportation for energy generation or home heating 
oil deliveries, and the level of commercial use (albeit less than a 
moderate level of commercial use).
    Question. Can you quantify the benefits to the national economy 
that are foregone for the projects that are not funded?
    Answer. The Corps cannot quantify these benefits without an 
extensive economic analysis.
    Question. Various inland navigation projects are facing curtailed 
hours of operation under an initiative concerning levels of service.
    Will the Corps see O&M savings with these reduced hours?
    Answer. The Corps does anticipate saving some O&M funds with 
reduced hours; this reduction in operations cost would be applied to 
maintenance of those or other inland waterways projects.
    Question. What is the criteria being used for these reduced levels 
of service?
    Answer. The criteria used for determining the levels of service 
include the number of commercial and recreational lockages at each 
individual lock. Those with at least 1,000 commercial lockages a year 
are eligible for 24 hour/day operation.
    Question. If it is based on the number of lockages and you restrict 
the hours of operation, doesn't that lead to a downward spiral of 
usage?
    Answer. Generally, the Corps does not anticipate that the reduced 
hours of operation will significantly affect the level of commercial 
usage. However, there could be a reduced number of commercial lockages 
at some of the locks due to the reduced hours of operation.
    Question. How are inland ports supposed to market the availability 
of navigation if it is restricted based on usage?
    Answer. The Corps is working with inland navigation users to 
determine appropriate hours of operation to minimize impacts to 
navigation.
    Question. What will be the impacts to recreational users?
    Answer. Recreational users may see reduced hours of lock 
availability and will also need to continue to time their lock use 
based on their relative priority for use of the locks compared to 
commercial vessels, or as trailer vessels where a lock is being 
operated for commercial traffic by prior appointment only. The Corps 
will continue to work with stakeholders during special events such as 
bass tournaments to operate locks to accommodate participants.
    Question. Are emergency lockages allowed under restricted hours?
    Answer. The Corps has procedures in place that would allow for 
emergency lockages to be considered on a case-by-case basis.
            we can't wait--white house navigation initiative
    Question. Last year the Administration proposed the ``We Can't 
Wait'' initiative to speed coastal navigation projects. We applaud the 
President for this initiative and his initiative to double exports by 
fiscal year 2015, so why aren't more dollars being invested in coastal 
and inland navigation projects like Savannah Harbor, rehabilitation of 
aging infrastructure, dredging of small ports and harbors?
    Answer. The President's budget reflects an appropriate amount for 
the Corps commercial navigation program for fiscal year 2014.
    Question. What progress has been made in speeding up the navigation 
projects that this initiative was intended to help?
    Answer. Executive Order 13604 set up a process for identifying a 
set of infrastructure projects to demonstrate improvements to the ways 
in which Federal agencies issue permits and review infrastructure 
project proposals. A permitting dashboard has been established to allow 
the public to track the progress of the projects included in this 
Presidential initiative. The following navigation projects are included 
on the dashboard:
  --New York and New Jersey Harbor, NY and NJ. The project is currently 
        scheduled for completion in fiscal year 2015, but the 50-foot 
        deepening would be substantially completed in fiscal year 2014. 
        The next scheduled milestone for this project is to apply for 
        water quality certificates from the States of New York and New 
        Jersey for shoal removal and utility corridor contracts. These 
        milestones were delayed due to impacts associated with 
        Hurricane Sandy. The schedule is currently being evaluated and 
        efforts are being made to minimize the schedule impacts as much 
        as possible. The budgets for fiscal year 2013 and fiscal year 
        2014 provided this project the maximum level of funding that 
        the Corps estimated that it could efficiently and effectively 
        use.
  --Savannah Harbor Expansion, GA. All Federal permits and reviews 
        associated with the project have been completed. The Chief's 
        Report was completed in August 2012. Project construction 
        cannot commence until Congress provides additional 
        authorization that raises the Section 902 project cost limit to 
        cover the current estimated costs of the project.
  --Jacksonville Harbor, FL. The feasibility study evaluating options 
        for deepening the navigation channel at this project was funded 
        to completion in the fiscal year 2013 budget and is scheduled 
        to be completed in fiscal year 2014.
  --Charleston Harbor, SC. The feasibility study was rescoped in June 
        2012 to significantly reduce the cost and time to complete the 
        study. The study is currently scheduled to be completed by 
        September 2015.
  --Miami Harbor, FL. The preconstruction engineering and design work 
        for the project was completed in fiscal year 2012, and the non-
        Federal sponsor has agreed to contribute all construction 
        costs. The construction contract is scheduled for award this 
        spring and construction is scheduled for completion in fiscal 
        year 2015, provided that the authorized project cost is 
        increased before January 2014 (so that the contract option for 
        the remaining construction can be awarded).
    Question. I believe Savannah Harbor deepening was one of the 
projects identified, yet it cannot move forward without a cost ceiling 
increase. Should your budget have proposed this cost ceiling increase 
if this is in fact a project that should be expedited?
    Answer. Following completion of the review of project report, the 
Administration indicated its support for an increase in the level of 
appropriations authorized for this project.
    Question. If the President is committed to investing in 21st 
Century water infrastructure, which will strengthen the Nation's 
economy, create jobs, reduce risks, and bolster our long-term global 
competitiveness, is your construction account funded at level that will 
provide that?
    Answer. We believe the Corps fiscal year 2014 Construction account 
invests an appropriate amount in water resources and will strengthen 
the Nation's economy, improve aquatic ecosystems, and reduce 
significant risks to public safety.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                dredging- harbor maintenance trust fund
    Question. Language was included in last year's Transportation bill 
indicating the Sense of the Senate that ``the Administration should 
request full use of the Harbor Maintenance Trust Fund for operating and 
maintaining the navigation channels of the United States'' while 
ensuring that other activities of the Civil Works Program are not 
adversely impacted. I am also a cosponsor of the Harbor Maintenance Act 
which seeks to accomplish the same objective.
    I was disappointed to see the Administration's opposition to 
language in S. 601 that would direct these taxes toward their intended 
purposes, and, in light of the aforementioned dredging deficit, I ask 
how you propose meeting our current needs without utilizing this 
existing revenue stream? Is the Administration also opposed to the 
phased-in approach included in the WRDA Manager's Amendment?
    Answer. The budget amount of $893 million for Harbor Maintenance 
Trust Fund eligible activities reflects an appropriate amount. The 
level of Federal spending to support harbor maintenance and related 
work should reflect consideration for the economic and safety return of 
these investments, as well as a comparison with other potential uses of 
the available funds. It should not be tied to the level of receipts 
from the current ad valorem tax.
    Question. While I recognize the current fiscal constraints, I would 
also like to go on record against the Administration's opposition to 
increasing the depth for authorized Federal cost-sharing from 45 feet 
(WRDA '86) to 50 feet. Ships have gotten much larger, and we need to 
make this strategic investment to stay competitive in the global 
marketplace.
    Answer. This proposed provision would remove an existing 
requirement, under which our largest ports now pay a share of the costs 
of maintenance dredging for work performed beyond 45 feet. The 
Administration believes that these ports should continue to be 
responsible for these costs.
                    inland waterways- iwtf and iwub
    Last year at this hearing, we talked extensively about the 
continued cost escalation of the Olmsted Lock project that was 
authorized in 1988 at a total cost of $775 million. In March 2012, the 
most recent Corps estimate pegged completion costs at $3.1 billion, an 
escalation of over $1 billion since 2011.
    While there is industry support for some increase in user fees, the 
budget proposal assumes enactment of a rather ambiguous proposal that 
would generate an additional $1.1 billion in revenue over 10 years from 
commercial users of our inland waterways.
    Question. As I understand it, this would add 40 new segments to the 
fuel-taxed inland waterways, including many in Louisiana and Texas. 
Please explain the rate structure and details of how this $1.1 billion 
would be generated, and what protections are included to limit this 
broad revenue-raising authority?
    Answer. The budget includes a legislative proposal submitted to the 
Joint Select Committee on Deficit Reduction in 2011, which would reform 
the laws governing the Inland Waterways Trust Fund, including an annual 
per vessel fee to increase the amount paid by commercial navigation 
users of the inland waterways sufficiently to meet their 50 percent 
share of the capital investments that the Army Corps of Engineers 
incurs on their behalf. The revenue from this user fee would supplement 
the revenue from the existing excise tax on liquids used as fuel in 
commercial transportation on the inland waterways.
    The existing inland waterways fuel excise tax does not raise enough 
revenue to achieve its original purpose, which was to cover the user-
financed 50 percent of the costs of the capital investments needed to 
support navigation on these waterways. The Administration's proposal 
would generate an estimated $1.1 billion in additional revenue over 10 
years from the commercial users of these inland waterways. This amount 
reflects estimates of future capital investment for navigation on these 
waterways over the next decade, including an estimate adopted by the 
Inland Waterways Users Board. The Administration's proposal would 
ensure that the revenue paid by commercial navigation users is 
sufficient to meet their share of the costs of capital investments on 
the inland waterways, and would enable a significant increase in 
funding for such investments in the future.
    The user fee section of the proposal involves a delegation of 
authority to the Secretary of the Army. This authority is limited by 
the terms of the legislation, which would allow the structure and 
amount of the user fee to evolve over time, in a manner that would be 
fair to all of the inland waterways navigation users while meeting the 
statutory revenue goals.
    The Secretary of the Army would determine the amount and structure 
of the fee for each fiscal year, within the specific parameters 
established in the legislation, with the goal of ensuring that the 
balance of receipts in the Inland Waterways Trust Fund (IWTF) would be 
sufficient to cover the user-financed share of the costs of inland 
waterways capital investments. More specifically, the fee would be 
phased in over 10 years, and set administratively at a level to collect 
$35,000,000 in receipts the first year, $75,000,000 in receipts the 
second year, and a total of $900,000,000 in receipts over the course of 
the following 8 fiscal years. After the first 10 years, the level of 
the fee would be based on the objective of maintaining a balance of 
between $50 million and $150 million in the Inland Waterways Trust Fund 
at the end of each year, in order to support spending for future 
capital investments.
    Under the Administration's proposal, the Secretary of the Army 
would be able to structure the user fee in two tiers. Nearly all of the 
capital investment by the Corps to support commercial navigation on 
these waterways involves work at Corps locks and dams. Under a two-
tiered fee system, those who use the locks and dams would pay more of 
the non-Federal share of capital investments. This would increase 
economic efficiency by requiring the specific users who benefit from 
these investments to internalize the costs.
    The Administration's proposal also includes other needed changes, 
which would clarify the scope of cost-sharing for inland waterways 
capital investment, and the authority for appropriating funds from the 
Inland Waterways Trust Fund and from the General Fund to finance inland 
waterways costs; and would close an existing loophole under which 
traffic on roughly 1,000 miles of the inland waterways does not now pay 
the fuel tax.
    The proposal to add 40 inland waterways to the statutory list of 
inland waterways in section 206 of the Inland Waterways Revenue Act of 
1978, as amended (33 U.S.0 Sec. 1804) is a modest, useful reform. It 
would only generate a total of approximately $2 million per year. This 
provision is needed for fairness--to ensure that the movement of all 
cargo on all of the inland waterways is subject to the same rules, and 
contributes to the costs borne by other users on an equal basis. The 
traffic on these 40 inland waterways, which accounts for a total of 
around 5 percent of the total ton-miles of the inland waterways, is 
currently exempt from the fuel tax. This provision is also needed to 
facilitate legislative and administrative oversight of the program by 
ensuring that the statutory list of inland waterways actually covers 
all of the inland waterways of the United States.
    Question. I believe we can significantly improve the project 
delivery process with protections against unreasonable cost increases 
and modest increases to the threshold for 'major rehabilitation' 
projects. What efforts has your agency taken to improve the project 
selection and delivery process?
    Answer. The Corps has taken the following actions for projects 
funded from the Inland Waterways Trust Fund in order to improve the 
delivery process: require project management certification; require 
risk-based cost and schedule estimates, and an independent external 
peer review, for projects whose total anticipated cost is equal to or 
greater than $40 million; and apply lessons learned to managing new 
projects. The Corps is looking at system-wide risk and applying asset 
management principles, including evaluating the condition of its 
assets, and analyzing the potential risk of failure and the 
consequences of failure, in selecting projects that would compete for 
capital improvements such as a major rehabilitation. In addition, the 
Corps has established a new inland navigation design center of 
expertise and is developing a portfolio of standardized designs.
    Question. This Committee, along with others, has repeatedly stated 
how important the views of the Inland Waterways User Board are with 
respect to improving these processes and making strategic investments 
in the Nation's inland waterway system. It is my understanding that the 
Secretary of the Army has allowed all 11 IWUB appointments to lapse, 
leaving no one on the board. This is very concerning. Please explain.
    Answer. Recommendations of eligible candidate representative 
organizations have been submitted pursuant to Department of Defense 
(DOD) regulation DODI 5105.04, August 6, 2007, E3.5. Committee Member 
Selection and Appointment Process; OSD policy memorandum dated 27 July 
2010; and the IWUB charter and membership balance plan rules and 
regulations, and are currently under review for selection within the 
DOD. Once DOD completes its assessment of the recommendations, new 
representative organizations will be selected to serve on the Inland 
Waterways Users Board.
                 mitigation-modified charleston method
    Question. The implementation of the Modified Charleston Method has 
created significant additional financial impediments to essential 
coastal protection and restoration projects in my home State that may 
require additional Federal appropriations as a result.
    I commend Colonel Fleming for working with our local levee boards 
to identify a balanced path forward on critical projects that reduce 
coastal Louisiana's exposure to flooding and storm surge in an 
environmentally responsible manner, and I am committed to ensuring this 
progress is not lost during the upcoming change of command later this 
month.
    Do you concur that, as long as a proposed coastal restoration 
project yields an overall positive benefit to the natural environment, 
the Army Corps will not use the MCM to establish any mitigation 
requirements for the project?
    Answer. Regulations set forth in 33 CFR Parts 320 and 332 establish 
requirements for evaluation of proposed project impacts and 
compensatory mitigation. Part 332 specifically addresses procedures and 
requirements for compensatory mitigation and enables districts to 
account for regional variation in wetland types, functions and services 
in determining compensatory mitigation standards. Based on more than 20 
years of experience in reviewing applications for numerous coastal 
restoration projects, the New Orleans District has not identified an 
instance where an activity that yielded overall benefit to aquatic 
resources also required compensatory mitigation. However, it would be 
speculative to predict that a coastal restoration permit would never 
include a compensatory mitigation element because the potential for 
critical resource issues specific to a given future action always 
exists. The Corps needs to evaluate each application based on its own 
merit and circumstances. If compensatory mitigation is required, the 
New Orleans district would follow current regulations and current 
practice, which would include use of MCM (Modified Charleston Method).
    Question. Do you agree that mitigation associated with essential 
levees and related flood control structures along existing and 
established flood protection alignments should require minimal 
mitigation when the local sponsor can demonstrate their efforts avoid 
and minimize negative environmental impacts?
    Answer. The Corps works with all applicants to avoid and minimize 
impacts to aquatic resources to the extent practicable, and then 
requires compensatory mitigation for unavoidable impacts. These steps 
ensure compliance with the Clean Water Act 404(b)(1) guidelines. 
Compensatory mitigation for aquatic resource impacts is often necessary 
to ensure compliance with the requirements of the Clean Water Act and 
the 404(b)(1) guidelines and also to ensure that the activity is not 
contrary to the public interest. Activities involving or adjacent to 
high quality aquatic resources will typically require a higher level of 
compensation than those involving or adjacent to lower quality aquatic 
resources.
             benefit-to-cost ratio- project prioritization
    Question. The internal project prioritization process has become 
increasingly important to the appropriations process since inclusion in 
the President's budget is the only means by which Federal funding can 
be directed to a specific project.
    Language in WRDA 2007 required the Corps to update the principles 
and guidelines by which they evaluate projects. While I understand some 
significant progress has been made, the final regulations are still 
being finalized.
    Louisiana is home to significant energy infrastructure and other 
assets that have a direct impact on the national economy. What measures 
has your agency taken to better account for the regional and national 
impacts of economic disruption in the BCR calculation methodology?
    Answer. USACE has taken a number of recent actions in improving its 
methodologies to better account for impacts of economic disruption of 
storms. Hurricanes Katrina and Sandy, to name just two recent major 
storms, have demonstrated how susceptible our coastal communities can 
be to storm damage, and how this can affect the Nation overall. One of 
the lessons learned from the post-Katrina IPET report is that some 
events can cause widespread and long lasting disruptions at the local 
and regional level (economic, social, cultural, environmental, and 
other disruptions). USACE has made strides in identifying and 
developing the empirical data and tools to assess the probability of 
these storm events occurring and estimate the consequences of such 
impacts. Some specific actions that have been taken include:
  --Gathering of post storm empirical data to assess actual impacts and 
        residual risks;
  --Identification of modeling techniques to assess a range of storm 
        probabilities and water surface footprints;
  --Development and refinement of sea level change guidance and 
        practices (latest guidance issued in 2013);
  --Development of more standardized methods of calculating vehicle 
        damages (guidance issued in 2009); and
  --Development of a coastal storm risk model (in development) which is 
        a second generation of the IPET risk assessment model 
        (developed for New Orleans) used for coastal storm defense 
        planning. This new model evaluates the consequences (economic, 
        environment, loss of life) of coastal storms and assesses the 
        benefits of a range of measures to reduce the flood risk 
        including sea walls, tide gates, levees, non-structural 
        measures, and nature-based features.
              reduced lock operations-actual cost savings
    Question. In an effort to reduce operating expenses and extend the 
service life of existing locks, the Army Corps decided to reduce hours 
of operation at locks throughout the country with less than 1,000 
commercial lockages per year.
    As you know, this has adversely affected many ports and industries 
in Louisiana, and I remain highly skeptical that the potential cost 
savings will materialize and offset the detrimental effects to local 
economies.
    Please provide an update on the cost savings derived from this 
policy change.
    Answer. This change in the levels of service at certain locks 
across the country has been in place for less than 1 year. An estimate 
of the reduction in operations costs or improvements to project 
maintenance is not yet available.
                 environmental infrastructure projects
    Question. Since 1992, Congress has authorized more than 400 
environmental infrastructure projects, yet no Administration has 
included an environmental infrastructure project in their Corps budget.
    Since receiving $200 million in the American Recovery and 
Reinvestment Act of 2009, limited funding has been available for these 
important projects. Does the Corps view these as a low priority or does 
the agency not have the authority they need to include these projects 
as ``new starts'' in their budget request?
    Answer. The Administration could propose funding for these 
projects. However, the budget focuses on the three main mission areas 
of the Corps civil works program (flood and storm damage reduction, 
commercial navigation, and aquatic ecosystem restoration) and related 
efforts. Since the environmental infrastructure program is outside of 
these main missions, the Corps views funding for such projects as a low 
priority.
                         projected cost savings
    Question. The Corps recently submitted a reprogramming request that 
would take $86 million out of the Southeast Louisiana Urban Flood 
Control Project (SELA) account. In the Request for Proposals (RFP) for 
permanent pump stations at the New Orleans outfall canals, the agency 
indicated that it budgeted $700 million for this work.
    I was encouraged to see the winning proposal come in under budget 
at $614 million, and I am interested to know if the agency plans to 
utilize this $86 million to refill the SELA account and ensure 
authorized projects are not adversely affected by the reprogramming 
request?
    Answer. Although a lower than anticipated bid price was received on 
the construction contract for the Permanent Canal Closure & Pump 
Station (PCCP) project, this does not necessarily mean that the overall 
project will cost less than estimated. The $86 million is currently 
being reserved in the project account and will be utilized to address 
construction contingencies, as necessary.
    Also, the $86 million in cost savings involves PCCP funds provided 
in an appropriation for Flood Control and Coastal Emergencies (FCCE) 
under a series of Supplemental Appropriations. These funds cannot be 
reprogrammed across different appropriations to be utilized for 
advancement of the authorized Southeast Louisiana (SELA)--Construction 
projects.
    Question. In an effort to reduce long-term expenditures associated 
with testing and inspecting the large inventory of dams throughout the 
Nation, it is my understanding that the Army Corps has begun the 
verification and validation process for new, low-cost testing methods.
    As I understand it, under Monitoring of Completed Navigation 
Projects in the Remaining Items account, the President budgeted $6 
million for fiscal year 2014. Is this enough to complete the 
verification process?
    Answer. The requested level of funding is an appropriate amount for 
fiscal year 2014 for the verification process. This remaining item, 
which is called Monitoring Completed Navigation Projects, includes many 
activities (coastal and inland). One of them is an initiative to 
develop the tools and methods that will enable the Corps to more 
accurately assess the condition of certain components in a navigation 
lock and dam, whose conditions may be very difficult to determine 
condition because you cannot easily see or fully access them. The 
funding amount in the fiscal year 2014 budget would cover the 
development of several such methods for one of these inaccessible 
components. More specifically, we would use this funding to complete 
the verification process to measure tension and failure in trunion 
rods. In later years, we would develop such methods for other basic 
lock and dam components. It is important that we develop these non-
destructive test methods. The various components have a range of 
material and physical properties, many of which will require the 
development of unique test methods and standards.
    Question. If not, how much more is needed and what are the 
potential long-term cost savings of this method over the current 
process?
    Answer. The requested level of funding is an appropriate amount for 
fiscal year 2014. The Corps does not have an estimate of the potential 
long-term savings from this initiative. However, accurately detecting a 
failure in a key component--before it fails--can reduce the risk of 
unscheduled lock closures. It has the potential both to reduce costs to 
the economy and save taxpayer dollars. That is why the budget proposed 
this initiative.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Sandy struck New Jersey's coastline late last year, 
bringing widespread damage to our valuable beach economy. Empirical 
evidence has so far shown that communities with recently completed 
beach nourishment projects fared better than those without such 
projects. Many of the hardest hit areas did not have beach projects 
because of budget cuts and efforts to limit spending on these projects.
    How did these constraints impact flood risk preparedness in coastal 
areas hit by Superstorm Sandy?
    Answer. The benefits associated with a nourished coastline depend 
upon the condition and maintenance of the beach profiles. Factors that 
can affect maintenance and nourishment of coastlines include Federal 
and non-Federal funding priorities.
    It should be noted that the availability of Federal funding is not 
the only factor impacting the flood risk in coastal communities. Issues 
such as environmental impacts, the economic return, the availability 
and accessibility of suitable sediment, consideration of other 
strategies to reduce the flood risk, local cost-sharing concerns, and 
the acquisition of real estate easements, among others, can also delay 
the implementation of a risk reduction effort.
    Question. I signed a letter to Federal Emergency Management 
Administration (FEMA) Administrator Craig Fugate on March 20 requesting 
that FEMA conduct an expedited study into how Army Corps of Engineers 
flood mitigation structures that are planned, fully funded, but not yet 
constructed would affect FEMA's Advisory Base Flood Elevation (ABFE) 
maps in New Jersey. The letter specifically requested that the study 
identify areas where the completion of the structures could lead to 
flood map revisions. FEMA representatives informed my staff that they 
would reach out to the Army Corps of Engineers, determine whether the 
Army Corps could provide the necessary data, and--if so--move forward 
with the study.
    Has FEMA requested data and information from the Army Corps of 
Engineers about planned flood control structures in New Jersey, and has 
the Army Corps of Engineers provided the requested data and 
information?
    Answer. The Federal Emergency Management Agency has not yet 
formally requested such data and information from the Army Corps of 
Engineers about planned flood control structures in New Jersey.
    Question. The Water Resources Development Act, which is currently 
being debated on the Senate floor, includes provisions intended to 
accelerate projects by streamlining environmental studies associated 
with them. One provision sets up a system of fines intended to penalize 
agencies that take longer than anticipated to comply with environmental 
reviews.
    Do you believe these environmental studies are the sole reason 
causing Army Corps projects to be delayed?
    Answer. No. Cases where environmental compliance requirements are 
the sole cause of delays represent a small percentage of the total 
number of delayed projects. The need to execute amenable project 
partnership agreements, establish federally mandated cost-sharing with 
a non-Federal project sponsor, and obtain real estate easements, all 
affect the schedule of Corps projects.
    Question. The Rahway River Basin and the Millstone River Basin are 
inland areas in New Jersey that are prone to flooding even during low 
rain events, and suffer extreme flooding during high rain events, such 
as Hurricane Irene and Tropical Storm Lee.
    Why does the President's budget request, which provides funding to 
complete 21 studies or project designs, continue to leave these studies 
unfunded and unfinished?
    Answer. Studies of the flood risk in these two river basins were 
given consideration for funding in the formulation of the annual budget 
along with other programs, projects and activities across the Nation in 
competition for the available funds. The Corps considered many factors 
in selecting the studies that are funded in the fiscal year 2014 budget 
for the Flood Risk Management business line including the population at 
risk, population affected, flooding risk depth, and benefit to cost 
ratio for preconstruction engineering and design projects. In addition, 
a risk management approach to reduce risks to human safety and property 
in the flood plain are also considered. The Corps will continue to 
evaluate these two studies for inclusion in future budgets based on 
nation-wide criteria, as described above.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. In March, Representative Bill Enyart and I wrote to you 
to encourage the Corps initiate a Project Labor Agreement (PLA) for 
Federal portions of work being done to repair levees in the Metro East 
Illinois. The locals have taxed themselves to jumpstart this work to 
ensure it is completed by 2015. Your response to our letter, dated 
April 29, left me unclear as to your commitment to a PLA for this 
project.
    Will you work with me and local interests toward a PLA for this 
project in a way that doesn't delay progress on the project?
    Answer. The contracting officer responsible for levee 
rehabilitation project awards will consider the suitability of a 
Project Labor Agreement (PLA) for those procurements in accordance with 
U.S. Army Corps of Engineers policy and consistent with the Federal 
Acquisition Regulations. The contracting officer will conduct necessary 
market research, which involves seeking input from external 
stakeholders and other interested parties and focuses on factors that 
include economy and efficiency to the Federal Government, availability 
of skilled labor in the area, and prior use of PLA's on comparable 
projects in the geographic area. Local Metro East, Illinois, region 
contractors are encouraged to participate in these competitions.
    Question. Last winter, you worked with me and other Senators to 
address historic low water levels on the Mississippi River that 
threatened navigation. Thank you for your personal attention to solving 
the crisis and in particular the Corps' efforts to expedite rock 
pinnacle removal near Thebes and Grand Tower, Illinois. Now that we 
have that crisis behind us, we find flooding is back. Extreme weather 
seems to be the new normal. In response, I authored the Mississippi 
River Navigation Sustainment Act that would for the first time study 
the entire Mississippi River Basin and how we manage it.
    How would a greater understanding of the Mississippi River Basin, 
which is the world's third largest and covers 40 percent of the 
contiguous United States, allow the Corps to better plan for and react 
to extreme low water or flooding in the future?
    Answer. The Corps, in partnership with the Unites States Coast 
Guard and navigation industry was successful in facilitating commercial 
navigation in the Middle Mississippi during the 2012-2013 drought. 
Further, the Federal projects in the Mississippi River Basin were 
successfully managed according to their authorizations to meet the 
challenges of the historic 2011 Floods. Future droughts and floods will 
continue to challenge this Nation and its abilities to sustain 
navigation and reduce the flood risks to the residents and businesses 
in the floodplains of the Mississippi Basin. The fiscal year 2014 
Budget includes first year funding for a multi-year effort to collect 
and study basic data that will update the systems flow lines and flow 
capacity. The purpose of this study is to identify ways to improve upon 
the current operations plan as well as plans for construction and 
maintenance of the levees and the other flood damage reduction features 
of the Lower Mississippi River main stem to ensure their continued 
successful performance as a system.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                      drought coordination efforts
    Question. Last week, New Mexico passed Nebraska as the State most 
affected by the drought. Eighty-two percent of New Mexico is in 
``extreme'' drought or worse, according to the Federal Drought Monitor.
    Commissioner Connor, I want to thank you for attending our water 
conference at NMSU last year.
    Farmers on the lower Pecos River are litigating over scarce water 
supplies. For the first time in its 98-year history, the Elephant Butte 
Reservoir on the Rio Grande could not release any water in April.
    We can't make it rain, but during a drought we need to maximize 
available water. Both your agencies manage dams and reservoirs along 
the Rio Grande in concert, along with irrigation districts and the 
International Boundary and Water Commission.
    What options are the Corps and the Bureau considering for better 
managing this infrastructure to minimize evaporation, seepage, and 
other losses and maximize the amount of water available to growers and 
the environment?
    Answer. The Corps has four Dams within the Rio Grande Basin, two of 
which currently hold a pool of water (Abiquiu Dam & Cochiti Dam), and 
two of which are managed as dry dams (Jemez Canyon Dam & Galisteo Dam). 
The Corps also operates two dams within the Pecos Basin, one of which 
currently holds a pool of water (Santa Rosa Dam), and one which is 
operated as a dry dam (Two Rivers Dam). Some loss of water from 
evaporation, seepage, etc, is inevitable when water is impounded behind 
a structure. One approach taken by the Corps to minimize these losses 
is to utilize our authority to store for water supply purposes in 
higher-elevation (lower evaporation) reservoirs with water supply space 
(Abiquiu and Santa Rosa in aforementioned basins). These reservoirs are 
managed in close coordination, often daily, with Bureau of Reclamation, 
States, and water owners. Although the Corps does not own any water, we 
coordinate closely to most efficiently manage water movement and 
resources. Any proposed measures to further minimize these losses must 
be consistent with all of the authorized project purposes and dam 
safety policies and procedures.
 fiscal year 2013 workplan and budget/concern for nm projects/acequias
    Question. What is the status of the fiscal year 2013 work plan--the 
final decisions on funding for the current year? Given everything I 
mentioned about the state of dramatic drought in New Mexico, can you 
please ensure me that you will weigh in to give us any help we can get?
    In particular, our acequias are the lifeblood of many rural New 
Mexico communities. I can't stress enough how important it is to 
support these irrigation programs. I'm disappointed to see the fiscal 
year 2014 budget has no funding for these projects but I am hopeful 
that something can be done on an agency discretionary basis.
    Answer. The work plan is still being developed. The acequias will 
be considered for funding along with other programs, projects, and 
activities across the Nation.
         san acacia to bosque del apache flood control project
    Question. Almost all of the work for the San Acacia project has 
been completed, but there is no funding in the fiscal year 2014 
proposal for this project. What is the status of the reevaluation 
report and what is the plan to protect Socorro from flooding? My 
understanding is that the local sponsors have cost-sharing funds 
available to begin the project, but I am disappointed that this does 
not show up in the fiscal year 2014 proposal. We need to begin work on 
the levees, especially around Socorro.
    Answer. The reevaluation report for the Rio Grande Floodway San 
Acacia to Bosque del Apache project is scheduled for approval in 
January 2014. The levee at Socorro is planned to be constructed under 
three construction contracts. The first contract is scheduled for award 
in March 2014 using funds carried over from fiscal year 2013.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
    Question. One of the most significant Navigation Improvement 
projects for Maine is Searsport Harbor at Mack Point. The initial study 
was called for by Congress back in 2000. As you know, the plan would 
deepen both the existing entrance channel and turning basin from the 
authorized depth of 35 feet to a depth of 40 feet. The entrance channel 
would also be widened from its current 500 feet at the narrowest point 
to 650 feet.
    The improvements are needed to accommodate the deep draft vessels 
that use the existing terminals at the port. It aims to reduce the 
transportation costs incurred by shippers due to tidal delays and light 
loading of vessels. The State Pier handles aggregates, forest products 
and other bulk cargos. In addition, the Sprague Energy terminal, 
located to the west of the State Pier, receives shipments for both 
Sprague Energy and Irving Oil. Since completion of the State Pier and 
upgrades to the petroleum terminal, the size of ships calling on Mack 
Point/Searsport Harbor has increased. As a result, the depths in the 
Searsport Harbor navigation channel are inadequate for the current and 
future vessel traffic.
    The Corps has released the draft report for pubic and State agency 
review. I am hopeful that it will go before the Corps' Civil Works 
Review Board in June. An expeditious review and completion of the 
``Chief's Report'' is critical in order for authorization of the 
project in the next WRDA bill.
    Assistant Secretary Darcy, will you take a close look at the 
Searsport Project to help ensure that the timeline stays on track? 
Assuming the review is favorable, when do you expect the ``Chief's 
Report'' to be completed?
    Answer. The New England District released the draft Searsport 
Harbor, Searsport, ME Feasibility Report and Environmental Assessment 
for agency and public comment on April 5, 2013. The public notice 
comment period closed on May 6, 2013. Comments were received from 
agencies, communities, stakeholders and the public. Comments are being 
reviewed by the District and will be addressed, as appropriate, in the 
final Feasibility Report (FR) and final Environmental Assessment (EA). 
The District will prepare the application to the State for Water 
Quality Certification and Coastal Zone Management Consistency 
Concurrence, which is scheduled to be submitted to the Maine Department 
of Environmental Protection and the Maine Coastal Program in December 
2013. Following these State approvals, the schedule provides for the 
Corps to submit a draft of the final FR, including the documentation 
required under the National Environmental Policy Act (NEPA), and a 
draft of the Chief of Engineers report, to the Corps Civil Works Review 
Board (CWRB) for review. The CWRB is scheduled for June of 2014. If the 
NEPA process results in a Finding of No Significant Impact, the CWRB 
could clear the draft Chiefs report for State and Agency Review (by 
Federal departments and the State's Governor) in summer 2014, and a 
final Chief's report could be signed in December 2014.
    Question. Fort Kent, Maine has a small earthen levee, which was 
constructed in 1977 to protect the community's downtown business 
district from a possible flood of the Saint John River. In 2008, this 
levee did just exactly that, it protected the downtown from a 500-year 
flood, when both heavy rains and melting snow flooded parts of the Town 
of Fort Kent. Town Manager Don Guimond recently attended an Army Corps 
and FEMA Flood Protection Structure Accreditation Task Force 
stakeholders meeting where he learned that the Corps may be interested 
in conducting risk assessments on small levees. As a result of learning 
about Corps plans, he requested that the Corps explore establish a 
pilot project on the Fort Kent levee to develop criteria and determine 
the best process to conduct future risk assessments on all levees. I 
supported his request in a letter to the Corps.
    Such a pilot program would certainly assist small communities in 
completing a risk assessment and it would provide vital information for 
the benefit of larger levee systems. Has there been any progress in 
developing such a pilot program?
    Answer. The Flood Protection Structure Accreditation Task Force 
report is going through the final vetting process. Once the report is 
finalized and submitted to Congress, the Corps and FEMA will begin 
implementing the actions outlined in the report including the selection 
of risk assessment pilots.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. With circumpolar maritime shipping and resource 
development activity in the Arctic increasing, the United States' 
infrastructure and emergency response capabilities in that region is 
woefully inadequate. The Army Corps has partnered with the State of 
Alaska to plan for potential U.S. ports in the Arctic, and I thank you 
for that. That group has suggested that private industry will most 
likely drive the development of Arctic infrastructure. Is the Corps 
able to enter into partnerships with private industries to develop 
Arctic ports, or are new legislative authorities needed, and if 
sufficient authorities exist, please cite such authorities?
    Answer. The Corps does not have the authority to directly enter 
into partnership agreements with private industry for this purpose.
    Question. What funding streams can the Corps utilize to study, plan 
for, and develop Arctic infrastructure?
    Answer. The Corps is already conducting an Alaska Regional Ports 
Feasibility study under the Investigations Appropriation, which is 
analyzing the need and feasibility of options for improving the 
channels of an existing port, or perhaps developing a new port, along 
the western coast of Alaska. That study could recommend one or more 
Corps projects. If there is a viable local sponsor, the project or 
projects could compete for Preconstruction Engineering and Design (PED) 
funds. Following the completion of PED, the project or projects could 
compete for Construction funding if the Congress authorizes the Corps 
to construct them.
    Question. I am frustrated about the earmark moratorium and our 
inability to fund projects that don't have a high enough benefit-cost 
ratio, and therefore don't make the President's budget request. Despite 
that challenge, this Committee has found a way to fund vital projects, 
and I hope we continue that effort. First, we've begun providing 
funding for Small, Remote, and Subsistence projects for the purposes of 
navigation. How is this funding benefitting the Civil Works program in 
Alaska and the Nation as a whole?
    Answer. In fiscal year 2012, Congress provided $30 million more 
than proposed in the budget for operation and maintenance of small, 
remote, or subsistence navigation nationwide (coastal and inland) and 
$1.5 million more for investigations related to such projects. From 
these added funds, the Army allocated a total of $10.7 million for 
projects in Alaska for two feasibility studies, and to conduct 
maintenance dredging of an additional four harbors. In addition, the 
Army allocated $8.9 million from other navigation funds added by the 
Congress (i.e., not specifically for small, remote, or subsistence 
navigation) in fiscal year 2012 for the Sitka Harbor construction 
project and two additional feasibility studies.
    Question. I understand the Continuing Authorities Program does not 
require specific authorization for smaller navigation projects, but the 
President has not requested any funding for this program in his fiscal 
year 2014 budget. What has previously appropriated section 107 funding 
been used for, and how would fiscal year 2014 funding be used?
    Answer. Any remaining previously appropriated funds would be used 
to continue ongoing work. The budget does not recommend additional 
funding for such projects in fiscal year 2014. Should the Congress 
provide such funding, the Corps would allocate it consistent with 
general guidance for allocating unrequested funding.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. Let me thank everybody. I think it's 
been an interesting panel. The staff sent me a little note that 
said 10 percent of the Senate showed up for this hearing, so 
that indicates how much people really do care about these 
issues.
    I want to thank all of you very much for your service to 
our country and for being here. So thank you very much.
    The hearing is adjourned.
    [Whereupon, at 4:40 p.m., Wednesday, May 8, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
